NO. __________
IN THE

Supreme Court of the United States
303 CREATIVE LLC, A LIMITED LIABILITY COMPANY;
LORIE SMITH,
Petitioners,
v.
AUBREY ELENIS; CHARLES GARCIA; AJAY MENON;
MIGUEL RENE ELIAS; RICHARD LEWIS; KENDRA
ANDERSON; SERGIO CORDOVA; JESSICA POCOCK; PHIL
WEISER,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
PETITION FOR A WRIT OF CERTIORARI
JONATHAN A. SCRUGGS
KATHERINE L. ANDERSON
BRYAN D. NEIHART
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020

KRISTEN K. WAGGONER
Counsel of Record
JOHN J. BURSCH
ERIN M. HAWLEY
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(571) 707-4655
kwaggoner@ADFlegal.org

Counsel for Petitioners

i
QUESTIONS PRESENTED
Artist Lorie Smith is a website designer who
creates original, online content consistent with her
faith. She plans to (1) design wedding websites promoting her understanding of marriage, and (2) post a
statement explaining that she can only speak messages consistent with her faith. But the Colorado
Anti-Discrimination Act (CADA) requires her to
create custom websites celebrating same-sex marriage and prohibits her statement—even though
Colorado stipulates that she “work[s] with all people
regardless of … sexual orientation.” App.53a, 184a.
The Tenth Circuit applied strict scrutiny and
astonishingly concluded that the government may,
based on content and viewpoint, force Lorie to convey
messages that violate her religious beliefs and restrict
her from explaining her faith. The court also upheld
CADA under Employment Division v. Smith, 494 U.S.
872 (1990), even though CADA creates a “gerrymander” where secular artists can decline to speak
but religious artists cannot, meaning the government
can compel its approved messages. The questions
presented are:
1. Whether applying a public-accommodation law
to compel an artist to speak or stay silent, contrary to
the artist’s sincerely held religious beliefs, violates
the Free Speech or Free Exercise Clauses of the First
Amendment.
2. Whether a public-accommodation law that
authorizes secular but not religious exemptions is
generally applicable under Smith, and if so, whether
this Court should overrule Smith.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE
Petitioner 303 Creative LLC is a single-member
limited liability company owned by Petitioner Lorie
Smith, a Colorado citizen. 303 Creative has no stock,
and no parent or publicly held companies have any
ownership interest in it.
Respondents are Aubrey Elenis, in her official
capacity as Director of the Colorado Civil Rights
Division; Sergio Raudel Cordova, Charles Garcia,
Richard Lee Lewis Jr., Ajay Menon, Cherylin
Peniston, and Meremy Ross, in their official
capacities as members of the Colorado Civil Rights
Commission; and Phil Weiser, in his official capacity
as Attorney General for the State of Colorado.
LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Tenth Circuit, No.
19-1413, 303 Creative LLC v. Elenis, judgment
entered July 26, 2021.
U.S. District Court for the District of Colorado,
No. 1:16-cv-02372, final judgment entered September
26, 2019.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE .............................. ii
LIST OF ALL PROCEEDINGS ................................. ii
APPENDIX TABLE OF CONTENTS ....................... v
TABLE OF AUTHORITIES ..................................... vi
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 1
PERTINENT CONSTITUTIONAL PROVISIONS
AND STATUTES .................................................. 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 4
A. Lorie Smith and 303 Creative......................... 4
B. CADA’s targeting of Lorie and other
religious artists................................................ 6
C. Proceedings below ........................................... 7
REASONS FOR GRANTING THE WRIT............... 10
I. The Tenth Circuit decision exacerbates a
three-way split over free-speech defenses to
public-accommodation laws................................ 11
A. The Tenth Circuit and Oregon Court of
Appeals authorize compelled speech under
heightened scrutiny. ...................................... 11
B. The Eighth and Eleventh Circuits and
Arizona Supreme Court do not allow
public-accommodation laws to compel or
restrict speech under heightened scrutiny. .. 14

iv
C. Other courts allow public-accommodation
laws to compel speech—as conduct. ............. 17
D. The Tenth Circuit’s decision contradicts
this Court’s free-speech precedents. ............. 19
II. The Tenth Circuit’s decision substantially
narrows Fulton and underscores Smith’s
inadequacies........................................................ 23
A. The Tenth Circuit contradicts how four
circuits assess statutes that allow
exemptions yet burden religious exercise. ... 24
B. If the Tenth Circuit correctly applied
Fulton, then this Court should overrule
Smith. ............................................................ 29
III.This case raises exceptionally important
issues about free speech and religious liberty. .. 30
IV. This case is an ideal vehicle to resolve the
questions presented. ........................................... 36
CONCLUSION ......................................................... 38

v
APPENDIX TABLE OF CONTENTS
U.S. Court of Appeals for the Tenth Circuit
Opinion in 19-1413
Issued July 26, 2021 ................................................ 1a
Colorado District Court
Opinion and Order Granting
Summary Judgment in 16-cv-02372
Issued September 26, 2019 .................................. 104a
Colorado District Court
Opinion and Order Denying Motion for
Preliminary Injunction and Motion for
Summary Judgment in 16-cv-02372
Issued May 17, 2019 ............................................ 114a
U.S. Court of Appeals for the Tenth Circuit
Order and Judgment granting motion to dismiss
appeal in 17-1344
Issued August 14, 2018 ........................................ 147a
Colorado District Court
Order Granting in Part and Denying in Part
Motion to Dismiss and Denying Motion for
Preliminary Injunction in 16-cv-02372
Issued September 1, 2017 .................................... 154a
Colorado Revised Statute 24-34-601
Discrimination in places of public
accommodation ..................................................... 171a
Joint Statement of Stipulated Facts
Filed in Colorado District Court
No. 16-cv-02372 on February 1, 2017 .................. 173a
303 Creative Wedding Website Announcement
and Statement ...................................................... 196a

vi
TABLE OF AUTHORITIES
Cases
Apilado v. North American Gay Amateur
Athletic Alliance,
792 F. Supp. 2d 1151 (W.D. Wash. 2011) ........... 34
Arizona Free Enterprise Club’s Freedom Club
PAC v. Bennett,
564 U.S. 721 (2011) .............................................. 21
Athenaeum v. National Lawyers Guild, Inc.,
No. 653668/16, 2018 WL 1172597 (N.Y. Sup.
Ct. Mar. 06, 2018) ................................................ 33
Bery v. City of New York,
97 F.3d 689 (2d Cir. 1996) ................................... 20
Blackhawk v. Pennsylvania,
381 F.3d 202 (3d Cir. 2004) ................................. 24
Boy Scouts of America v. Dale,
530 U.S. 640 (2000) .............................................. 30
Brush & Nib Studio, LC v. City of Phoenix,
448 P.3d 890 (Ariz. 2019) ........................ 15, 16, 33
Buckley v. Valeo,
424 U.S. 1 (1976) .................................................. 21
Buehrle v. City of Key West,
813 F.3d 973 (11th Cir. 2015) .............................. 20
Cassell v. Snyders,
990 F.3d 539 (7th Cir. 2021) ................................ 25
Central Rabbinical Congress of United States &
Canada v. New York City Department of
Health & Mental Hygiene,
763 F.3d 183 (2d Cir. 2014) ................................. 24

vii
Chelsey Nelson Photography LLC v. Louisville/
Jefferson County Metro Government,
479 F. Supp. 3d 543 (W.D. Ky. 2020) .................. 16
Church of the Lukumi Babalu Aye, Inc. v. City
of Hialeah,
508 U.S. 520 (1993) ........................................ 24, 27
Coral Ridge Ministries Media, Inc. v.
Amazon.com, Inc.,
6 F.4th 1247 (11th Cir. 2021) .............................. 16
Country Mill Farms, LLC v. City of East
Lansing,
280 F. Supp. 3d 1029 (W.D. Mich. 2017) ............ 32
Craig v. Masterpiece Cakeshop, Inc.,
370 P.3d 272 (Colo. Ct. App. 2015)................ 18, 26
Creek Red Nation, LLC v. Jeffco Midget
Football Association, Inc.,
175 F. Supp. 3d 1290 (D. Colo. 2016) .................. 34
Department of Fair Employment and Housing
v. Miller,
No. BCV-17-102855, 2018 WL 747835 (Cal.
Super. Feb. 05, 2018) ........................................... 32
Elane Photography, LLC v. Willock,
309 P.3d 53 (N.M. 2013) ...................................... 17
Elim Romanian Pentecostal Church v. Pritzker,
962 F.3d 341 (7th Cir. 2020) ................................ 25
Employment Division v. Smith,
494 U.S. 872 (1990) ....................................... i, 3, 29
ETW Corp. v. Jireh Publishing, Inc.,
332 F.3d 915 (6th Cir. 2003) ................................ 20

viii
Fraternal Order of Police Newark Lodge No. 12
v. City of Newark,
170 F.3d 359 (3d Cir. 1999) ................................. 28
Fulton v. City of Philadelphia,
141 S. Ct. 1868 (2021) ................................... passim
Green v. Miss United States of America, LLC,
No. 3:19-CV-02048-MO, 2021 WL 1318665
(D. Or. Apr. 8, 2021) ............................................ 34
Harris v. Quinn,
573 U.S. 616 (2014) .............................................. 16
Hurley v. Irish-American Gay, Lesbian and
Bisexual Group of Boston,
515 U.S. 557 (1995) .............................15, 19, 21, 22
Iancu v. Brunetti,
139 S. Ct. 2294 (2019) .......................................... 20
Islamic Center of Mississippi, Inc. v. City of
Starkville,
840 F.2d 293 (5th Cir. 1988) ................................ 24
Janus v. American Federation of State, County,
& Municipal Employees, Council 31,
138 S. Ct. 2448 (2018) .............................. 14, 15, 19
Jian Zhang v. Baidu.com Inc.,
10 F. Supp. 3d 433 (S.D.N.Y. 2014)..................... 30
Klein v. Oregon Bureau of Labor & Industries,
410 P.3d 1051 (Or. Ct. App. 2017)................. 13, 32
Lexington-Fayette Urban County Human Rights
Commission v. Hands On Originals,
592 S.W.3d 291 (Ky. 2019) .................................. 32

ix
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission,
138 S. Ct. 1719 (2018) ................................... passim
Miami Herald Publishing Company v. Tornillo,
418 U.S. 241 (1974) ........................................ 21, 22
Midrash Sephardi, Inc. v. Town of Surfside,
366 F.3d 1214 (11th Cir. 2004) ............................ 24
Monclova Christian Academy v. Toledo-Lucas
County Health Department,
984 F.3d 477 (6th Cir. 2020) ................................ 25
National Institute of Family & Life Advocates
v. Becerra,
138 S. Ct. 2361 (2018) .................................... 19, 20
Pacific Gas & Electric Company v. Public
Utilities Commission of California,
475 U.S. 1 (1986) ...................................... 20, 21, 22
Resurrection School v. Hertel,
__ F.4th __, 2021 WL 3721475 (6th Cir. 2021) ... 25
Riley v. National Federation of the Blind of
North Carolina, Inc.,
487 U.S. 781 (1988) ........................................ 14, 20
State v. Arlene’s Flowers, Inc.,
441 P.3d 1203 (Wash. 2019) .......................... 17, 18
Stormans, Inc. v. Wiesman,
794 F.3d 1064 (9th Cir. 2015) .............................. 25
Tandon v. Newsom,
141 S. Ct. 1294 (2021) .......................................... 27
Telescope Media Group v. Lucero,
936 F.3d 740 (8th Cir. 2019) ......................... passim

x
Turner Broadcasting System, Inc. v. F.C.C.,
512 U.S. 622 (1994) ........................................ 19, 22
United States Telecom Association v. F.C.C.,
855 F.3d 381 (D.C. Cir. 2017) .............................. 35
West Virginia Board of Education v. Barnette,
319 U.S. 624 (1943) .............................................. 19
White v. City of Sparks,
500 F.3d 953 (9th Cir. 2007) ................................ 20
World Peace Movement of America v.
Newspaper Agency Corp.,
879 P.2d 253 (Utah 1994) .................................... 30
Statutes
28 U.S.C. 1254(1) ....................................................... 1
28 U.S.C. 1291 ............................................................ 1
28 U.S.C. 1331 ............................................................ 1
Colo. Rev. Stat. 24-34-601(2)(a) ................................. 6
Colo. Rev. Stat. 24-34-601(3) ......................... 6, 26, 28
Madison, Wisconsin Code of Ordinances 39.03 ...... 31
Other Authorities
Local Nondiscrimination Ordinances,
Movement Advancement Project,
https://bit.ly/3jWjl4k ............................................ 31
Michael W. McConnell, The Origins and
Historical Understanding of Free Exercise of
Religion, 103 Harv. L. Rev. 1409 (1990) ............. 29
Nondiscrimination Laws, Movement
Advancement Project, https://bit.ly/37PAjvA ..... 31

xi
Richard Wolf, Same-sex marriage foes stick
together despite long odds, USA Today (Nov.
15, 2017), https://bit.ly/3m2czwk......................... 32
Sue Selasky, Lesbian baker in Detroit got
homophobic cake order: Why she made it
anyway, Detroit Free Press (Aug. 13, 2020),
perma.cc/JS53-APD3 ........................................... 33
Sweet Cakes by Melissa announces closure,
KGW8, https://bit.ly/2UHMANk ......................... 32
Web Design Services in the US, IBISWorld
(September 28, 2020), https://bit.ly/3lJ87RC ...... 36
Constitutional Provisions
U.S. Const. amend I ................................................... 1
U.S. Const. amend XIV .............................................. 1

1
DECISIONS BELOW
The district court’s decision granting Respondents’ motion for summary judgment is reported at
405 F. Supp. 3d 907 (D. Colo. 2019), and reprinted at
App.104a–113a. The Tenth Circuit decision affirming
summary judgment is reported at 6 F.4th 1160 (10th
Cir. 2021), and reprinted at App.1a–103a.
STATEMENT OF JURISDICTION
The Tenth Circuit entered judgment on July 26,
2021. Lower courts had jurisdiction under 28 U.S.C.
1331 and 28 U.S.C. 1291. This Court has jurisdiction
under 28 U.S.C. 1254(1).
PERTINENT CONSTITUTIONAL
PROVISIONS AND STATUTES
The First Amendment to the United States
Constitution provides, in relevant part: “Congress
shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech.” U.S. Const.
amend I.
The Fourteenth Amendment to the United States
Constitution provides, in relevant part: “[N]or shall
any State deprive any person of life, liberty, or
property, without due process of law.” U.S. Const.
amend XIV.
Relevant portions of the Colorado
Discrimination Act appear at App.171a–172a.

Anti-

2
INTRODUCTION
The Tenth Circuit below took the “remarkable”
“stance that the government may force [an artist] to
produce messages that violate her conscience.”
App.51a (Tymkovich, C.J., dissenting). What’s more,
the government may restrict speech based on content,
even when that risks “excising certain ideas or viewpoints from the public dialogue.” App.24a. Although
dissenting Chief Judge Tymkovich was “loathe to
reference Orwell, the majority’s opinion endorses
substantial government interference in matters of
speech, religion, and conscience.” App.51a. “It seems,”
he reflected, that “we have moved from ‘live and let
live’ to ‘you can’t say that.’” App.51a–52a.
Lorie Smith is an artist and website designer who
creates original content consistent with her faith. She
plans to expand her business to design wedding
websites that promote her understanding of marriage
as between one man and one woman, and she would
like to post an online statement explaining she can
only speak messages that are consistent with her
religious convictions. But Colorado’s Anti-Discrimination Act (CADA) requires her to create websites
celebrating same-sex marriage and bans her explanatory statement—even though Colorado officials
stipulate that she works with anyone, regardless of
sexual orientation. App.53a, 184a.
The Tenth Circuit agreed Lorie does not discriminate against LGBT persons and declines to create
websites based solely on content. The Tenth Circuit
also held that creating a wedding website is “speech”
and recognized that CADA both compels and restricts
speech based on content. That should have spelled the
end of CADA’s speech compulsion as applied to Lorie.

3
Instead, the Tenth Circuit adopted a novel,
artists-are-monopolists theory and held that Colorado
can “force [Lorie] to create custom websites that [she]
otherwise would not” because CADA is narrowly
tailored to the state’s compelling interest in ensuring
equal access to Lorie’s custom expression. According to
the lower court, Colorado has a compelling interest in
ensuring access to websites created by Lorie. Further,
the court held that Colorado may prohibit Lorie from
publicizing her own understanding of marriage. As
Chief Judge Tymkovich’s dissent explained, this
ruling is “unprecedented” and “staggering” in scope.
App.80a. The decision empowers the government to
force everyone to speak government-approved messages and “subverts our core understandings of the
First Amendment.” Ibid.
The decision also cements a three-way split over
tensions between free speech and laws like CADA,
pitting the Tenth Circuit and several state courts of
last resort against the Eighth and Eleventh Circuits
and the Arizona Supreme Court. At the same time,
the opinion contradicts this Court’s free-speech
precedents, which have repeatedly declared as
anathemas to the First Amendment all government
attempts to compel speech, to regulate speech based
on content, and to stamp out disfavored speech.
The Tenth Circuit’s free-exercise analysis is also
deeply flawed and creates a separate circuit split. The
lower court upheld CADA despite the law’s provision
of secular but not religious exemptions, and despite
agreeing that CADA restricts speech based on
content, causing a viewpoint gerrymander. If such a
law does not trigger strict scrutiny under Employment Division v. Smith, 494 U.S. 872 (1990), then
Smith should be overturned.

4
Lorie seeks only to speak “in a manner consistent
with [her] religious beliefs; [she] does not seek to
impose those beliefs on anyone else.” Fulton v. City of
Philadelphia, 141 S. Ct. 1868, 1882 (2021). This
Court’s review is urgently needed to reaffirm that the
government cannot compel artists to speak
government-approved messages or enforce “contentbased restriction[s]” on speech designed to “excis[e]
certain ideas or viewpoints from the public dialogue.”
App.24a. The petition should be granted.
STATEMENT OF THE CASE
A. Lorie Smith and 303 Creative
Lorie Smith is a graphic artist, website designer,
and sole owner of her design firm, 303 Creative.
App.181a. Lorie developed her design talents in
corporate America but wanted more freedom to
promote issues she cares about—advancing small
businesses, helping people, and supporting churches
and nonprofits. App.180a–181a. She started her own
website-design business. App.181a.
Lorie has largely realized her dream. She designs
original, customized websites and graphics for her
clients, App.181a, using words, pictures, or other
media and her own unique, creative talents, App.21a.
Lorie seeks to bring glory to God by creating unique
expression that shares her religious beliefs, including
her faith’s view that marriage is between one man
and woman, and she cannot create messages inconsistent with her Christian faith. App.179a–180a.
For years, Lorie has planned to expand into
wedding websites in large part to “promot[e]” her
“religious belief that God designed marriage as an
institution between one man and one woman” and to

5
encourage couples to “commit to lifelong unity and
devotion as man and wife.” App.187a–188a. Lorie will
customize each website to each wedding and will
“‘celebrate and promote the couple’s wedding and
unique love story’ by combining custom text, graphics,
and other media.” App.187a. The custom wedding
websites will “express approval and celebration of the
couple’s marriage, which is itself often a particularly
expressive event.” App.20a; App.66a (sample marriage website Lorie will create). And Lorie plans to
use each website to tell the couple’s story in a way
that shares her religious beliefs about marriage.
App.186a. Lorie has final editorial control over every
website. App.183a.
Lorie is willing to create custom websites for
anyone, including those who identify as LGBT,
provided their message does not conflict with her
religious views. App.184a. As Colorado stipulates, she
does not discriminate against anyone. App.54a, 184a.
She is “willing to work with all people regardless of …
race, creed, sexual orientation, and gender.”
App.184a. But she cannot create websites that
promote messages contrary to her faith, such as
messages that condone violence or promote sexual
immorality, abortion, or same-sex marriage.
App.184a. Lorie respectfully refers such requests to
other website designers. App.185a.
Lorie has written a webpage announcing her
expansion into the wedding business and explaining
her reasons for the content she can and cannot create.
App.188a–189a. But under CADA, Lorie cannot post
her statement or offer her wedding websites because
Colorado considers it illegal. CA10 Appellees’ Answer
Br. 3, 50–57. Yet Lorie still received a request for a
same-sex-wedding website. CA10 Aplt.App.2-260.

6
B. CADA’s targeting of Lorie and other
religious artists
Under CADA, 303 Creative is a “public
accommodation,” App.171a, that may not “directly or
indirectly … refuse … because of … sexual orientation
… the full and equal enjoyment of the … services …
[of a] public accommodation…” Colo. Rev. Stat. 24-34601(2)(a) (“Accommodation Clause”), App.171a–72a.
CADA also makes it unlawful to “publish … any
… communication … that indicates that services …
[of a] public accommodation will be refused … or that
an individual’s patronage or presence … is unwelcome, objectionable, unacceptable, or undesirable
because of … sexual orientation...” Colo. Rev. Stat. 2434-601(2)(a) (“Publications Clause”), App.172a.
The Colorado Civil Rights Commission and its
investigative arm, the Civil Rights Division, enforce
CADA. App.175a–176a. Anyone can file complaints
with the Division, including each named Respondent.
App.174a–175a. The Division investigates, and the
Commission adjudicates. App.175a–176a. Individuals
can also file state-court lawsuits. App.174a. CADA
penalizes violators with fines up to $500, cease-anddesist orders, and burdensome reporting and reeducation conditions. App.175a, 177a.
CADA has two exemptions relevant here. It
exempts business practices that “restrict admission”
“to individuals of one sex if such restriction has a bona
fide relationship to the … services” of that “accommodation.” Colo. Rev. Stat. 24-34-601(3) (“Bona Fide
Relationship Clause”), App.172a. It also implicitly
allows for “message-based refusals” for works a business will not create for “any customer.” App.54a–55a,
91a (Tymkovich, C.J., dissenting).

7
Colorado broadly interprets and aggressively
enforces CADA against those like Lorie, including
cake artist Jack Phillips. E.g., Masterpiece Cakeshop,
Ltd. v. Colo. Civ. Rts. Comm’n, 138 S. Ct. 1719 (2018).
So do Colorado private citizens and Colorado state
courts. E.g., Scardina v. Masterpiece Cakeshop Inc.,
No. 19CV32214 (Colo. Dist. Ct. June 15, 2021)
(holding Jack Phillips liable under CADA for
declining to create a custom cake celebrating a gender
transition, requested—coincidentally—the very same
day certiorari was granted in the case that resulted in
this Court’s Maseterpiece decision).
C. Proceedings below
At the district court, Lorie sought a preliminary
injunction and Colorado moved to dismiss. The court
held the two motions and instructed Lorie to file for
summary judgment, which she did based on
stipulated facts. The district court then dismissed
Lorie’s Accommodation Clause challenge on standing
and stayed the case until this Court decided
Masterpiece. App.168a–170a. After Masterpiece, the
district court granted summary judgment to Colorado
on the Publications Clause. App.113a.
On appeal, the Tenth Circuit held that Lorie had
standing to challenge both Clauses. The court also
held that Lorie’s wedding websites are “pure speech,”
and that “the result of the [Public] Accommodation
Clause is that [Lorie is] forced to create custom
websites [she] otherwise would not”—notwithstanding her sincere religious views on marriage.
App.20a, 23a; id. at 22a (CADA compels Lorie “to
create speech that celebrates same-sex marriages”).

8
And “[b]ecause the Accommodation Clause
compels speech in this case, it also works as a contentbased restriction” that creates a “substantial risk of
excising certain ideas or viewpoints from the public
dialogue”—“[e]liminating such ideas is CADA’s very
purpose.” App.23a–24a (cleaned up). Since CADA
compels and restricts speech based on content, the
court held that it must satisfy strict scrutiny. Ibid.
The majority said that CADA met this arduous
test because Colorado had a compelling interest in
ensuring access to Lorie’s “unique services [which]
are, by definition, unavailable elsewhere”—even
while admitting that “LGBT consumers may be able
to obtain wedding-website design services from other
businesses.” App.28a. The Tenth Circuit held that “for
the same reason” Lorie’s services are speech, they are
“inherently not fungible,” so the government may
compel their provision. Ibid. And the court rejected
Lorie’s Publications Clause challenge, holding that
her statement of beliefs expressed an intent to do
what “the Accommodation Clause forbids and that the
First Amendment does not protect.” App.28a, 34a.
In its free-exercise analysis, the Tenth Circuit
conceded that CADA contains exemptions, compels
speech based on viewpoint, and creates a “pro-LGBT
gerrymander” by requiring religious artists to
celebrate same-sex marriage while allowing secular
artists to decline to speak messages. App.40a. Yet the
court still held CADA generally applicable—despite
its message-based refusal exception—because none of
the exemptions allowed conduct exactly like the
religious conduct at issue, i.e., while the exception
allows speakers to decline religious and other
messages, none allow “secular-speakers” to decline
requests celebrating same-sex marriage. App.41a.

9
Finally, the Tenth Circuit admitted that CADA
allows public accommodations to deny access based on
sex if doing so has a “bona fide relationship” to the
accommodation’s services. App.45a. But despite this
Court’s conclusion in Fulton v. City of Philadelphia
that a “formal [exemption] mechanism” is problematic
“regardless whether any exceptions have been given,”
141 S. Ct. 1868, 1879 (2021), the court disregarded
the exemption as not “entirely discretionary” and
irrelevant without prior enforcement. App.45a.
In an acerbic dissent, Chief Judge Tymkovich
recognized that the majority’s opinion was “unprecedented.” App.80a. He agreed that CADA compelled
speech, restricted speech based on content and
viewpoint, and triggered strict scrutiny, but he
concluded that CADA flunked this test because
“ensuring access to a particular person’s unique,
artistic product … is not a compelling state interest,”
App.77a, and because CADA compels and supresses
Lorie’s speech when “there are reasonable,
practicable alternatives Colorado could implement to
ensure market access while better protecting speech,”
App.78a.
Chief Judge Tymkovich also concluded that
CADA violated Lorie’s free-exercise rights. CADA
allows secular but not religious artists to make
“message-based refusals.” App.91a. Colorado, he said,
“presum[es] that Ms. Smith has discriminatory intent
in her faith-based refusal while allowing other artists
to refuse to convey messages contrary to their nonfaith-based beliefs.” App.92a–93a. “Colorado’s
treatment of Ms. Smith’s religious beliefs must be
rejected,” he said. App.93a.

10
REASONS FOR GRANTING THE WRIT
The courts of appeal have now embraced three
competing views over whether government may
compel and restrict speech expressing certain views.
The Tenth Circuit’s decision deepens that entrenched
conflict and flatly contradicts this Court’s free-speech
precedents six ways from Sunday.
The Tenth Circuit took the extreme position that
the government may compel an artist—any artist—to
create expressive content, even if that content
violates her faith. The Oregon Court of Appeals
largely agrees. These decisions conflict directly with
the Eighth and Eleventh Circuits and the Arizona
Supreme Court, all of which have held that the
government may not compel speech in violation of a
speaker’s conscience. Other courts, including those in
Colorado, New Mexico, and Washington, also bless
the compulsion of creative content, but they do so by
holding free-speech protections inapplicable, recharacterizing the creation of messages as mere conduct.
This entrenched split cannot stand. It means that the
First Amendment rights of artists depend on the state
in which they live. And the decisions that give their
imprimatur to governments who compel speech
conflict starkly with this Court’s decisions.
This Court should also grant certiorari to clarify
Smith and hold that a law is not generally applicable
when it authorizes secular but not religious exceptions. The decision below deepened a second circuit
split and substantially narrowed Fulton by holding
that the secular exemption must be nearly identical
as the religious exemption requested. This Court
should grant review on both questions presented.

11
I.

The Tenth Circuit decision exacerbates a
three-way split over free-speech defenses to
public-accommodation laws.

In holding that a government may “compel
speech,” enforce “content-based restrictions” on
speech that the government deems “unwelcoming,”
and “force[ ]” artists “to create custom websites they
otherwise would not”—even where that speech conflicts with sincerely held religious beliefs—the Tenth
Circuit deepened an existing conflict and disregarded
this Court’s free-speech precedents. Without correction, the decision will continue to erode essential freespeech protections and embolden government officials
to punish speakers with whom they disagree.
A. The Tenth Circuit and Oregon Court of
Appeals authorize compelled speech
under heightened scrutiny.
The Tenth Circuit held that Lorie’s wedding
websites are “pure speech” because they “‘celebrate
and promote the couple’s wedding and unique love
story’ by combining custom text, graphics, and other
media.” App.20a. The websites also “express approval
and celebration of the couple’s marriage, which is
itself often a particularly expressive event.” Ibid.
The Tenth Circuit recognized that CADA compels
and limits speech in two ways. The Accommodation
Clause “force[s] [Appellants] to create websites—and
thus, speech—that they would otherwise refuse.”
App.22a–23a. And “it also works as a content-based
restriction” aimed at “[e]liminating such ideas.”
App.23a–24a. As a result, Lorie may not “create
websites celebrating opposite-sex marriages,” unless
she also creates messages “celebrating same-sex

12
marriages.” App.23a. Because CADA both compels
speech and operates as a content-based restriction,
the Tenth Circuit held that it must satisfy strict
scrutiny. So far, so good.
The Tenth Circuit then went off the rails, holding
that CADA’s speech compulsion and speech restriction somehow satisfy strict scrutiny. The court said
that Colorado has a compelling interest in ensuring
that marginalized groups have “access to the commercial marketplace.” App.32a. And despite acknowledging that innumerable companies create custom
wedding websites celebrating same-sex weddings,
App.28a, the court held that CADA can compel speech
because it is narrowly tailored to Colorado’s interest
in ensuring “equal access to publicly available goods
and services.” App.26a.
To get there, the court held that Lorie’s expression is “unique” under the narrow-tailoring inquiry
because the only person who makes websites that look
like Lorie’s is—Lorie herself. The Court then held
that “[f]or the same reason that [Lorie’s] custom and
unique services are speech, those services are also
inherently not fungible,” so the government could
forcibly compel their provision. App.28a.
The court’s analysis likened custom art to a
monopoly: “The product at issue is not merely
‘custom-made wedding websites,’ but rather ‘custommade wedding websites of the same quality and
nature as those made by [Lorie].’” App.29a (emphasis
added). “In that market,” the court continued, only
Lorie’s creative work exists. Ibid. Thus, Colorado’s
interest in “equal access” meant access to Lorie’s
personal voice, and there was no less intrusive way to
provide access to Lorie’s voice.

13
The Tenth Circuit’s bizarre reasoning turns freespeech protections on their head. The more “unique”
speech is, the more the government can compel it.
App.30a n.5 (“To us, Appellants’ services must either
be unique for both [free-speech and strict-scrutiny]
analyses, or fungible for both.”). “[T]he scope of the
majority’s opinion is staggering,” allowing the government to “regulate the messages communicated by all
artists” App.80a (Tymkovich, C.J., dissenting).
In a similar case, the Oregon Court of Appeals
upheld the government compulsion of a custom samesex wedding cake under intermediate scrutiny. Klein
v. Or. Bureau of Labor & Indus., 410 P.3d 1051 (Or.
Ct. App. 2017). The court acknowledged that freespeech concerns might exist but held that “any
burden on … expressive activities is no greater than
is essential to further Oregon’s substantial interest in
promoting the ability of its citizens to participate
equally in the marketplace without regard to sexual
orientation.” Id. at 1065. Given the state’s interest in
preventing unequal treatment, the court would not
permit any “special privilege” for free speech. Id. at
1074.
Thus, the Tenth Circuit became the second
jurisdiction to hold that government efforts to compel
creative speech on matters of conscience survive
heightened scrutiny.

14
B. The Eighth and Eleventh Circuits and
Arizona Supreme Court do not allow
public-accommodation laws to compel or
restrict
speech
under
heightened
scrutiny.
In Telescope Media Group v. Lucero, a case that
the Tenth Circuit rightly understood to be “substantially similar” to this one, App.67a, the Eighth Circuit
held that the government may not force a for-profit
film studio to create films telling stories of same-sex
marriages just because they create films celebrating
opposite-sex marriages. 936 F.3d 740, 758–60 (8th
Cir. 2019). That is because the government cannot
compel a person “to talk about ... same-sex marriages”
simply because she chooses “to talk about ... oppositesex marriages.” Id. at 753. To do so “is at odds with
the ‘cardinal constitutional command’ against
compelled speech.” Id. at 752 (quoting Janus v. Am.
Fed’n of State, Cnty., & Mun. Emps., Council 31, 138
S. Ct. 2448, 2463 (2018)). The compulsion also effects
a content-based regulation because it “[m]andat[es]
speech that a speaker would not otherwise make.” Id.
at 753 (quoting Riley v. Nat’l Fed’n of the Blind of
N.C., Inc., 487 U.S. 781, 795 (1988)).
Like the Tenth Circuit, the Eighth Circuit applied
strict scrutiny. But the Eighth Circuit reached the
opposite result. It held that “regulating speech
because it is discriminatory or offensive is not a
compelling state interest.” Id. at 755 (emphasis
added). “Even antidiscrimination laws, as critically
important as they are,” the court concluded, “must
yield to the Constitution.” Ibid. If this were not so, the
Eighth Circuit reasoned, the government could “force
a Democratic speechwriter to provide the same
services to a Republican,” or “require a professional

15
entertainer to perform at rallies for both the
Republican and Democratic candidates for the same
office.” Id. at 756.
Likewise, the Tenth Circuit acknowledged a split
between its decision and Brush & Nib Studio, LC v.
City of Phoenix, where the Arizona Supreme Court
held that a public-accommodation law could not force
an art studio to create custom wedding invitations or
ban the studio’s online statement of beliefs. 448 P.3d
890, 895 (Ariz. 2019). Since custom wedding
invitations were “speech,” requiring their creation for
same-sex weddings would violate the “cardinal
constitutional command” against compelled speech.
Id. at 905 (quoting Janus, 138 S. Ct. at 2463). The
court also held that the city’s public-accommodation
ordinance operated “as a content-based law” that
“coerce[d]” individuals into “abandoning their
convictions,” and compelled them to communicate
“celebratory messages” with which they disagree. Id.
at 914.
Applying strict scrutiny, the Arizona Supreme
Court rejected the argument that “a public accommodations law could justify compelling speech.” Id. at
915 (citing Hurley v. Irish-Am. Gay, Lesbian and
Bisexual Grp. of Bos., 515 U.S. 557, 572–73 (1995)).
There was no compelling state interest because
“produc[ing] speakers free of … biases” is not a
legitimate aim, but a “fatal objective.” Ibid. (quoting
Hurley, 515 U.S. at 578–79). The government “is not
free to interfere with speech for no better reason than
promoting an approved message or discouraging a
disfavored one, however enlightened either purpose
may strike the government.” Ibid.

16
Nor was the public-accommodation law narrowly
tailored, despite the court’s conclusion that the
compelled speech at issue was “unique,” custom, and
“unlike most commercial products and services sold
by public accommodations.” Id. at 916. Accord e.g.,
Chelsey Nelson Photography LLC v. Louisville/Jefferson Cnty. Metro Gov’t, 479 F. Supp. 3d 543, 559 (W.D.
Ky. 2020) (J., Walker) (wedding photography is
protected speech and no compelling interest requires
artists “to modify the content of their expression”).
Finally, the Eleventh Circuit adopted a similar
no-compelled-speech rule when it accepted Amazon’s
free-speech defense against a Title II religiousdiscrimination claim. Coral Ridge Ministries Media,
Inc. v. Amazon.com, Inc., 6 F.4th 1247 (11th Cir.
2021). There, Amazon claimed to have excluded a
religious group from its Amazon-Smile program
(where Amazon redirects money from customer
purchases to eligible organizations) because of the
group’s views. The Eleventh Circuit held that
exclusionary choice to be expressive, and that forcing
Amazon to fund groups it opposed would unconstitutionally compel Amazon’s speech. Id. at 1255–56.
Indeed, the Eleventh Circuit did not even get to a
strict-scrutiny analysis because it held that Title II’s
compulsion of speech did not further any equal-access
interest since it “modif[ied] the content of [Amazon’s]
expression,” something Hurley forbids. Ibid. In addition, the law’s compulsion of a monetary donation
violated the “bedrock principle” that “no person in this
country may be compelled to subsidize speech by a
third party that he or she does not wish to support.”
Id. at 1254 (quoting Harris v. Quinn, 573 U.S. 616,
656 (2014)).

17
C. Other courts allow public-accommodation laws to compel speech—as conduct.
Other state courts of last resort allow
governments to force artists to speak contrary to their
faith by holding that the First Amendment offers no
protection at all, characterizing artistic creations as
mere conduct.
In Elane Photography, LLC v. Willock, for instance, the New Mexico Supreme Court compelled a
photographer to create same-sex wedding photographs under a public-accommodation law. 309 P.3d
53, 64–66 (N.M. 2013). The court held that “[w]hile
photography may be expressive, the operation of a
photography business is not.” Id. at 68 (emphasis
added). In this commercial context, “[r]easonable
observers” would not “interpret” someone’s “photographs as an endorsement of the photographed
events.” Id. at 69. In fact, the court denied that a
compelled-speech violation ever arises “from the
application of antidiscrimination laws to a for-profit
public accommodation”—even ones that “involve
speech or other expressive services.” Id. at 65.
The Washington Supreme followed suit. It
applied Elane’s logic to force florist Barronelle Stutzman to create custom floral arrangements celebrating
same-sex weddings. State v. Arlene’s Flowers, Inc.,
441 P.3d 1203, 1226 (Wash. 2019). Like Elane,
Arlene’s compartmentalized “expressive conduct and
commercial activity.” Id. at 1227 n.18. Barronelle
could not rely on the First Amendment, said the court,
because “her store is the kind of public accommodation that has traditionally been subject to antidiscrimination laws.” Id. at 1226. After all, “an outside
observer” would not know why paid speakers declined

18
to create speech, much less think “providing flowers
for a wedding” would “constitute an endorsement” of
anything. Ibid. And the for-profit nature of Arlene’s
Flowers was dispositive: “[c]ourts cannot be in the
business of deciding which businesses are sufficiently
artistic to warrant exemptions from antidiscrimination laws.” Id. at 1228 (citing Elane, 309 P.3d at 71).
The Colorado Court of Appeals agreed (and the
Colorado Supreme Court declined review), requiring
Jack Phillips to create custom wedding cakes under
CADA. Craig v. Masterpiece Cakeshop, Inc., 370 P.3d
272 (Colo. Ct. App. 2015), overruled on other grounds,
Masterpiece Cakeshop, Ltd. v. Colo. Civ. Rts. Comm’n,
138 S. Ct. 1719 (2018). Echoing Elane and Arlene’s,
the Colorado court reasoned that when “an entity
charges for its goods and services,” that “reduces the
likelihood that a reasonable observer will believe that
[the entity] supports the message expressed in its
finished product.” Id. at 287.
An artist’s freedom to speak according to her
conscience thus depends entirely on her jurisdiction.
In the Tenth Circuit (Oklahoma, Kansas, New
Mexico, Colorado, Wyoming, and Utah), governments
can force artists to speak contrary to their faith even
when the artist does not discriminate based on status.
In Arizona and the Eighth Circuit (Arkansas, Iowa,
Minnesota, Missouri, Nebraska, North Dakota, and
South Dakota), governments cannot compel artists to
speak contrary to their faith. Meanwhile, artists’
work in New Mexico, Oregon, and Washington is not
even considered “speech” but is instead labeled
conduct if offered for purchase. It is long overdue for
this entrenched conflict to be resolved.

19
D. The Tenth Circuit’s decision contradicts
this Court’s free-speech precedents.
The Tenth Circuit’s strict scrutiny analysis of
CADA takes a bulldozer to this Court’s free-speech
precedents.
Compelled Speech. This Court consistently
rejects compelled speech under strict scrutiny. For
good reason. When officials compel speech, they inflict
a “demeaning” injury that violates a “cardinal
constitutional command,” Janus, 138 S. Ct. at 2463–
64, “the fundamental rule of protection under the
First Amendment,” Hurley, 515 U.S. at 573, and the
principle that lies “[a]t the heart of the First Amendment,” which grounds our very “political system and
cultural life.” Turner Broad. Sys., Inc. v. F.C.C., 512
U.S. 622, 641 (1994). “Governments must not be
allowed to force persons to express a message contrary to their deepest convictions.” Nat’l Inst. of
Family & Life Advocs. v. Becerra, 138 S. Ct. 2361,
2379 (2018) (NIFLA) (Kennedy, J., concurring). To the
contrary, “[c]ompelling individuals to mouth support
for views they find objectionable” on “controversial
public issues” should be “universally condemned.”
Janus, 138 S. Ct. at 2463–64.
The Tenth Circuit did the opposite, forcing Lorie
to “actively create” and publish online speech that
violated her conscience. This slights what this Court
has repeatedly declared sacred: “individual freedom
of mind.” W. Va. Bd. of Educ. v. Barnette, 319 U.S.
624, 637 (1943). And it dims the most “fixed star in
our constitutional constellation”: government cannot
compel citizens to speak against their conscience. Id.
at 642.

20
The Tenth Circuit placed weight on the
commercial nature of Lorie’s website-design business.
App.32a n.6. But “a speaker is no less a speaker
because he or she is paid to speak.” Riley, 487 U.S. at
801; cf. NIFLA, 138 S. Ct. at 2371–72 (“Speech is not
unprotected merely because it is uttered by
‘professionals.’”). And this position conflicts with
decisions of the Second, Sixth, Eighth, Ninth, and
Eleventh Circuits, all of which have granted full
speech protection to visual art sold for profit. Bery v.
City of N.Y., 97 F.3d 689, 695, 697 (2d Cir. 1996); ETW
Corp. v. Jireh Publ’g, Inc., 332 F.3d 915, 918, 924 (6th
Cir. 2003); Telescope Media Group v. Lucero, 936 F.3d
740, 751–52 (8th Cir. 2019); White v. City of Sparks,
500 F.3d 953, 957 (9th Cir. 2007); Buehrle v. City of
Key West, 813 F.3d 973, 978 (11th Cir. 2015).
Idea suppression. This Court condemns governmental attempts to target certain ideas. “The government may not discriminate against speech based on
the ideas or opinions it conveys.” Iancu v. Brunetti,
139 S. Ct. 2294, 2299 (2019). Accord, e.g., Pac. Gas &
Elec. Co. v. Pub. Utils. Comm’n of Cal., 475 U.S. 1, 12
(1986) (condemning utility commission’s order
because “it discriminates on the basis of the
viewpoints of the selected speakers”).
The Tenth Circuit admitted that CADA created
“more than a ‘substantial risk of excising certain ideas
or viewpoints from the public dialogue.’” App.24a
(cleaned up). The statute did so not just by compelling
speech, but also by conditioning the expression of one
view—“celebrating opposite-sex weddings”—on the
proclamation of another—“celebrating same-sex
weddings.” App.23a.

21
But this Court repudiated a similar policy in
Miami Herald Publ’g Co. v. Tornillo, that conditioned
printing newspaper editorials on publishing those
with opposing views. 418 U.S. 241 (1974). Under this
policy, expressing one view “triggered an obligation to
permit other speakers, with whom the newspaper
disagreed, to use the newspaper’s facilities to spread
their own message.” Pac. Gas, 475 U.S. at 10. And
that in turn “inescapably ‘dampens the vigor and
limits the variety of public debate.’” Ibid. (cleaned up).
Accord Ariz. Free Enter. Club’s Freedom Club PAC v.
Bennett, 564 U.S. 721, 742 (2011) (invalidating
campaign-funding regulation for violating Tornillo
triggering principle).
This is no trivial matter. By upholding a statute
with the effect and “very purpose” to “[e]liminate such
ideas” about marriage in favor of others, App.24a, the
Tenth Circuit authorized the government to take
sides in a heated cultural debate—all in the name of
“produc[ing] a society free of [ ] biases.” Hurley, 515
U.S. at 578. This result cannot satisfy strict scrutiny.
After all, “the concept that government may restrict
the speech of some elements of our society in order to
enhance the relative voice of others is wholly foreign
to the First Amendment.” Buckley v. Valeo, 424 U.S.
1, 48–49 (1976) (per curiam).
Relevant Market. The Tenth Circuit’s conclusion
that Lorie’s expressive works amount to a “monopoly”
cannot be squared with this Court’s free-speech
precedents or common sense.

22
The Tenth Circuit limited the relevant market to
Lorie’s works. App.29a. (“In that market, only Appellants exist.”). But this Court considers “the relevant
medium,” not singular expressive works or individual
artistic styles. E.g., Turner, 512 U.S. at 656
(newspapers lacked national monopoly because of
“competing publications”). The Hurley Court, for
example, held that, while the unique “success of
petitioners’ parade makes it an enviable vehicle for
the dissemination” of opposing views, “that fact,
without more, would fall far short of supporting a
claim that petitioners enjoy an abiding monopoly of
access to spectators.” 515 U.S. at 577–78.
The decision below also runs headlong into this
Court’s cases invalidating content-based attempts to
compel actual monopolies to speak, such as Tornillo,
418 U.S. at 250–53 (local newspaper) and Pac. Gas,
475 U.S. at 17 n.14 (utility company). Accord, e.g.,
Turner, 512 U.S. at 653–57 (upholding must-carry
provisions against bottleneck monopolies because
provisions were content neutral). And the decision
leads to the upside-down rule that the more unique
the speech, the greater the government’s power to
compel. App.28a (“[f]or the same reason that [Lorie’s]
custom and unique services are speech, those services
are also inherently not fungible”).
What do you call a rule that gives government
officials the maximum power to compel speech based
on the distinctiveness of the message? “[I]n a word,
unprecedented.” App.80a (Tymkovich, C.J., dissenting).

23
II. The Tenth Circuit’s decision substantially
narrows Fulton and underscores Smith’s
inadequacies.
The Tenth Circuit’s free-exercise analysis neuters
Fulton and highlights Smith’s inadequacies.
The Tenth Circuit acknowledged that CADA
contains exemptions, compels speech based on
viewpoint, and creates a “pro-LGBT gerrymander” by
requiring religious artists to celebrate same-sex
marriage while allowing other artists to decline
messages like “God is dead.” App.38a, 40a. Yet the
court upheld CADA as generally applicable under
Smith because none of the exemptions allowed
“secular-speakers” “to discriminate against LGBT
consumers.” App.41a. That decision exacerbates a
(now) 4–3 split over the standard to determine when
secular exemptions trigger strict scrutiny under the
Free Exercise Clause.
The Sixth, Ninth, and Tenth Circuits require
religious conduct to be almost exactly like exempted
secular conduct for heightened scrutiny to apply.
Meanwhile, the Second, Third, Fifth, and Eleventh
Circuits apply strict scrutiny whenever the government exempts secular but not religious conduct that
undermines the government’s interests in a similar
way. The four-circuit majority has it right. Religious
liberty should not turn on the fortuity of religious
plaintiffs finding secular doppelgangers.
A law that burdens religious exercise while
allowing for exemptions for others is not generally
applicable under Smith. Fulton, 141 S. Ct. at 1878. If
the Tenth Circuit’s analysis is correct, then Fulton
means little, and this Court should overrule Smith.

24
A. The Tenth Circuit contradicts how four
circuits assess statutes that allow exemptions yet burden religious exercise.
In Fulton, this Court reiterated that a law that
burdens religion is not generally applicable under
Smith “if it prohibits religious conduct while
permitting secular conduct that undermines the
government’s asserted interests in a similar way.”
Fulton, 141 S. Ct. at 1877 (citing Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520, 542–46 (1993)). Appropriately, the Second,
Third, Fifth, and Eleventh Circuits identify a law’s
general interest, compare regulated religious conduct
to exempted conduct, then ask whether the latter
undermines the law’s interest. Cent. Rabbinical Cong.
of U.S. & Canada v. N.Y. City Dep’t of Health &
Mental Hygiene, 763 F.3d 183, 197 (2d Cir. 2014) (law
banned Orthodox Jewish practice but not secular
conduct posing same risks of viral infection);
Blackhawk v. Pennsylvania, 381 F.3d 202, 211 (3d
Cir. 2004) (Alito, J.) (fee provision applied to owning
black bears but exempted circuses and zoos which
equally undermined state’s revenue and anti-captivity interests); Islamic Ctr. of Miss., Inc. v. City of
Starkville, 840 F.2d 293, 299–303 (5th Cir. 1988)
(zoning law exempted 25 churches but not Islamic
center that risked same traffic concerns); Midrash
Sephardi, Inc. v. Town of Surfside, 366 F.3d 1214,
1233–34 (11th Cir. 2004) (law banned churches but
exempted others undermining “retail synergy”).1

The Eleventh Circuit analyzed this Religious Land Use and
Institutionalized Persons Act issue under free-exercise
precedents. Midrash, 366 F.3d at 1232–36.

1

25
In conflict, the Tenth Circuit follows the approach
of the Sixth and Ninth Circuits, which fine-tune the
state’s “interest dial” so that government can
conveniently ignore some secular exemptions. For
example, in Stormans, Inc. v. Wiesman, the Ninth
Circuit upheld a rule forcing pharmacists to stock and
deliver emergency contraception. 794 F.3d 1064,
1071–75 (9th Cir. 2015). Although that rule allowed
opt-outs for things like pharmacist non-expertise and
many other non-religious objections, the Ninth
Circuit discounted those as “allow[ing] pharmacies to
operate in the normal course of business.” Id. at 1080
(emphasis added). Thus, the Ninth Circuit could
ignore those exemptions in its free-exercise analysis.
Similarly, in Resurrection School v. Hertel, the
Sixth Circuit upheld a religious-school COVID-19
masking requirement. __ F.4th __, 2021 WL 3721475
(6th Cir. 2021). Although the requirement included
many non-school exemptions, the panel held that the
only necessary comparator was non-religious schools.
Id. at *12–13.2
Now consider how the Tenth Circuit analyzed
CADA’s two exemptions: (1) an unwritten yet “formal”
exemption, Fulton, 141 S. Ct. at 1878, that some
Resurrection School conflicts with another Sixth Circuit panel
holding that analogous conduct depends not on “similar forms of
activity” but, as in Fulton, the state’s interest for “its
restrictions.” Monclova Christian Acad. v. Toledo-Lucas Cnty.
Health Dep’t, 984 F.3d 477, 479–482 (6th Cir. 2020). The Seventh
Circuit candidly admitted its confusion: “[i]t is difficult … to
know the most appropriate comparisons for evaluating
restrictions on religious activities.” Cassell v. Snyders, 990 F.3d
539, 550 (7th Cir. 2021) (distinguishing comparators used less
than a year prior in Elim Romanian Pentecostal Church v.
Pritzker, 962 F.3d 341 (7th Cir. 2020)).
2

26
public accommodations can make “message-based
refusals,” declining to create works containing
messages they will not create for “any customers,”
App.54a–55a, 91a (Tymkovich, C.J., dissenting), and
(2) CADA’s Bona Fide Relationship Clause, which
allows certain public accommodations to “restrict
admission … to individuals of one sex.” Colo. Rev.
Stat. 24-34-601(3), App.172a.
Message-Based Exemption. As the Tenth Circuit
recognized, CADA’s message-based exemption creates “content-based restrictions on speech.” App.40a.
Under that exemption, an artist that declines to
speak a particular message for anyone is exempt.
Such “message-based refusals do not violate CADA”
because they “are unrelated to class-status.” App.42a.
Thus, the lower court recognized that “a business is
not required to design a website proclaiming ‘God is
Dead’ if it would decline such a design for any
customer.” App.38a. Nor must a business create
works containing “offensive speech.” App.26a; Craig,
370 P.3d at 282 n.8.
At the same time, the court held that Lorie “must
design a website celebrating same-sex marriage, even
though [she] would decline such a design for any
customer.” App.38a (emphasis added). Under that
theory, a singer who sang a wedding song for an
opposite-sex wedding two decades ago can be
compelled to sing it for a same-sex wedding today. The
Tenth Circuit acknowledged this anomalous result
was viewpoint discrimination; CADA operates as a
“content-based restriction[ ] on speech.” App.40a. The
court understood the resultant “pro-LGBT gerrymander” to be “inevitable” given CADA’s purpose of
protecting “the dignitary or material interests of
LGBT consumers.” Ibid.

27
Despite all that, the Tenth Circuit held that CADA
is generally applicable for two reasons. First, the
court said that CADA’s message-based exemption
was a defense rather than an exception. App.42a. But
either way, the Tenth Circuit should have compared
regulated religious messages to exempted secular
message-based refusals and asked whether the latter
undermines CADA’s interests. They do.
Second, the Tenth Circuit justified CADA’s
content-based speech restrictions by “adjusting the”
interest “dials just right.” Masterpiece, 138 S. Ct. at
1739 (Gorsuch, J., concurring). The court defined
CADA’s purpose narrowly: protecting only “the
dignitary or material interests of LGBT consumers,”
App.40a; the court thus required Lorie to identify
differently treated secular comparators who do not
celebrate same-sex marriage. That way, the court
could say that CADA does not “permit secular conduct
that undermines the government’s asserted interests
in a similar way” because Colorado does not allow
“secularly-motivated objections” to speaking LGBT
messages, App.40a–41a, even though Colorado allows
secularly motivated objections to religious messages.
The problem is that the latter exemptions undermine Colorado’s general goal—stopping differential
treatment of each protected classification, including
religion—in a “similar way.” Fulton, 141 S. Ct. at
1877 (citing Lukumi, 508 U.S. at 542–46). By allowing
a secular speaker to refuse to speak “Jesus loves me”
while forcing Lorie to speak messages that violate her
conscience, CADA unconstitutionally plays favorites.
Tandon v. Newsom, 141 S. Ct. 1294, 1296 (2021) (per
curiam) (“It is no answer that a State treats some
comparable secular businesses or other activities as
poorly as … religious exercise.”).

28
The Bona Fide Relationship Clause. CADA’s
second exemption, the Bona Fide Relationship
Clause, allows sex-based restrictions. Under that
Clause, public accommodations can “restrict
admission … to individuals of one sex” when the
“restriction has a bona fide relationship” to the
accommodation’s “goods, services, [or] facilities.” Colo.
Rev. Stat. 24-34-601(3), App.172a. For example, if a
Colorado women’s club provides events only for
women, then the club can exclude male patrons.
The Tenth Circuit excused this written, statutory
exemption as somehow “promot[ing] open commerce”
and thus irrelevant on a “pre-enforcement record.”
App.28a n.4, 45a. But the court did not explain why
exempting some status discrimination “promote[s]
open commerce” while exempting Lorie’s religious
expression would not. Nor does this problem go away
on a “pre-enforcement record.” This “formal [exemption] mechanism” is problematic “regardless whether
any exceptions have been given.” Fulton, 141 S. Ct. at
1879.
Without general applicability, laws make a “value
judgment,” allowing governments to favor secular
motivation over religious ones. Fraternal Ord. of
Police Newark Lodge No. 12 v. City of Newark, 170
F.3d 359, 366 (3d Cir. 1999) (Alito, J.). And that’s
exactly what CADA does here. For example, CADA
allows cake artists to decline writing religious verses
on a client’s custom cake. Masterpiece, 138 S. Ct. at
1730. CADA also allows clubs or other special
organizations to exclude based on sex, while brooking
no accommodation for a religious artist who can only
speak messages consistent with her faith. Fulton
forbids that favoritism.

29
B. If the Tenth Circuit correctly applied
Fulton, then this Court should overrule
Smith.
The Tenth Circuit upheld a law that targets
religious speech and gives the government a
marketplace monopoly over marriage views. If Fulton
allows this, it is time for this Court to overrule Smith.
Despite this Court’s unanimous decision in
Fulton, the court below upheld a gerrymandered
regime and an admittedly content-based restriction
on speech. That ruling allows Colorado to force Lorie
to celebrate same-sex marriages in violation of her
faith—all while allowing secular artists to decline to
promote religious messages and other businesses to
discriminate based on sex.
This cannot be the outcome Smith envisioned
when it articulated its rule for neutral and generally
applicable laws. Employment Div. v. Smith, 494 U.
872, 882 (1990) (noting long-standing precedents
against compelling religious adherents to speak);
Michael W. McConnell, The Origins and Historical
Understanding of Free Exercise of Religion, 103 Harv.
L. Rev. 1409, 1467-68 (1990) (explaining historical
protections for religious objections to compelled
oaths). If courts cannot apply Smith correctly on this
record, then religious adherents have little hope. This
failure underscores that Smith is “unworkable in
practice.” Fulton, 141 S. Ct. at 1926 (Gorsuch, J.,
concurring); id. at 1917–22 (Alito, J., concurring).

30
Smith’s flaws are well-documented. E.g., Fulton,
141 S. Ct. at 1882 (Barrett, J., concurring) (“[T]he
textual and structural arguments against Smith are
… compelling.”); id. at 1883–1926 (Alito, J.,
concurring) (outlining historical, practical, and
precedential objections). And this case offers an
excellent chance to answer questions about what test
should replace Smith, whether the Free Exercise’s
Clause text distinguishes between religious
organizations and religiously motivated individuals
and businesses, what forms of scrutiny should apply,
and so on. This Court should reconsider Smith.
III. This case raises exceptionally important
issues about free speech and religious
liberty.
Public-accommodation laws and the First Amendment can be harmonized. But the Tenth Circuit’s
decision places them in untenable tension, emboldening officials to regulate speech based on its favored
viewpoint, to enforce content-based speech restrictions, to eliminate dissenting opinions from the public
square, and to compel speech in violation of
conscience.
Public-accommodation laws now cover everything
from non-profits, Boy Scouts of Am. v. Dale, 530 U.S.
640, 653 (2000), to newspapers, World Peace
Movement of Am. v. Newspaper Agency Corp., 879
P.2d 253, 257 (Utah 1994), to websites, Jian Zhang v.
Baidu.com Inc., 10 F. Supp. 3d 433, 435 (S.D.N.Y.
2014), such as an Etsy website where an individual
markets her homemade, custom art. Such laws now
ban sexual-orientation or gender-identity discrimination in 22 states and around 330 municipalities, with
some jurisdictions interpreting sex discrimination to

31
cover these traits.3 Some public-accommodation laws
make everything from student status to political
beliefs a protected classification. E.g., Madison, Wisc.
Code of Ordinances 39.03. And 19 state publicaccommodation laws could easily ban someone’s
viewpoints or beliefs that may touch on a protected
classification.4
The expanded scope of public-accommodation
laws without First Amendment protections has
produced conflict. For the last decade, Jack Phillips
has faced lawsuit after lawsuit based on his refusal to
create art that violated his conscience. After prevailing before this Court in Masterpiece Cakeshop, 138 S.
Ct. 1719, he was sued for respectfully declining to
create a custom cake celebrating a gender transition.
He just lost his trial.5 Barronelle Stutzman of Arlene’s
Flowers faces potential million-dollar-attorney-fee
payments and losing all that she has.6 The Elane
Photography owners paid fines, faced “death threats,”
and eventually closed their studio.7
Nondiscrimination Laws, Movement Advancement Project,
https://bit.ly/37PAjvA (last visited Aug. 16, 2021); Local
Nondiscrimination Ordinances, Movement Advancement
Project, https://bit.ly/3jWjl4k (last visited Aug. 16, 2021).
3

Br. for Mass. et al. as Amici Curiae in Support of Defs. at 9 n.5,
303 Creative LLC v. Elenis, No. 19-1413 (10th Cir. Apr. 29,
2020).
4

Scardina v. Masterpiece Cakeshop Inc., No. 19CV32214 (Colo.
Dist. Ct. June 15, 2021).
5

6 Pet. for Reh’g at 11, Arlene’s Flowers, Inc. v. Washington, No.
19-333 (U.S. July 27, 2021).

Willock v. Elane Photography, LLC, HRD No. 06-12-20-0685,
at 20 (H.R. Comm’n of N.M. Apr. 9, 2008), https://bit.ly/3AEt6e3;

7

32
Oregon officials fined the owners of a cakeshop
$135,000 for declining to create same-sex wedding
cakes and tried to punish them for talking to the
media.8 The shop eventually closed.9 Meanwhile, a
Kentucky printer litigated for seven years after
declining to print shirts promoting a gay pride
parade, only to see the state supreme court dismiss
the case on a technicality. Lexington-Fayette Urb.
Cnty. Hum. Rts. Comm’n v. Hands On Originals, 592
S.W.3d 291, 294–95 (Ky. 2019). A California cakeshop
was sued for declining to create custom cakes
celebrating same-sex weddings. Dep’t of Fair Emp.
and Hous. v. Miller, No. BCV-17-102855, 2018 WL
747835, at *1 (Cal. Super. Feb. 05, 2018). A pro-life
photographer needed litigation to confirm she could
decline promotional photographs for Planned
Parenthood.10 And a family farm, ousted from an East
Lansing farmer’s market for posting its Catholic
beliefs about marriage on Facebook, has endured four
years of litigation and a recently concluded bench trial
without yet knowing the scope of its First Amendment
rights. Country Mill Farms, LLC v. City of E. Lansing,
280 F. Supp. 3d 1029, 1041–42 (W.D. Mich. 2017).

Richard Wolf, Same-sex marriage foes stick together despite long
odds, USA Today (Nov. 15, 2017), https://bit.ly/3m2czwk.
8

Klein, 410 P.3d at 1080-87.

Sweet Cakes by Melissa announces closure,
https://bit.ly/2UHMANk (last updated Oct. 6, 2016).
9

KGW8,

Compl., Amy Lynn Photography Studio, LLC v. City of
Madison, No. 17-cv-000555 (Dane Cnty. Cir. Ct. Mar. 7, 2017),
https://bit.ly/3yNS229.
10

33
In this toxic legal climate, nearly anyone involved
with religious ceremonies faces realistic threats of
prosecution for speaking consistently with their
religious faith under laws that impose jailtime and up
to $100,000 fines.11
Public-accommodation laws have harmed those
with differing views, too. Someone targeted a lesbian
cakebaker in Detroit, asking for a cake saying,
“Homosexual acts are gravely evil.”12 And a
progressive bar association had to litigate whether it
could decline to publish a pro-Israeli advertisement.
Athenaeum v. Nat’l Lawyers Guild, Inc., No.
653668/16, 2018 WL 1172597 (N.Y. Sup. Ct. Mar. 06,
2018).
Public-accommodation laws have also threatened
the First Amendment rights of churches,13 homeless

Telescope Media, 936 F.3d at 747, 750 (videographers); Brush
& Nib, 448 P.3d at 914 (calligraphers); Compl., Emilee
Carpenter, LLC v. James, No. 6:21-cv-06303 (W.D.N.Y. Apr. 6,
2021) (photographer), https://bit.ly/3k1Vy2D; Compl., Covenant
Weddings LLC v. Cuyahoga Cnty., No. 1:20-cv-01622 (N.D. Ohio
July 22, 2020) (officiant), https://bit.ly/3k2bHoO; Compl., Knapp
v. City of Coeur D’Alene, No. 2:14-cv-00441 (D. Idaho Oct. 17,
2014) (ministers), https://bit.ly/3yU06hN.
11

Sue Selasky, Lesbian baker in Detroit got homophobic cake
order: Why she made it anyway, Detroit Free Press (Aug. 13,
2020), perma.cc/JS53-APD3.
12

Compl., Fort Des Moines Church of Christ v. Jackson, No. 4:16cv-00403 (S.D. Iowa July 4, 2016), https://bit.ly/3g6FWda;
Compl., Horizon Christian Fellowship v. Williamson, No. 16-cv12034 (D. Mass. Oct. 11, 2016), https://bit.ly/3lZzhFx; Compl.,
Calvary Rd. Baptist Church v. Herring, No. CL20006499 (Va.
Cir. Ct. Loudon Cnty. Sept. 28, 2020), https://bit.ly/2Uedlea.
13

34
shelters,14 Catholic schools,15 Catholic hospitals,16
gay-softball leagues,17 and even beauty pageants.18
The decision here sanctions government-compelled speech and religious participation in all these
situations and much more. As the dissent explains,
the idea that someone’s unique expression justifies
compelling speech “leads to absurd results”—from
forcing a “Muslim movie director to make a film with
a Zionist message” to “requiring an atheist muralist
to accept a commission celebrating Evangelical zeal.”
App.69a, 79a (Tymkovich, C.J., dissenting). Accord,
e.g., Telescope Media, 936 F.3d at 756 (publicaccommodation laws can easily make political belief a
protected trait and compel more speech). Under this
theory, our greatest American artists like Georgia
O’Keefe, Elvis Presley, and Ernest Hemingway would
have the fewest First Amendment protections.
And though the Tenth Circuit purportedly limited
its artists-are-monopolists theory to paid artists, laws
like CADA often apply to non-profits. Creek Red
Nation, LLC v. Jeffco Midget Football Ass’n, Inc., 175
F. Supp. 3d 1290, 1296–98 (D. Colo. 2016) (applying
CADA to nonprofit). And non-profits offer unique
Compl., The Downtown Soup Kitchen v. Mun. of Anchorage,
No.3:21-cv-155 (D. Alaska July 1, 2021), https://bit.ly/3CP91Dw.

14

Compl., The Lyceum v. City of S. Euclid, No. 1:19-cv-00731
(N.D. Ohio Apr. 3, 2019).
15

Pet. for Writ of Cert., Dignity Health v. Minton, No. 20-1135
(U.S. Mar. 13, 2020).
16

Apilado v. N. Am. Gay Amateur Athletic All., 792 F. Supp. 2d
1151, 1157-60 (W.D. Wash. 2011).
17

Green v. Miss United States of Am., LLC, No. 3:19-CV-02048MO, 2021 WL 1318665, at *1 (D. Or. Apr. 8, 2021).
18

35
expressive services too. See Tr. of Oral Arg. at 47–50,
Masterpiece, 138 S. Ct. 1719 (2018) (No. 16-111),
https://bit.ly/3xI32g9 (asking whether CADA could
force Catholic Legal Services to take pro bono samesex-marriage cases).
The court’s monopoly rationale also extends well
beyond the public-accommodation context. If governments can compel speech whenever artists convey
unique expression, they have a blank check to compel
not just every commissioned artist, small business,
and nonprofit that speaks, but to “regulate the
editorial decisions of Facebook and Google, of MSNBC
and Fox, of NYTimes.com and WSJ.com, of YouTube
and Twitter”—entities much more like monopolies
than Lorie. U.S. Telecom Ass’n v. F.C.C., 855 F.3d
381, 433 (D.C. Cir. 2017) (per curiam) (Kavanaugh, J.,
dissenting from denial of reh’g en banc).
The decision below allows officials to compel
speech in violation of religious conviction, to regulate
speech based on content, and to enact laws that create
a “substantial risk of excising certain ideas or viewpoints from the public dialogue” and have “[e]liminating such ideas [as their] very purpose.” App.24a
(cleaned-up). And this is not just hypothetical. As the
above examples illustrate, government attempts to
eliminate certain ideas from the public square are
happening right now, with alarming frequency.

36
IV. This case is an ideal vehicle to resolve the
questions presented.
This case offers an ideal vehicle to answer critical
free-speech and free-exercise questions that “will
keep coming until the Court … suppl[ies] an answer.”
Fulton, 141 S. Ct. at 1931 (Gorsuch, J., concurring).
To begin, Lorie has wanted to enter the weddingwebsite industry for years and has lost opportunities
to create and speak because of how Colorado
interprets CADA. She has already received a request
to create a website celebrating a same-sex wedding,
and Colorado continues to threaten prosecution. No
one disputes “the extent” to which Lorie will decline
to speak in violation of her faith, nor are there any
missing “details” that “might make a difference.”
Masterpiece, 138 S. Ct. at 1723.
Next, it’s undisputed that Lorie’s wedding
websites are “expressive in nature” and “celebrate
and promote the couple’s wedding and unique love
story,” and that CADA compels those websites and
bans her explanatory statement yet exempts certain
secular artists. App.187a. It’s undisputed that Lorie
does not discriminate based on protected-class status;
she simply declines to create certain messages for
anyone. And it’s undisputed that other firms design
wedding websites.19
Further, the Tenth Circuit’s conclusion that a
government may compel speech in violation of
conscience—and the more unique speech is, the more
interest the government has in compelling it—is
There are more than 77,000 website-design firms in the United
States. Web Design Services in the US, IBISWorld (September
28, 2020), https://bit.ly/3lJ87RC.
19

37
shocking. An artist’s right to refrain from speaking
contrary to her conscience depends on where she lives.
In the Tenth Circuit’s half-dozen states, as well as
New Mexico, Oregon, and Washington, the
government can force artists to speak contrary to
their faith; in the Eighth Circuit’s seven states and
Arizona, the opposite is true.
What’s more, the Tenth Circuit’s narrow interpretation of Fulton establishes a blueprint for future
litigants. The lower courts are in disarray over when
a secular exception triggers heightened scrutiny, and
the decision below will only embolden government
officials and courts to afford fewer First Amendment
protections to religious adherents.
The constitutional issues here have sufficiently
percolated. Lawyers, law professors, litigants, and
lower courts have already analyzed many cases like
this one. And this Court was prepared to rule on them
in Masterpiece more than three years ago. Delay
might produce more opinions, articles, and victims,
but not more insights.
The promises of free speech and free exercise that
the First Amendment enshrines ensure the survival
of our pluralistic society. There is a clear path where
government can protect the rights of all citizens,
recognizing the sharp line between status discrimination on the one hand, and message-based or
participation declinations on the other. But until this
Court does so, government officials will continue to
harm those with opposing views, activists will
continue to file (and re-file) cases designed to target
those with deeply held religious beliefs, and courts
will continue to face harassing litigation that lasts
years on end. Certiorari is warranted.

38
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JONATHAN A. SCRUGGS
KATHERINE L. ANDERSON
BRYAN D. NEIHART
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020

SEPTEMBER 2021

KRISTEN K. WAGGONER
Counsel of Record
JOHN J. BURSCH
ERIN M. HAWLEY
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(571) 707-4655
kwaggoner@ADFlegal.org

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
U.S. Court of Appeals for the Tenth Circuit
Opinion in 19-1413
Issued July 26, 2021 ................................................ 1a
Colorado District Court
Opinion and Order Granting
Summary Judgment in 16-cv-02372
Issued September 26, 2019 .................................. 104a
Colorado District Court
Opinion and Order Denying Motion for
Preliminary Injunction and Motion for
Summary Judgment in 16-cv-02372
Issued May 17, 2019 ............................................ 114a
U.S. Court of Appeals for the Tenth Circuit
Order and Judgment granting motion to dismiss
appeal in 17-1344
Issued August 14, 2018 ........................................ 147a
Colorado District Court
Order Granting in Part and Denying in Part
Motion to Dismiss and Denying Motion for
Preliminary Injunction in 16-cv-02372
Issued September 1, 2017 .................................... 154a
Colorado Revised Statute § 24-34-601
Discrimination in places of public
accommodation ..................................................... 171a
Joint Statement of Stipulated Facts
Filed in Colorado District Court
No. 16-cv-02372 on February 1, 2017 .................. 173a
303 Creative Wedding Website Announcement
and Statement ...................................................... 196a

1a
FILED
United States Court of Appeals
Tenth Circuit
July 26, 2021
Christopher M. Walpert
Clerk of Court
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
303 CREATIVE LLC, a limited
liability company; LORIE
SMITH,
Plaintiffs – Appellants,
v.
AUBREY ELENIS; CHARLES
GARCIA; AJAY MENON;
MIGUEL RENE ELIAS;
RICHARD LEWIS; KENDRA
ANDERSON; SERGIO
CORDOVA; JESSICA
POCOCK; PHIL WEISER,
Defendants – Appellees
---------------------------------*****

No. 19-1413

2a

Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:16-CV-02372-MSK-CBS)
*****
Before TMYKOVICH, Chief Judge, BRISCOE, and
MURPHY, Circuit Judges.
BRISCOE, Circuit Judge.
I.

Introduction

Appellants Lorie Smith and her website design
company 303 Creative, LLC (collectively, “Appellants”) appeal the district court’s grant of summary
judgment in favor of Appellees Aubrey Elenis,
Director of the Colorado Civil Rights Division (the
“Director”), Anthony Aragon, Ulysses J. Chaney,
Miguel Rene Elias, Carol Fabrizio, Heidi Hess, Rita
Lewis, and Jessica Pocock, members of the Colorado
Civil Rights Commission (the “Commission”), and
Phil Weiser, Colorado Attorney General (collectively,
“Colorado”). Appellants challenge Colorado’s AntiDiscrimination Act (“CADA”) on free speech, free
exercise, and vagueness and overbreadth grounds.
As to our jurisdiction, we hold that Appellants
have standing to challenge CADA. As to the merits,
we hold that CADA satisfies strict scrutiny, and thus
permissibly compels Appellants’ speech. We also hold
that CADA is a neutral law of general applicability,

3a
and that it is not unconstitutionally vague or
overbroad. Accordingly, exercising jurisdiction under
28 U.S.C. § 1291, we affirm the district court’s grant
of summary judgment in favor of Colorado.
II. Background
A. Factual Background
1. CADA
CADA restricts a public accommodation’s ability
to refuse to provide services based on a customer’s
identity. Specifically, CADA defines a public accommodation as “any place of business engaged in any
sales to the public and any place offering services,
facilities, privileges, advantages, or accommodations
to the public.” Colo. Rev. Stat. § 24-34-601(1).
Exempted from CADA’s definition of public accommodations are places that are “principally used for
religious purposes.” Id.
Under CADA’s “Accommodation Clause,” a public
accommodation may not:
directly or indirectly . . . refuse . . . to an
individual or a group, because of . . .
sexual orientation . . . the full and equal
enjoyment of the goods, services,
facilities, privileges, advantages, or
accommodations of a place of public
accommodation . . . .
Colo. Rev. Stat. § 24-34-601(2)(a).
Under CADA’s “Communication Clause,” a public
accommodation also may not:

4a
directly or indirectly . . . publish . . . any
. . . communication . . . that indicates
that the full and equal enjoyment of the
goods, services, facilities, privileges,
advantages, or accommodations of a
place of public accommodation will be
refused . . . or that an individual’s patronage . . . is unwelcome, objectionable,
unacceptable, or undesirable because of
. . . sexual orientation . . . .
Id.
CADA exempts certain sex-based restrictions from
the Accommodation Clause and Communication
Clause. Specifically, under CADA, “it is not a
discriminatory practice for a person to restrict
admission to a place of public accommodation to
individuals of one sex if such restriction has a bona
fide relationship to the goods, services, facilities,
privileges, advantages, or accommodations of such
place of public accommodation.” Colo. Rev. Stat. § 2434-601(3).
CADA provides several different means of
enforcement. A person alleging a violation of CADA
can bring a civil action in state court. The state court
may levy a fine of “not less than fifty dollars nor more
than five hundred dollars for each violation.” Colo.
Rev. Stat. § 24-34-602(1)(a). A complainant can also
file charges alleging discrimination with the Colorado
Civil Rights Division. The Commission, individual
Commissioners, or the Colorado Attorney General
may also independently file charges alleging discrimination “when they determine that the alleged
discriminatory or unfair practice imposes a signifi-

5a
cant societal or community impact.” Aplts.’ App. at 2315, ¶ 7. The Director of the Civil Rights Division then
investigates the allegations and determines whether
the charge is supported by probable cause. If probable
cause is found, the Director provides the parties with
written notice and commences a compulsory mediation. If mediation fails, a hearing may be held before
the Colorado Civil Rights Commission, a single
Commissioner, or an administrative law judge. If a
violation is found after a hearing, the Commission
may issue a cease and desist order against the
offending public accommodation.
In a different case, Colorado enforced CADA
against a bakery that, because of its owner’s religious
beliefs, refused to provide custom cakes that
celebrated same-sex marriages. That case eventually
made its way up to the United States Supreme Court,
where the Court ruled in favor of the baker. See
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Comm’n, 138 S. Ct. 1719 (2018). There, the Court held
that Colorado violated the Free Exercise Clause by
enforcing CADA in a manner “inconsistent with the
State’s obligation of religious neutrality.” Id. at 1723.
The Court relied, in part, on statements made by a
Commissioner who disparaged the baker’s religious
beliefs when the Commission adjudicated that case.
Id. at 1729. The Court also noted that, on at least
three other occasions, Colorado declined to enforce
CADA against other bakers who refused to create
custom cakes that disparaged same-sex marriages.
Id. at 1730.
At a public meeting held a few days after the
Court’s ruling in Masterpiece Cakeshop, a single
Commissioner opined that, despite the Court’s ruling,

6a
the Commissioner who was referenced in Masterpiece
Cakeshop did not say “anything wrong.” Aplts.’ App.
at 3-609. Others at that hearing, however, including
Director Elenis, voiced agreement with the Court’s
ruling and their commitment to follow that ruling.
See, e.g., id. at 3-606 (Director Elenis: “So in these
cases going forward, Commissioners and ALJs and
others, including the Staff at the Division, have to be
careful how these issues are framed so that it’s clear
that full consideration was given to sincerely—what
is termed as sincerely-held religious objections.”).
2. Appellants
303 Creative is a for-profit, graphic and website
design company; Ms. Smith is its founder and sole
member-owner. Appellants are willing to work with
all people regardless of sexual orientation. Appellants
are also generally willing to create graphics or
websites for lesbian, gay, bisexual, or transgender
(“LGBT”) customers. Ms. Smith sincerely believes,
however, that same-sex marriage conflicts with God’s
will. Appellants do not yet offer wedding-related
services but intend to do so in the future. Consistent
with Ms. Smith’s religious beliefs, Appellants intend
to offer wedding websites that celebrate opposite-sex
marriages but intend to refuse to create similar
websites that celebrate same-sex marriages.
Appellants’ objection is based on the message of the
specific website; Appellants will not create a website
celebrating same-sex marriage regardless of whether
the customer is the same-sex couple themselves, a
heterosexual friend of the couple, or even a
disinterested wedding planner requesting a mock-up.
As part of the expansion, Appellants also intend to

7a
publish a statement explaining Ms. Smith’s religious
objections (the “Proposed Statement”):
These same religious convictions that
motivate me also prevent me from
creating websites promoting and
celebrating ideas or messages that
violate my beliefs. So I will not be able to
create websites for same-sex marriages
or any other marriage that is not
between one man and one woman. Doing
that would compromise my Christian
witness and tell a story about marriage
that contradicts God’s true story of
marriage – the very story He is calling
me to promote.
Aplts.’ App. at 2-326 (¶ 91).
Appellants have not yet offered wedding-related
services, or published the Proposed Statement,
because Appellants are unwilling to violate CADA.
B. Procedural Background
Appellants brought a pre-enforcement challenge
to CADA in the United States District Court for the
District of Colorado. Appellants alleged a variety of
constitutional violations, including that CADA’s
Accommodation Clause and Communication Clause
violated the Free Speech and Free Exercise Clauses
of the First Amendment, and that CADA’s Communication Clause violated the Due Process Clause of the
Fourteenth Amendment because it was facially
overbroad and vague. Colorado moved to dismiss. At
a motions hearing, both parties agreed there were no

8a
disputed material facts and that the matter should be
resolved through summary judgment.
After summary judgment briefing had concluded,
the district court found that Appellants only
established standing to challenge the Communication
Clause, and not the Accommodation Clause. The
district court initially declined to rule on the merits of
Appellants’ Communication Clause challenges,
however, because Masterpiece Cakeshop was then
pending before the United States Supreme Court.
After the Supreme Court’s ruling in Masterpiece
Cakeshop, the district court denied Appellants’
summary judgment motion on its Communication
Clause challenges. In doing so, the district court
“assume[d] the constitutionality of the Accommodation Clause . . . .” Id. at 3-568. The district court
also ordered Appellants to show cause why final
judgment should not be granted in favor of Colorado.
Id. at 3-588. After additional briefing, the district
court granted summary judgment in favor of
Colorado.
Appellants timely appealed the district court’s
final judgment. They assert that the district court
erred (1) in determining that Appellants lack
standing to challenge the Accommodation Clause; (2)
in assuming the Accommodation Clause does not
compel speech and in ruling that the Communication
Clause does not compel speech; (3) in rejecting
Appellants’ Free Exercise challenges to both Clauses;
and (4) in rejecting Appellants’ overbreadth and
vagueness challenges to the Communication Clause.

9a
III.

Analysis

A. Standard of Review
Summary judgment is warranted when the
movant is entitled to “judgment as a matter of law” in
the absence of a “genuine dispute as to any material
fact.” Fed. R. Civ. P. 56(a). We review the entry of
summary judgment de novo, “applying the same
standard for summary judgment that applied in the
district court.” Sandoval v. Unum Life Ins. Co. of Am.,
952 F.3d 1233, 1236 (10th Cir. 2020); see also Lincoln
v. BNSF Ry. Co., 900 F.3d 1166, 1180 (10th Cir. 2018)
(stating that when reviewing summary judgment “we
need not defer to factual findings rendered by the
district court”) (citation and internal quotation marks
omitted). We view the evidence and draw all
reasonable inferences in favor of the non-movant.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986). Where the activity in question is arguably
protected by the First Amendment, the court has “an
obligation to make an independent examination of the
whole record in order to make sure that the judgment
does not constitute a forbidden intrusion on the field
of free expression.” Citizens for Peace in Space v. City
of Colo. Springs, 477 F.3d 1212, 1219 (10th Cir. 2007)
(quoting Bose Corp. v. Consumers Union of United
States, Inc., 466 U.S. 485, 499 (1984)).
B. Standing
“Standing is a jurisdictional issue that may be
raised by the court at any time.” Buchwald v. Univ. of
N.M. Sch. of Med., 159 F.3d 487, 492 (10th Cir. 1998).
Whether a party has standing is a question of law
reviewed de novo. Comm. to Save the Rio Hondo v.
Lucero, 102 F.3d 445, 447 (10th Cir. 1996).

10a
“Article III of the Constitution limits the
jurisdiction of federal courts to ‘Cases’ and
‘Controversies.’” Susan B. Anthony List v. Driehaus,
573 U.S. 149, 157 (2014) (quoting U.S. Const. art. III,
§ 2). The doctrine of standing serves as “[o]ne of those
landmarks” in identifying “the ‘Cases’ and ‘Controversies’ that are of the justiciable sort referred to in
Article III.” Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992). Under Article III, standing requires
at least three elements: injury in fact, causation, and
redressability. Id. at 560–61.
1. Injury in Fact
An injury in fact is “an invasion of a legally
protected interest which is (a) concrete and
particularized and (b) actual or imminent, not
conjectural or hypothetical.” Initiative and Referendum Inst. v. Walker, 450 F.3d 1082, 1087 (10th Cir.
2006) (en banc) (quoting Lujan, 504 U.S. at 560). In
the context of a pre-enforcement challenge, to show
an injury in fact, a party must allege “an intention
to engage in a course of conduct arguably affected
with a constitutional interest, but proscribed by a
statute, and there exists a credible threat of
prosecution thereunder.” SBA List, 573 U.S. at 159
(quoting Babbitt v. Farm Workers, 442 U.S. 289, 298
(1979)); see also Colo. Outfitters Ass’n v. Hickenlooper,
823 F.3d 537, 545 (10th Cir. 2016). Article III does not
require the plaintiff to risk “an actual arrest,
prosecution, or other enforcement action.” SBA List,
573 U.S. at 158 (citing Steffel v. Thompson, 415 U.S.
452, 459 (1974)).
Reviewing the issue de novo, we conclude that
Appellants have shown an injury in fact. Appellants

11a
have sufficiently demonstrated both an intent to
provide graphic and web design services to the public
in a manner that exposes them to CADA liability, and
a credible threat that Colorado will prosecute them
under that statute.
Although not challenged by Colorado, see
Colorado’s Br. at 26, we are satisfied that Appellants
have shown an “intention to engage in a course of
conduct arguably affected with a constitutional
interest.” SBA List, 573 U.S. at 159. Although
Appellants have not yet offered wedding website
services, Ms. Smith has been employed as a graphic
and web designer in the past. Appellants have also
provided clear examples of the types of websites they
intend to provide, as well as the intended changes to
303 Creative’s webpage. And Ms. Smith holds a
sincere religious belief that prevents her from
creating websites that celebrate same-sex marriages.
We are also satisfied that Appellants’ intended
“course of conduct”1 is at least “arguably . . .
proscribed by [the] statute,” i.e., CADA. SBA List, 573
U.S. at 162 (alterations in original). In briefing the
merits of its claims, Appellants, somewhat contradictorily, assert that “Colorado concedes that
[Appellants] serve[ ] regardless of status, do[ ] not
discriminate against LGBT persons, and make[ ] only
message-based referrals.” Aplts.’ Br. at 31–32. True
enough, the parties stipulated to the district court
that Appellants are “willing to work with all people
We refer to Appellants’ “course of conduct” in applying the
standard under SBA List for determining Article III standing;
our discussion as to standing does not indicate whether
Appellants’ “course of conduct” is speech or commercial conduct.
1

12a
regardless of classifications such as race, creed,
sexual orientation, and gender.” Aplts.’ App. at 2-322
(¶ 64). Thus, it might appear that Appellants have no
exposure to liability under CADA. Although neither
party presses this argument on appeal, we address it
to assure ourselves of jurisdiction. Buchwald, 159
F.3d at 492.
To be sure, some of Appellants’ intended course of
conduct would not violate CADA, and thus would not
give rise to standing. For example, Appellants are
willing to “create custom graphics and websites for
gay, lesbian, or bisexual clients . . . so long as the
custom graphics and websites do not violate [Appellants’] religious beliefs, as is true for all customers.”
Aplts.’ App. 2-322 (¶ 65). Thus, Appellants are not
injured because CADA might “compel” them to create
a website announcing a birthday party for a gay man;
that is something Appellants would do willingly. Nor
are Appellants injured because CADA might “compel”
them to create a website announcing “God is Dead”;
Colorado concedes CADA would not apply if
Appellants would not produce such a website for any
customers. See Colorado’s Br. at 42. But, of course,
neither birthday parties nor Nietzschean pronouncements are the focus of Appellants’ challenge.
Setting aside other hypotheticals, we focus on
what is to us the most obvious scenario: Appellants
refuse a same-sex couple’s request for a website
celebrating their wedding but accept an opposite-sex
couple’s identical request for a website celebrating
their wedding. Considering this scenario, Appellants’
injury becomes clear. Although Appellants might
comply with CADA in other circumstances, at least
some of Appellants’ intended course of conduct

13a
arguably would “deny to an individual . . . because of
. . . sexual orientation . . . the full and equal enjoyment
of [goods and services].” Colo. Rev. Stat. § 24-34601(2)(a).
A couple’s request for a wedding website is, at
least arguably, “inextricably bound up with” the
couple’s sexual orientation. Bostock v. Clayton Cnty.,
Ga., 140 S. Ct. 1731, 1742 (2020). As the Supreme
Court explained in Bostock, “[an] employer’s ultimate
goal might be to discriminate on the basis of sexual
orientation. But to achieve that purpose the employer
must, along the way, intentionally treat an employee
worse based in part on that individual’s sex.” Id. So
too here—although Appellants’ “ultimate goal” might
be to only discriminate against same-sex marriage, to
do so Appellants might also discriminate against
same-sex couples. As a result, Appellants’ refusal may
be “because of” the customers’ sexual orientation, and
thereby expose them to liability under CADA. See also
Lawrence v. Texas, 539 U.S. 558, 583 (2003)
(O’Connor, J., concurring) (anti-sodomy law does not
target “conduct,” but “is instead directed toward gay
persons as a class”). We do not decide whether
Appellants’ (or any other businesses’) conscience- or
message-based objections are a defense against
CADA; we only hold that such objections are at least
“arguably . . . proscribed by [the] statute.” SBA List,
573 U.S. at 162 (quoting Babbitt, 442 U.S. at 298)
(alterations in original).
Colorado asserts that, even if Appellants have
shown an intent to violate CADA, Appellants have not
shown a credible threat of prosecution. Specifically,
Colorado questions whether Appellants will “actually
den[y] services based on a person’s sexual orientation”

14a
and whether such a person will “file[ ] a charge of
discrimination.” Colorado’s Br. at 27; see also id. at
33–35. According to Colorado, Appellants’ fear of
prosecution is not credible because it requires the
court to speculate about the actions of Appellants’
would-be customers.
We disagree. Appellants have a credible fear of
prosecution because Appellants’ liability under CADA
and Colorado’s enforcement of CADA are both
“sufficiently imminent.” SBA List, 573 U.S. at 159.
Appellants’ potential liability is inherent in the
manner they intend to operate—excluding customers
who celebrate same-sex marriages. Thus, Appellants
are rightfully wary of offering wedding-related
services and may challenge CADA as chilling their
speech. See id. at 163 (“Nothing in this Court’s
decisions require a plaintiff who wishes to challenge
the constitutionality of a law to confess that he will in
fact violate that law.”); also Walker, 450 F.3d at 1089
(pre-enforcement plaintiff need not show “a present
intention to engage in [proscribed] speech at a specific
time in the future”).
Contrary to Colorado’s assertion, Appellants’ fears
do not “rest[ ] on guesswork” or “a highly attenuated
chain of possibilities.” Colorado’s Br. at 29. If
anything, it is Colorado that invites this court to
speculate. Assuming Appellants offer weddingrelated services to the public as they say they will,
there is no reason to then conclude that Appellants
will fail to attract customers. Nor is there reason to
conclude that only customers celebrating opposite-sex
marriages will request Appellants’ services. In short,
we find nothing “imaginary or speculative” about
Appellants’ apprehensions that they may violate

15a
CADA if they offer wedding-based services in the
manner that they intend. SBA List, 573 U.S. at 165.
If Appellants violate CADA, it is also “sufficiently
imminent” that Colorado will enforce that statute
against Appellants. In SBA List, the Supreme Court
described at least three factors to be used in determining a credible fear of prosecution: (1) whether the
plaintiff showed “past enforcement against the same
conduct”; (2) whether authority to initiate charges
was “not limited to a prosecutor or an agency” and,
instead, “any person” could file a complaint against
the plaintiffs; and (3) whether the state disavowed
future enforcement. Id. at 164–65.
All three factors indicate Appellants have a
credible fear of prosecution. First, Colorado has a
history of past enforcement against nearly identical
conduct—i.e., Masterpiece Cakeshop, which, at the
time Appellants filed their complaint, had been
litigated through various state administrative and
court proceedings for over two years. Aplts.’ App. at 2317 (¶ 25). Although Appellants create websites—not
cakes—this distinction does not diminish Appellants’
fear of prosecution; there is no indication that
Colorado will enforce CADA differently against
graphic designers than bakeries. Second, any (would
be) customer who requests a website for a same-sex
wedding and is refused may file a complaint and
initiate a potentially burdensome administrative
hearing against Appellants. Aplts.’ App. at 2-314
(¶ 4). Thus, Appellants must fear not only charges
brought by Colorado, but charges brought by any
person who might request a website celebrating
same-sex marriage. And third, Colorado declines to

16a
disavow future enforcement against Appellants.
Colorado’s Br. at 29.
Colorado asks us to conclude that there is no
“active enforcement by the state,” because, aside from
Masterpiece Cakeshop, Appellants only identify three
similar cases, each of which ended with a “no probable
cause” finding. Colorado’s Br. at 33–34. Yet, those
cases involved businesses that supported same-sex
marriage. Considering all four cases collectively,
Appellants have a credible fear that CADA will be
enforced against businesses that object to same-sex
marriage. Indeed, the Supreme Court has found that
Colorado’s non-enforcement against businesses that
support same-sex marriage evinced a Free Exercise
violation. See Masterpiece Cakeshop, 138 S. Ct. at
1730 (“Another indication of hostility is the difference
in treatment between [Jack] Phillips’ case [in
Masterpiece Cakeshop] and the cases of other bakers
who objected to a requested cake on the basis of
conscience and prevailed before the Commission.”).
Colorado also asserts that it “need not ‘refute and
eliminate all possible risk that the statute might be
enforced’ to demonstrate a lack of a case or controversy.” Colorado’s Br. at 29 (quoting Mink v. Suthers,
482 F.3d 1244, 1255 (10th Cir. 2007)). Although not
dispositive, non-disavowal of future enforcement
remains a relevant factor for courts to consider in
determining standing. See, e.g., Holder v. Humanitarian Law Project, 561 U.S. 1, 16 (2010) (considering
government’s non-disavowal of future enforcement).
Further, in the case upon which Colorado relies, the
attorney general publicly disavowed enforcement
against the plaintiff. Mink, 482 F.3d at 1255 n.8.
Here, Attorney General Weiser has made no similar

17a
promise to Appellants. Indeed, Colorado’s strenuous
assertion that it has a compelling interest in enforcing
CADA indicates that enforcement is anything but
speculative. See Colorado’s Br. at 67 (“That other
website designers are willing to serve the LGBT
community is of no moment”).2
In short, on the summary-judgment record
presented, we conclude that Appellants show an
injury in fact because they intend to discriminate in a
manner that is arguably proscribed by CADA, and
they show a credible fear that Colorado will enforce
CADA against them.
2. Causation and Redressability
Colorado also challenges causation and redressability as to Director Elenis and Attorney General
Weiser. Specifically, Colorado asserts that those
defendants, unlike the Commission, lack “enforcement authority” under CADA, and thus do not cause
and cannot redress Appellants’ injuries. Colorado’s
Br. at 30.
“[T]he causation element of standing requires the
named defendants to possess authority to enforce the
For similar reasons, Colorado’s reliance on the Supreme
Court’s recent decision in California v. Texas is misplaced. 141
S. Ct. 2104 (2021). In that case, the Supreme Court found that
plaintiffs lacked standing to challenge an Affordable Care Act
provision that carried a penalty of $0, and thus had “no means
of enforcement.” Id. at 2114. By contrast, CADA imposes a
minimum penalty of $50. Colo. Rev. Stat. § 24-34-602(1)(a).
Colorado provides no indication that those statutory penalties
are unenforceable. Colorado’s repeated refutations of both
actual and threatened enforcement are puzzling, to say the
least.
2

18a
complained-of provision.” Bronson v. Swensen, 500
F.3d 1099, 1110 (10th Cir. 2007). Causation does not
require a plaintiff to limit a suit to only the most
culpable defendants; rather, causation merely requires that the plaintiff’s injury is “fairly traceable” to
those defendants. Id. at 1109. Redressability requires
“that a favorable judgment would meaningfully
redress the alleged injury.” Walker, 450 F.3d at 1098.
Here, Appellants’ injury is not merely the risk of
complaints filed by private customers—it also
includes the burden of administrative proceedings
before the Director and the prospect of litigation
brought by the Attorney General. Those injuries are
“fairly traceable” to Director Elenis and Attorney
General Weiser. Colorado concedes that, under
CADA, Director Elenis may “investigate[ ] charges of
discrimination, issue[ ] subpoenas to compel information, issue[ ] a determination of probable cause or
no probable cause, and conduct[ ] mandatory
mediation if cause is found, or dismiss[ ] if no cause is
found.” Colorado’s Br. at 30. Colorado also concedes
that, under CADA, Attorney General Weiser has
“limited” enforcement authority. Id. at 31. Thus, the
traceability issues in this case differ from those in
Bronson. There, the defendant was a county clerk who
refused to issue a marriage license, but who had no
authority to enforce the criminal statute at issue. 500
F.3d at 1111. Here, both Director Elenis and Attorney
General Weiser have authority to enforce CADA.
Just as Appellants’ injury is traceable to Director
Elenis and Attorney General Weiser, enjoining
Director Elenis and Attorney General Weiser from
enforcing CADA would redress Appellants’ fears that
they may be subject to investigation, or face charges

19a
brought by the Attorney General. Accordingly, we
conclude that Appellants have established Article III
standing.3
3. Ripeness
For the same reasons Appellants have established
standing, we are satisfied that this case is ripe. See
SBA List, 573 U.S. at 157 n.5 (acknowledging that, in
pre-enforcement challenges, standing and ripeness
often “boil down to the same question”) (quoting
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118,
128 n.8 (2007)). Certainly, the record would be better
developed, and the legal issues would be clearer, if
Appellants had denied services to a customer, that
customer filed a complaint, and that complaint was
adjudicated through the appropriate administrative
and judicial channels. Yet, as discussed above, Article
III does not require a pre- enforcement plaintiff to risk
arrest or actual prosecution before bringing claim in
federal court. Any prudential considerations
presented in this case do not prevent us from
exercising our “virtually unflagging” obligation to
hear cases within our jurisdiction. SBA List, 573 U.S.
at 167 (citing Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 126 (2014)).

C. Free Speech
It is a “fundamental rule of protection under the
First Amendment, that a speaker has the autonomy
to choose the content of his own message.” Hurley v.
Because we conclude that Appellants have standing, we
decline to address whether the district court could assume the
constitutionality of the Accommodation Clause after first finding
Appellants lacked standing to challenge that Clause.
3

20a
Irish-American Gay, Lesbian and Bisexual Group of
Boston, 515 U.S. 557, 573 (1995); Rumsfeld v. Forum
for Academic and Institutional Rights, Inc., 547 U.S.
47, 61 (2006) (recognizing the principle “that freedom
of speech prohibits the government from telling
people what they must say”).

1. The Accommodation Clause
a. Compelled Speech
Appellants’ creation of wedding websites is pure
speech. The websites Appellants intend to offer
“celebrate and promote the couple’s wedding and
unique love story” by combining custom text,
graphics, and other media. Aplts.’ App. at 2-325
(¶¶ 81, 84). The websites consequently express
approval and celebration of the couple’s marriage,
which is itself often a particularly expressive event.
See Obergefell v. Hodges, 576 U.S. 644, 657 (2015)
(recognizing “untold references to the beauty of
marriage in religious and philosophical texts
spanning time, cultures, and faiths, as well as in art
and literature in all their forms”). Appellants’ custom
websites are similar to wedding videos and
invitations, both of which have also been found to be
speech. See Telescope Media Grp. v. Lucero, 936 F.3d
740, 751–52 (8th Cir. 2019) (wedding videographers
engaged in speech); Brush & Nib Studio, LC v. City
of Phoenix, 448 P.3d 890, 908 (Ariz. 2019) (custom
wedding invitations are pure speech).
Our analysis relies on the custom and unique
nature of Appellants’ services, rather than their
chosen medium. As Colorado asserts, the mere fact
that Appellants’ trade is “in part initiated, evidenced,
or carried out by means of language, either spoken,

21a
written, or printed” is not sufficient to show a speech
interest. Colorado’s Br. at 44 (quoting FAIR, 547 U.S.
at 62). In FAIR, the Supreme Court rejected
arguments that the Solomon Amendment compelled
speech by requiring law schools to accommodate
military recruiters, including sending students
emails on behalf of military recruiters or providing
military recruiters with access to law school facilities.
The Court noted that “accommodating the military’s
message does not affect the law schools’ speech,
because the schools are not speaking when they host
interviews and recruiting receptions . . . . [A] law
school’s decision to allow recruiters on campus is not
inherently expressive.” 547 U.S. at 64. In contrast,
here, creating a website (whether through words,
pictures, or other media) implicates Appellants’
unique creative talents, and is thus inherently
expressive.
Appellants’ own speech is implicated even where
their services are requested by a third-party. In
Hurley, the Supreme Court recognized a parade
organizer’s Free Speech interests, despite the fact
that the organizer lacked a “particularized message”
or that the speech would be initially generated by the
participants, and not the organizer. Hurley, 515 U.S.
at 569–70. The speech element is even clearer here
than in Hurley because Appellants actively create
each website, rather than merely hosting customergenerated content on Appellants’ online platform.
Compare Miami Herald Pub. Co. v. Tornillo, 418 U.S.
241, 258 (1974) (“A newspaper is more than a passive
receptacle or conduit for news, comment, and
advertising.”), with FAIR, 547 U.S. at 64 (“In this
case, accommodating the military’s message does not

22a
affect the law school’s speech, because the schools are
not speaking when they host interviews and
recruiting receptions.”), and PruneYard Shopping
Ctr. v. Robins, 447 U.S. 74, 85 (1980) (shopping center
may be forced to “use his property as a forum for the
speech of others”).
Nor does a profit motive transform Appellants’
speech into “commercial conduct.” See Colorado’s Br.
at 37. The First Amendment’s protections against
compelled speech are “enjoyed by business corporations generally and by ordinary people engaged in
unsophisticated expression as well as by professional
publishers.” Hurley, 515 U.S. at 574. Thus, as the
Supreme Court has recognized, for-profit businesses
may bring compelled speech claims. See, e.g., Tornillo,
418 U.S. at 254 (for-profit newspaper cannot be
compelled to accommodate political candidates’ “right
of reply”); Pac. Gas and Elec. Co. v. Public Utilities
Comm’n of Cal., 475 U.S. 1, 9 (1986) (utility company
cannot be compelled to include critic’s speech in
utility company’s billing envelopes).
The Accommodation Clause also “compels”
Appellants to create speech that celebrates same-sex
marriages. Colorado asserts that the Accommodation
Clause only regulates Appellants’ conduct in picking
customers and does not regulate Appellants’ speech.
See Colorado’s Br. at 40. Yet, this argument is
foreclosed by Hurley. As with the Massachusetts
public accommodations law in Hurley, CADA has the
effect “of declaring the sponsors’ speech itself to be the
public accommodation.” Hurley, 515 U.S. at 573. By
compelling Appellants to serve customers they would
otherwise refuse, Appellants are forced to create

23a
websites—and thus,
otherwise refuse.

speech—that

they

would

Colorado also asserts that the Accommodation
Clause does not require a specific message or statement unrelated to regulating conduct. See Colorado’s
Br. at 46 (citing Wooley v. Maynard, 430 U.S. 705
(1977) and W. Va. Bd. of Educ. v. Barnette, 319 U.S.
624 (1943)). Yet, again, neither was a specific message
or statement required in Hurley. Further, as the
Supreme Court explained in FAIR, “compelled-speech
cases are not limited to the situation in which an
individual must personally speak the government’s
message.” FAIR, 547 U.S. at 63. Relying on Hurley,
the Court explained in FAIR that compelled speech
may be found where “the complaining speaker’s own
message was affected by the speech it was forced to
accommodate.” Id. So here, the result of the
Accommodation Clause is that Appellants are forced
to create custom websites they otherwise would not.
Because the Accommodation Clause compels
speech in this case, it also works as a content-based
restriction. See Nat’l Inst. of Family and Life
Advocates v. Becerra, 138 S. Ct. 2361, 2371 (2018)
(“By requiring petitioners to inform women how they
can obtain state-subsidized abortions . . . the licensed
notice plainly ‘alters the content’ of petitioners’
speech.”) (quoting Riley v. Nat’l Fed. of Blind of N.C.,
Inc., 487 U.S. 781, 795 (1988)). Appellants cannot
create websites celebrating opposite-sex marriages,
unless they also agree to serve customers who request
websites celebrating same-sex marriages. CADA’s
purpose and history also demonstrate how the statute
is a content-based restriction. As Colorado makes
clear, CADA is intended to remedy a long and

24a
invidious history of discrimination based on sexual
orientation. See Colorado’s Br. at 65–66. Thus, there
is more than a “substantial risk of excising certain
ideas or viewpoints from the public dialogue.” Turner
Broad. Sys., Inc. v. FCC, 512 U.S. 622, 642 (1994).
Eliminating such ideas is CADA’s very purpose. For
similar reasons, the Supreme Court in Hurley
concluded that eliminating discriminatory bias was a
“decidedly fatal objective” in light of a Free Speech
challenge. Hurley, 515 U.S. at 579; see also TMG, 936
F.3d at 753 (Minnesota public accommodations law
operates as a content-based restriction “by requiring
the Larsens to convey ‘positive’ messages about samesex weddings”); B&N, 448 P.3d at 914 (Arizona public
accommodations law is facially neutral, but operates
as a content-based restriction).
b.

Strict Scrutiny

Whether viewed as compelling speech or as a
content-based restriction, the Accommodation Clause
must satisfy strict scrutiny—i.e., Colorado must show
a compelling interest, and the Accommodation Clause
must be narrowly tailored to satisfy that interest.
Reed v. Town of Gilbert, Ariz., 576 U.S. 155, 164
(2015).
Here, Colorado has a compelling interest in
protecting both the dignity interests of members of
marginalized groups and their material interests in
accessing the commercial marketplace. See, e.g.,
Roberts v. U.S. Jaycees, 468 U.S. 609, 624 (1984)
(Minnesota public accommodation law’s goals of
“eliminating discrimination and assuring its citizens
equal access to publicly available goods and services
. . . plainly serves compelling state interests of the

25a
highest order”). Colorado’s interest in preventing both
dignitary and material harms to LGBT people is well
documented. Colorado has a unique interest in
remedying its own discrimination against LGBT
people. See Colorado’s Br. at 65 (discussing Romer v.
Evans, 517 U.S. 620, 630, 634 (1996) (holding that
Colorado state constitutional amendment preventing
protected status for LGBT people violated the Equal
Protection Clause)). Even setting Colorado’s history
aside, Colorado, like many other states, has an
interest in preventing ongoing discrimination against
LGBT people. See Br. of Lambda Legal Defense and
Education Fund as amicus curiae, at 15 (describing
ongoing discrimination against LGBT people in
Colorado); Br. of Mass., et al. as amicus curiae at 7–8
(describing laws in other states that address
discrimination based on sexual orientation).
Nor do we construe Appellants’ arguments as
challenging Colorado’s interest in combating
discrimination generally. Rather, Appellants assert
Colorado fails to establish a compelling interest
because “[Appellants] do[ ] not discriminate against
anyone,” and because “Colorado can curb discriminatory conduct without compelling or silencing
[Appellants].” Aplts.’ Br. at 54; see also Aplts.’ Reply
at 26. Appellants do not appear to deny that, at least
in other contexts, LGBT people may suffer discrimination, and Colorado may have an interest in
remedying that harm. Thus, Appellants’ arguments
more appropriately address whether CADA is
narrowly tailored—not whether CADA furthers a
compelling interest.
The Accommodation Clause is not narrowly
tailored to preventing dignitary harms. As the

26a
Supreme Court has repeatedly made clear, “[w]hile
the law is free to promote all sorts of conduct in place
of harmful behavior, it is not free to interfere with
speech for no better reason than promoting an
approved message or discouraging a disfavored one,
however enlightened either purpose may strike the
government.” Hurley, 515 U.S. at 579; see also Boy
Scouts of Am. v. Dale, 530 U.S. 640, 659 (2000) (“The
state interests embodied in New Jersey’s public
accommodations law [prohibiting expulsion of a
LGBT scoutmaster] do not justify such a severe
intrusion on the Boy Scouts’ rights to freedom of
expressive association.”). So too here. As compelling
as Colorado’s interest in protecting the dignitary
rights of LGBT people may be, Colorado may not
enforce that interest by limiting offensive speech.
Indeed, the First Amendment protects a wide range
of arguably greater offenses to the dignitary interests
of LGBT people. See Snyder v. Phelps, 562 U.S. 443
(2011) (extending First Amendment protections to
funeral picketers).
The Accommodation Clause is, however, narrowly
tailored to Colorado’s interest in ensuring “equal
access to publicly available goods and services.” U.S.
Jaycees, 468 U.S. at 624. When regulating commercial
entities, like Appellants, public accommodations laws
help ensure a free and open economy. Thus, although
the commercial nature of Appellants’ business does
not diminish their speech interest, it does provide
Colorado with a state interest absent when regulating
non-commercial activity. Compare id., 468 U.S. at 626
(recognizing “the changing nature of the American
economy and of the importance, both to the individual
and to society, of removing the barriers to economic

27a
advancement and political and social integration that
have historically plagued certain disadvantaged
groups”), with Dale, 530 U.S. at 657 (“As the
definition of ‘public accommodation’ has expanded
from clearly commercial entities, such as restaurants,
bars, and hotels, to membership organizations such
as the Boy Scouts, the potential for conflict between
state public accommodations laws and the First
Amendment rights of organizations has increased.”).
The Supreme Court’s decision in Heart of Atlanta
Motel v. United States illustrates the commercial
consequences of public accommodation laws. 379 U.S.
241 (1964). In that case, the Court upheld Title II of
the Civil Rights Act of 1964 under Congress’s
Commerce Clause powers. In doing so, the Court
recognized the “overwhelming evidence of the
disruptive effect that racial discrimination has had on
commercial intercourse.” Id. at 257. The Court recited
evidence of racial discrimination by hotels and motels,
which was so pervasive that some travelers relied on
a special guidebook listing non-discriminatory
businesses. Id. at 253. Thus, the cumulative result of
those discriminatory practices discouraged interstate
commerce.
We do not define Colorado’s interest as “ensuring
access to a particular person’s unique, artistic product
[i.e., Appellants’].” Dissent at 27 (emphasis in
original); see also id. at 27 n.8. We recognize access to
Appellants’ services may be the consequence of
enforcing CADA, but that is not to say it is CADA’s
purpose or Colorado’s primary interest. For example,
CADA does not apply only to public accommodations
of a certain level of quality or artistic merit. In fact,
CADA is silent as to these attributes, leaving their

28a
appraisal to consumers. Nor does CADA conscript
Appellants’ services for some collective or redistributive end. CADA only applies here because Appellants intend to sell their unique services to the public.
The question then becomes whether Colorado’s
interest in ensuring access to the marketplace
generally still applies with the same force to Appellants’ case specifically—i.e., “whether [Colorado] has
such an interest in denying an exception to
[Appellants].” Fulton, 141 S. Ct. at 1881.
Excepting Appellants from the Accommodation
Clause would necessarily relegate LGBT consumers
to an inferior market because Appellants’ unique
services are, by definition, unavailable elsewhere. As
discussed above, our analysis emphasizes the custom
and unique nature of Appellants’ services. For the
same reason that Appellants’ custom and unique
services are speech, those services are also inherently
not fungible. To be sure, LGBT consumers may be
able to obtain wedding-website design services from
other businesses; yet, LGBT consumers will never be
able to obtain wedding-related services of the same
quality and nature as those that Appellants offer.
Thus, there are no less intrusive means of providing
equal access to those types of services.4

The cumulative effect of discrimination also explains why
other statutory exemptions, such as sex-based discrimination
motivated by a “bona fide relationship,” are permissible. See
Aplts.’ Reply at 26–27. Such exemptions promote open
commerce as a whole and are consistent with Colorado’s
interest in ensuring access to the commercial marketplace. We
do not decide whether the “bona fide relationship” exemption
should apply to Appellants. See infra, III.D.1.b. We only hold
4

29a
Amici dispute whether subjecting businesses to
the Accommodation Clause ultimately chills
commerce by discouraging businesses from entering
the market, due to fears that they will be compelled
to create objectionable products. Compare Br. of Law
and Economics Scholars as amicus curiae at 4
(enforcing the Accommodation Clause will “either
force unwilling associations or force the exit of a class
of market participants”), with Br. of Scholars of
Behavioral Science and Economics as amicus curiae
at 9 (asserting “markets cannot always be counted on
to ‘self-correct’ and produce a welfare-maximizing
outcome”). With respect to amici, we find the dispute
beside the point. This case does not present a
competitive market. Rather, due to the unique nature
of Appellants’ services, this case is more similar to a
monopoly. The product at issue is not merely “custommade wedding websites,” but rather “custom-made
wedding websites of the same quality and nature as
those made by Appellants.” In that market, only
Appellants exist. And, as amici apparently agree,
monopolies present unique anti-discrimination
concerns. See Br. of Law and Economics Scholars at 9
(“The only exception to this principle is a monopoly
situation, in which consumers are faced with a sole
supplier who could decide for all sorts of reasons,
including invidious motives, to refuse to deal with a
group of potential consumers.”).
We are also unpersuaded by the Supreme Court of
Arizona’s analysis in Brush & Nib. There, the
Supreme Court of Arizona concluded that custom
that the existence of that exemption does not require us to
craft new ones.

30a
wedding invitations are speech because they are not
fungible products, unlike a hamburger or pair of
shoes. B&N, 448 P.3d at 910. With that much we
agree—custom products often implicate speech. Yet,
the Supreme Court of Arizona then held that
exempting custom invitations from a public
accommodation law would not undermine the law’s
purpose. Id. at 916. Thus, ostensibly, the B&N Court
reasoned that any market harm was limited. We are
unconvinced. It is not difficult to imagine the
problems created where a wide range of custom-made
services are available to a favored group of people,
and a disfavored group is relegated to a narrower
selection of generic services. Thus, unique goods and
services are where public accommodation laws are
most necessary to ensuring equal access.5
To be clear, we, like the Dissent, do not question
Appellants’ “sincere religious beliefs” or “good faith.”
Dissent at 1. Yet, we fail to see how Appellants’
Elsewhere, the Dissent endorses our view that Appellants’
services are unique. See Dissent at 15 (“It is obvious to even the
most casual viewer that Ms. Smith is creating a customized art
product—which incorporates unique, expressive speech—for her
customers.”). In doing so, we think the Dissent commits the same
error as the B&N court. The Dissent never explains how
Appellants’ services are unique when considering Appellants’
speech interests, but fungible when considering Colorado’s
interest in preventing material harms to consumers. To us,
Appellants’ services must either be unique for both analyses, or
fungible for both. Such consistency does not “cheapen” the
artistic value of Appellants’ services. Dissent at 29. It is precisely
because Appellants’ unique services are valuable that exclusion
is harmful. It is the Dissent that cheapens Appellants’ artistry
by implying Appellants’ services are no better than those
available elsewhere.
5

31a
sincerity or good faith should excuse them from
CADA. Appellants’ intent has no bearing on whether,
as a consequence, same-sex couples have limited
access to goods or services. For this reason, it is
unclear to us why the Dissent places such repeated
emphasis on Appellants’ “good faith.” See, e.g.,
Dissent at 21 (“Nor is Ms. Smith’s statement intended
to be derogatory or malicious.”); id. at 52 (“We must
presume [Ms. Smith] has reached her beliefs ‘based
on decent and honorable religious or philosophical
premises.’”) (quoting Obergefell, 576 U.S. at 672).
Further, as the Supreme Court has recently
reaffirmed, “religious beliefs need not be acceptable,
logical, consistent, or comprehensible to others in
order to merit First Amendment protection.” Fulton
v. City of Philadelphia, 141 S. Ct. 1868, 1876 (2021)
(citing Thomas v. Review Bd. of Ind. Employment
Security Div., 450 U.S. 707, 714 (1981)). To us,
whether an exception limits market access depends
upon the uniqueness of the public accommodation’s
goods and services—not the sincerity of the public
accommodation’s beliefs.
We also recognize that “compelled speech is deeply
suspect in our jurisprudence—and rightly so, given
the unique harms it presents.” Dissent at 10. Yet, at
the same time, “[t]he axiom that places of public
accommodation are open to everyone is deeply rooted
in the American legal system.” TMG, 936 F.3d at 763
(Kelly, J., concurring in part and dissenting in part).
Indeed, the Supreme Court has repeatedly emphasized public accommodation laws’ vital importance—
even against Constitutional challenges. See, e.g.,
Masterpiece Cakeshop, 138 S. Ct. at 1728 (“It is
unexceptional that Colorado law can protect gay

32a
persons, just as it can protect other classes of
individuals, in acquiring whatever products and
services they choose on the same terms and conditions
as are offered to other members of the public.”);
Hurley, 515 U.S. at 572 (“Provisions like these are
well within the State’s usual power to enact when a
legislature has reason to believe that a given group is
the target of discrimination, and they do not, as a
general matter, violate the First or Fourteenth
Amendments.”); Heart of Atlanta Motel, 379 U.S. at
260 (“[I]n a long line of cases this Court has rejected
the claim that the prohibition of racial discrimination
in public accommodations interferes with personal
liberty.”). We resolve the tension between these two
lines of jurisprudence by holding that enforcing
CADA as to Appellants’ unique services is narrowly
tailored to Colorado’s interest in ensuring equal
access to the commercial marketplace.6
2. The Communication Clause
Appellants also assert that the Communication
Clause unconstitutionally abridges their Free Speech
rights. Specifically, Appellants intend to publish a
Proposed Statement on 303 Creative’s website,
stating Appellants “will not be able to create websites
for same-sex marriages or any other marriage that is
not between one man and one woman.” Aplts.’ App. at
2-364. Colorado responds that the Communication
Clause merely prohibits a public accommodation from
The Dissent implies that our holding applies to “all artists.”
Dissent at 30 (emphasis in original). As should be clear, our
holding does not address how CADA might apply to noncommercial activity (such as commissioning a mural for some
charitable purpose).
6

33a
advertising what is already unlawful under the
Accommodation Clause. Specifically, the Communication Clause makes it unlawful for a public accommodation to publish a statement indicating that service
will be refused because of sexual orientation. Colo.
Rev. Stat. § 24-34-601(2)(a).
The Communication Clause does not violate the
Appellants’ Free Speech rights. As the district court
correctly held, Colorado may prohibit speech that
promotes unlawful activity, including unlawful
discrimination. Aplts.’ App. at 3-577–78. In Pittsburgh Press Company v. Pittsburgh Commission on
Human Relations, the Supreme Court held that
publishing employment advertisements in “sexdesignated columns” was not protected by the First
Amendment. 413 U.S. 376, 378 (1973). The Court
reasoned that, because the underlying employment
practice was illegal sex discrimination, there was no
protected First Amendment interest. Id. at 389. In
contrast, in Bigelow v. Virginia, 421 U.S. 809 (1975),
the Supreme Court held that publishing advertisements for abortion services was protected by the First
Amendment, so long as the underlying services were
themselves legal. In that case, the Court held that,
although the abortion services were illegal if offered
in Virginia, Virginia had no interest in regulating
advertisements for services offered in New York,
where the services were legal. Id. at 828. Appellants
appear to acknowledge that their Accommodation
Clause and Communication Clause challenges go
hand in hand, at least to the extent the merits of those
challenges are “intertwined.” Aplts.’ Reply at 6; see
also Aplts.’ Br. at 53–57 (addressing both clauses
simultaneously as to strict scrutiny).

34a
Having concluded that the First Amendment does
not protect Appellants’ proposed denial of services, we
also conclude that the First Amendment does not
protect the Proposed Statement. Parts of the
Proposed Statement might not violate the Accommodation Clause, such as those parts expressing
Appellants’ commitment to their clients or Ms.
Smith’s religious convictions. Yet, the Proposed
Statement also expresses an intent to deny service
based on sexual orientation—an activity that the
Accommodation Clause forbids and that the First
Amendment does not protect. Thus, the Proposed
Statement itself is also not protected and Appellants’
challenge to the Communication Clause fails. See
Pittsburgh Press, 413 U.S. at 389 (commercial
advertising is not protected where “the commercial
activity itself is illegal and the restriction on
advertising is incidental to a valid limitation on
economic activity”).7
D. Free Exercise
1. CADA is a Neutral Law of General
Applicability
“[L]aws incidentally burdening religion are
ordinarily not subject to strict scrutiny under the Free
Exercise Clause so long as they are neutral and
generally applicable.” Fulton, 141 S. Ct. at 1876
We presume the Dissent agrees that, under Pittsburgh
Press and Bigelow, Appellants’ Free Speech challenge to the
Communication Clause must rise or fall with their challenge to
the Accommodation Clause. We recognize the Dissent’s
disagreement with our analysis of the Accommodation Clause,
and thus its implicit disagreement with our conclusion as to the
Communication Clause.
7

35a
(citing Employment Div., Dep’t of Hum. Resources of
Or. v. Smith, 494 U.S. 872, 878–82 (1990)); see also
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, 531 (1993) (“[A] law that is
neutral and of general applicability need not be
justified by a compelling governmental interest even
if the law has the incidental effect of burdening a
particular religious practice.”).
a. CADA is a Neutral Law
“Government fails to act neutrally when it
proceeds in a manner intolerant of religious beliefs or
restricts practices because of their religious nature.”
Fulton, 141 S. Ct. at 1877 (emphasis added); see also
Lukumi, 508 U.S. at 533 (“[I]f the object of a law is to
infringe upon or restrict practices because of their
religious motivation, the law is not neutral[.]”)
(emphasis added). “Factors relevant to the
assessment of governmental neutrality include ‘the
historical background of the decision under challenge,
the specific series of events leading to the enactment
or official policy in question, and the legislative or
administrative history, including contemporaneous
statements made by members of the decisionmaking
body.’” Masterpiece Cakeshop, 138 S. Ct. at 1731
(quoting Lukumi, 508 U.S. at 540).
In Masterpiece Cakeshop, the Court held that
Colorado had enforced CADA against a baker (Jack
Phillips) without “the religious neutrality that the
Constitution requires.” 138 S. Ct. at 1724. The Court
relied, in part, on a Commissioner’s statement
describing the baker’s religious objection as “one of
the most despicable pieces of rhetoric that people can
use.” Id. at 1729. The Court explained that this

36a
statement impermissibly disparaged Phillips’ religion
by “describing it as despicable, and also by characterizing it as something merely rhetorical.” Id. The Court
instructed the Commission that it “was obliged under
the Free Exercise Clause to proceed in a manner
neutral toward and tolerant of Phillips’ religious
beliefs.” Id. at 1731.
Appellants provide no evidence that Colorado will
ignore the Court’s instruction in Masterpiece
Cakeshop, and thus provide no evidence that Colorado
will enforce CADA in a non-neutral fashion.
Appellants rely on a comment from a public meeting
held a few days after the Court’s ruling in Masterpiece
Cakeshop. At the public meeting, a different
Commissioner voiced his “support” for the Commissioner whose comments that were at issue in
Masterpiece Cakeshop, opining that the Commissioner discussed in Masterpiece Cakeshop did not say
“anything wrong.” Aplts.’ App. at 3-609. The single
Commissioner’s statement at the public meeting,
however, does not indicate Colorado will deviate from
the Court’s instruction in Masterpiece Cakeshop. In
contrast to the single Commissioner’s opinion, several
others at the public meeting voiced their agreement
with the Court’s ruling, or their commitment to follow
that ruling. Id. at 3-606 (Director Elenis: “So in these
cases going forward, Commissioners and ALJs and
others, including the Staff at the Division, have to be
careful how these issues are framed so that it’s clear
that full consideration was given to sincerely—what
is termed as sincerely-held religious objections.”); id.
3-608 (Commissioner Carol Fabrizio: “[Masterpiece
Cakeshop] was correctly decided from the outside, but
I also hope that anything that is taken out of here or

37a
listened to or—that we’re open to being respectful of
everybody’s views.”). In short, Appellants’ preenforcement challenge is dissimilar to the postenforcement challenge in Masterpiece Cakeshop.
b. CADA is Generally Applicable
A law is not generally applicable “if it prohibits
religious conduct while permitting secular conduct
that undermines the government’s asserted interests
in a similar way.” Fulton, 141 S. Ct. at 1877.
“[W]hether two activities are comparable for purposes
of the Free Exercise Clause must be judged against
the asserted government interest that justifies the
regulation at issue.” Tandon v. Newsom, 141 S. Ct.
1294, 1296 (2021) (per curiam). “The principle that
government, in pursuit of legitimate interests, cannot
in a selective manner impose burdens only on conduct
motivated by religious belief is essential to the
protection of the rights guaranteed by the Free
Exercise Clause.” Lukumi, 508 U.S. at 543.
“Neutrality and general applicability are interrelated,
and . . . failure to satisfy one requirement is a likely
indication that the other has not been satisfied.” Id.
at 531.
A law is also not generally applicable “if it ‘invites’
the government to consider the particular reasons for
a person’s conduct by providing ‘a mechanism for
individualized exemptions.’” Fulton, 141 S. Ct. at
1877 (quoting Smith, 494 U.S. at 884) (alteration
omitted). “[W]here the State has in place a system of
individual exemptions, it may not refuse to extend
that system to cases of ‘religious hardship’ without
compelling reason.” Id. (quoting Smith, 494 U.S. at
884). In Smith, the Court explained that a “good

38a
cause” exemption from requirements for unemployment compensation benefits “created a mechanism for
individualized exemptions.” Smith, 494 U.S. at 884
(citing Bowen v. Roy, 476 U.S. 693, 707 (1986)); see
also Sherbert v. Verner, 374 U.S. 398, 401 n.4 (1963).
And more recently, in Fulton, the Court explained
that exemptions from contractual obligations made
available at the “sole discretion” of a city commissioner trigger strict scrutiny. 141 S. Ct. at 1878.
Appellants assert that CADA is not generally
applicable because Colorado enforces a “religiousspeakers policy,” under which religiously-motivated
objections are viewed with greater scrutiny than
secularly-motivated objections. See Aplts.’ Br. at 48.
For example, although Colorado admits that a
business is not required to design a website
proclaiming “God is Dead” if it would decline such a
design for any customer, see Colorado’s Br. at 42,
Appellants must design a website celebrating samesex marriage, even though it would decline such a
design for any customer.
In support of their claim of a religious-speakers
policy, Appellants also rely on the record in
Masterpiece Cakeshop. In that case, Phillips asserted
a disparity in treatment between his case and three
other cases related to a customer named William
Jack. In the Jack cases, bakers refused Jack’s
requests for cakes that “conveyed disapproval of
same-sex marriage, along with religious text.”
Masterpiece Cakeshop, 138 S. Ct. 1719 at 1730. The
Colorado Court of Appeals held that the three bakers
lawfully refused Jack service “because of the offensive
nature of the requested message.” Id. at 1731 (quoting

39a
Craig v. Masterpiece Cakeshop, Inc., 370 P.3d 272, 282
n.8 (Colo. App. 2015)).
The Supreme Court held that this difference in
treatment was “[a]nother indication of hostility”
toward Phillips’ religious motivations. Id. at 1729.
Contrary to the Colorado Court of Appeals, the
Supreme Court held that the difference in treatment
between the Phillips and Jack cases could not be
based on “the government’s own assessment of
offensiveness.” Id. at 1731. According to the Court,
such reasoning “elevates one view of what is offensive
over another and itself sends a signal of official
disapproval of Phillips’ religious beliefs.” Id. The
Supreme Court declined to address, however,
“whether the cases should ultimately be distinguished.” Id. at 1730. Rather, the Court’s holding in
Masterpiece Cakeshop was narrowly limited to the
discriminatory enforcement in that particular case,
and left open CADA’s future enforcement against
other objectors. Id. at 1732; see also Fulton, 141 S. Ct.
at 1930 (Gorsuch, J., concurring) (“[A]ll that victory
[in Masterpiece Cakeshop] assured Mr. Phillips was a
new round of litigation—with officials now
presumably more careful about admitting their
motives.”).
In concurring opinions, Justices Kagan and
Gorsuch disagreed as to whether Colorado could
apply CADA in the Phillips case, but not in the Jack
cases. According to Justice Kagan, the bakers in the
Jack cases did not discriminate against Jack’s religion
because the bakers would have refused any
customer’s request for cakes denigrating gay people
and same-sex marriage. Masterpiece Cakeshop, 138 S.
Ct. at 1733 (Kagan, J., concurring). In Justice Kagan’s

40a
view, “[t]he different outcomes in the Jack cases and
the Phillips case could thus have been justified by a
plain reading and neutral application of Colorado
law—untainted by any bias against a religious belief.”
Id. (Kagan, J., concurring). According to Justice
Gorsuch, however, the Jack cases and the Phillips
case “share[d] all legally salient features.” Id. at 1735
(Gorsuch, J., concurring). In Justice Gorsuch’s view,
Colorado could apply CADA in both cases, or in
neither case, but “the one thing it can’t do is apply a
more generous legal test to secular objections than
religious ones.” Id. at 1737 (Gorsuch, J., concurring);
see also id. at 1739 (Gorsuch, J., concurring) (“Only by
adjusting the dials just right—fine-tuning the level of
generality up or down for each case based solely on
the identity of the parties and the substance of their
views—can you engineer the Commission’s outcome,
handing a win to Mr. Jack’s backers but delivering a
loss to Mr. Phillips.”) (emphasis in original).
Although a gerrymander similar to the one
identified by Justice Gorsuch may still exist,
Appellants have only shown a gerrymander favoring
LGBT consumers, as opposed to a gerrymander
disfavoring religious-speakers. Indeed, a “pro-LGBT”
gerrymander is likely inevitable given CADA’s
purpose and its content-based restrictions on speech.
See supra, III.C.1.a. Appellants provide no evidence
that Colorado permits secularly-motivated objections
to serving LGBT consumers. Similarly, Appellants
provide no evidence that Colorado enforces CADA
against religiously-motivated objections that do not
injure the dignitary or material interests of LGBT
consumers. In short, Appellants fail to show that
Colorado “permit[s] secular conduct that undermines

41a
the government’s asserted interests in a similar way.”
Fulton, 141 S. Ct. at 1877 (emphasis added).
The Supreme Court’s recent cases addressing Free
Exercise challenges to COVID-19 restrictions are
instructive. In Tandon v. Newsom, the Court
explained “[c]omparability is concerned with the risks
various activities pose, not the reasons why people
gather.” 141 S. Ct. at 1296 (per curiam). Accordingly,
the Court held that California could not restrict athome religious exercise while permitting secular
activities that posed similar risks of COVID-19
transmission. Id. at 1297. The Court reached a
similar conclusion in Roman Catholic Diocese of
Brooklyn v. Cuomo, holding that New York could not
restrict access to houses of worship while permitting
access to secular facilities with similar safety records
regarding the spread of COVID-19. 141 S. Ct. 63, 66–
67 (2020) (per curiam). Here, however, Appellants
rely on comparators that injure LGBT consumers. For
example, in the Jack cases, non-enforcement was
consistent with Colorado’s pro-LGBT gerrymander.
Because Appellants provide no examples where
Colorado permitted “secular-speakers” to discriminate against LGBT consumers, Appellants fail to
show that Colorado disfavors similarly-situated
“religious-speakers.”8
The Dissent is correct that Colorado “has the burden to
establish that the challenged law satisfies strict scrutiny.”
Dissent at 40 n.15 (quoting Tandon, 141 S. Ct. at 1296 (per
curiam)). But that burden is irrelevant here because strict
scrutiny does not apply to Appellants’ Free Exercise claims. And
it is Appellants’ burden to show, at the very least, a triable issue
of material fact that CADA is not neutral or generallyapplicable. Compare Axson-Flynn v. Johnson, 356 F.3d 1277,
8

42a
Colorado’s recognition of message-based refusals
also does not give rise to a system of “individualized
exemptions.” See Aplts.’ Br. at 49. Message-based
refusals are not an “exemption” from CADA’s requirements; they are a defense. A public accommodation
only violates CADA when it discriminates “because
of” a consumer’s membership in a protected class.
Colo. Rev. Stat. § 24-34-601(2)(a). Ostensibly,
message-based refusals are unrelated to class-status
and fail to satisfy CADA’s causation standard.
Because message-based refusals do not violate CADA
as an initial matter, there is nothing to “exempt” from
the statute. See Exempt, Black’s Law Dictionary
(11th ed. 2019) (“Free or released from a duty or
liability to which others are held.”).
Message-based
refusals
are
also
not
“individualized.” “[A] system of individualized exemptions is one that gives rise to the application of a
subjective test.” Axson-Flynn, 356 F.3d at 1297
(internal quotation omitted). Conversely, an
exemption is not “individualized” simply because it
“contain[s] express exceptions for objectively defined
categories of persons.” Id. at 1298. As we explained in
1299 (10th Cir. 2004) (“Because Axson-Flynn has raised a
genuine issue of material fact as to whether Defendants
maintained a discretionary system of case-by-case exemptions
from curricular requirements, we hold that summary judgment
on her free exercise ‘individualized exemption’ claim was
improper.”), with Grace United Methodist Church v. City of
Cheyenne, 451 F.3d 643, 655 (10th Cir. 2006) (“[I]nconsistent
with the requirements of Axson-Flynn, Grace United has not
pointed to any evidence to support its conclusory allegation that
the City specifically targeted religious groups or the Methodist
denomination in its enforcement of the ordinance in this case.”).

43a
Axson-Flynn, “[w]hile of course it takes some degree
of individualized inquiry to determine whether a
person is eligible for even a strictly defined
exemption, that kind of limited yes-or-no inquiry is
qualitatively different from the kind of case-by-case
system envisioned by the Smith Court in its
discussion of Sherbert and related cases.” Id.
We are satisfied that message-based refusals may
be objectively defined and are not the type of
subjective test that triggers the individualized
exemption exception. We need not decide how CADA’s
causation standard should apply to Appellants’
message-based refusal. See supra, III.B.1. We also
reiterate that, on a more developed record, Appellants
might show that Colorado enforces that standard in a
way that discriminates against religion, violating the
Free Exercise Clause. Yet, whatever issues may be
presented in a future case, it is clear to us that
CADA’s causation standard itself is qualitatively
different from the broad, discretionary analyses
presented in other individualized exemption cases.
See, e.g., Fulton, 141 S. Ct. at 1878 (exemptions
granted in city official’s “sole discretion”); Sherbert,
374 U.S. at 401 n.4 (exemptions granted for “good
cause”); Axson-Flynn, 356 F.3d at 1299 (exemptions
granted through “pattern of ad hoc discretionary
decisions”).
The Dissent’s discussion of the individualized
exemption exception conflates an “individualized
exemption” with “individualized adjudication.” For
example, the Dissent concludes that the individualized exemption exception should apply because
“the entire CADA enforcement mechanism is
structured to make case-by-case determinations.”

44a
Dissent at 36; see also id. at 43 (“By demonstrating
that CADA sets up a case-by-case system for
determining exceptions, Ms. Smith has shown
CADA’s application here must be reviewed with strict
scrutiny with regard to the free exercise claims.”).
Accordingly, CADA does not grant “individualized
exemptions” simply because causation is determined
by the specific facts of each case. Were we to conclude
otherwise, a wide range of criminal statutes would
also become subject to Free Exercise challenges
because courts adjudicate a defendant’s guilt through
“case-by-case determinations.”
Although we hold that the “religious-speakers
policy” identified by Appellants is not an “exemption,”
CADA provides for two exemptions that warrant
closer attention. First, CADA exempts places that are
“principally used for religious purposes” from its
definition of public accommodations. Colo. Rev. Stat.
24-34-601(1). This exemption does not trigger strict
scrutiny. To the extent a “religious-purpose” exemption is individualized, the exemption expressly favors
religious exercise over places used for secular
purposes.9
Indeed, an exemption for places “principally used for
religious purposes” may, in at least some instances, be required
by the First Amendment. Hosanna-Tabor Evangelical Lutheran
Church and School v. EEOC, 565 U.S. 171, 190 (2012)
(recognizing a “ministerial exception” to generally applicable
employment laws). As Justice Alito noted in Fulton, the
ministerial exemption is in “tension” with the Smith standard.
Fulton, 141 S. Ct. 1916 n.77 (Alito, J., concurring). We need not
resolve that tension here. We only note that, under the Supreme
Court’s precedent, CADA remains generally applicable despite
exempting some religious exercise.
9

45a
Second, CADA exempts sex-based discrimination
“if such restriction has a bona fide relationship to the
goods, services, facilities, privileges, advantages, or
accommodations of such place of public accommodation.” Colo. Rev. Stat. § 24-34-601(3). On the
pre-enforcement record before us, Appellants have
not shown the “bona fide relationship” exemption
should trigger strict scrutiny. Like CADA’s causation
standard, a fact-finder may objectively determine
whether a public accommodation’s discriminatory
practice is “related” to the public accommodation’s
goods or services. Whether such a relationship is
“bona fide” seems closer to the type of discretionary
standard subject to the individualized exemption
exception. The statute is silent as to when a
relationship is “bona fide,” and the parties do not
define that term in their briefing. Despite that
ambiguity, however, the term is facially unlike the
“entirely discretionary” exemption addressed in
Fulton. 141 S. Ct. at 1878. Thus, we conclude that the
mere existence of a “bona fide relationship” exemption
does not, on its own, trigger strict scrutiny.
We pause because Colorado’s application of the
“bona fide relationship” exemption may trigger strict
scrutiny on a post-enforcement record. For example,
strict scrutiny would apply if Colorado “refuse[d] to
accept religious reasons for [a bona fide relationship]
on equal footing with secular reasons for [a bona fide
relationship].” Axson-Flynn, 356 F.3d at 1298. And, if
it did so, Colorado must offer a “compelling reason
why it has a particular interest in denying an
exception to [Appellants] while making [it] available
to others.” Fulton, 141 S. Ct. at 1882 (emphasis
added). Thus, a future case may present the closer

46a
questions of whether the “bona fide relationship”
exemption should apply here, or, assuming Colorado
denies such an exemption, whether such denial
violates the Free Exercise Clause. On this preenforcement record, however, Appellants have not
shown the exemption will be applied in an
impermissible manner.
2. Appellants Cannot Assert a Hybrid Rights
Claim
We apply heightened scrutiny to a hybrid-rights
claim where a plaintiff brings a “colorable” companion
claim, i.e., one with a “fair probability or likelihood,
but not a certitude, of success on the merits.” AxsonFlynn, 356 F.3d at 1297. Because Appellants’ other
constitutional claims either fail or were not raised on
appeal, Appellants have no companion claim. Thus,
there is no reason to apply heightened scrutiny under
a hybrid-rights theory. In any event, CADA would
satisfy heightened scrutiny for the same reasons that
it satisfies strict scrutiny, as explained above.

E. Overbreadth and Vagueness
The Communication Clause not only prohibits
statements indicating that goods or services “will be
refused, withheld from, or denied an individual,” but
also prohibits statements indicating “that an
individual’s patronage or presence at a place of public
accommodation
is
unwelcome,
objectionable,
unacceptable, or undesirable because of [protected
status].” Colo. Rev. Stat. § 24-34-601(2)(a). Appellants
challenge this latter restriction, which they term the
“Unwelcome Provision,” as unconstitutionally
overbroad and vague. See Aplts.’ Br. at 57.

47a

1. The

Communication Clause
Unconstitutionally Overbroad

Is

Not

The Unwelcome Provision does not render the
Communication Clause unconstitutionally overbroad,
because the Communication Clause’s “application to
protected speech [is not] substantial . . . relative to the
scope of the law’s plainly legitimate applications.”
Virginia v. Hicks, 539 U.S. 113, 119–20 (2003) (citing
Broadrick v. Oklahoma, 413 U.S. 601, 613, 615
(1973)). Even assuming the Unwelcome Provision,
when read alone, unconstitutionally restricts speech,
the Communication Clause, when read as a whole, is
primarily focused on access to goods and services.
Thus, in a case like the one here, “whatever
overbreadth may exist should be cured through caseby-case analysis of the fact situations to which its
sanctions, assertedly, may not be applied.” Broadrick,
413 U.S. at 615–16. We need not apply the
Unwelcome Provision in this case because Appellants’
Proposed Statement violates the Communication
Clause’s prohibition on statements indicating refusal
of services. See Aplts.’ App. at 2-364 (Proposed
Statement that Appellants “will not be able to create
websites for same-sex marriages or any other
marriage that is not between one man and one
woman”).
The Dissent concludes that the Unwelcome
Provision is overbroad because it would punish
numerous forms of protected speech. In support, the
Dissent identifies several examples where a public
accommodation might violate the Unwelcome
Provision without violating the Communication
Clause’s separate prohibition on statements

48a
indicating refusal of services. See Dissent at 48–49.10
We are unconvinced that the Dissent’s examples are
“substantial . . . relative to the scope of the law’s
plainly legitimate applications.” Hicks, 539 U.S. at
119–20. Aside from this case and Masterpiece
Cakeshop, amici document numerous other cases
where public accommodations communicated, either
directly or indirectly, that a consumer’s presence was
unwelcome and that they would be refused access.
See, e.g., Br. of Law Professors from the States of
Colo., et al., as amicus curiae at 22–24 (describing
examples of discrimination against LGBT people in
Colorado); Br. of Religious and Civil Rights
Organizations as amicus curiae at 24–26 (describing
examples of discrimination against religious
minorities). To be clear, we express no opinion as to
whether the Unwelcome Provision might violate the
First Amendment in other contexts. We merely
conclude that those violations are better addressed on
their own facts, and do not warrant the “strong
medicine” of the overbreadth doctrine. Broadrick, 413
U.S. at 613.
2. The Communication Clause
Unconstitutionally Vague

Is

Not

As a preliminary matter, we question the Dissent’s
conclusion that those examples would, in fact, be “covered by . . .
the Unwelcome Provision.” Dissent at 50. Taking one of the
Dissent’s examples, it is unclear to us whether a store owner’s
sign stating “We honor God and His commandments here”
necessarily “indicates” that an atheist customer is unwelcome.
See id. at 48. Such a sign may cause the customer to subjectively
feel unwelcome, even if the business does not intend any
offensiveness. “Indicates” may have, under CADA, a narrower
definition than the Dissent implies.
10

49a
Appellants’ vagueness challenge also fails because
their Proposed Statement indicates a refusal of
services. Appellants rely on Johnson v. United States,
576 U.S. 591 (2015), where the Supreme Court struck
the Residual Clause of the Armed Career Criminals
Act as void for vagueness. The Supreme Court held
that the Residual Clause was unconstitutionally
vague, even if “some conduct” might clearly be
proscribed. Id. at 602. In doing so, the Court described
the standard for determining whether a statute is, as
a matter of law, unconstitutionally vague—not the
standard for determining when a party may bring a
vagueness challenge. Accordingly, the district court in
this case correctly relied on Expressions Hair Design
v. Schneiderman, a case decided after Johnson, in
which the Supreme Court reaffirmed that “a plaintiff
whose speech is clearly proscribed cannot raise a
successful vagueness claim.” 137 S. Ct. 1144, 1151–52
(2017) (quoting Holder v. Humanitarian Law Project,
561 U.S. 1, 20 (2010)); see also Humanitarian Law
Project, 561 U.S. at 21 (“Of course, the scope of the
material-support statute may not be clear in every
application. But the dispositive point here is that the
statutory terms are clear in their application to
plaintiffs’ proposed conduct, which means that
plaintiffs’ vagueness challenge must fail.”). Because
the Proposed Statement is clearly proscribed by the
Communication Clause’s prohibition on statements
indicating refusal of services, Appellants cannot
separately challenge the Unwelcome Provision as
unconstitutionally vague.11

The Dissent’s vagueness analysis suffers the same defects
as its overbreadth analysis. What makes a consumer “feel”
11

50a
IV.

Conclusion

We agree with the Dissent that “the protection of
minority viewpoints is not only essential to protecting
speech and self-governance but also a good in and of
itself.” Dissent at 12. Yet, we must also consider the
grave harms caused when public accommodations
discriminate on the basis of race, religion, sex, or
sexual orientation. Combatting such discrimination
is, like individual autonomy, “essential” to our
democratic ideals. And we agree with the Dissent that
a diversity of faiths and religious exercise, including
Appellants’, “enriches” our society. Dissent at 44. Yet,
a faith that enriches society in one way might also
damage society in other, particularly when that faith
would exclude others from unique goods or services.
In short, Appellants’ Free Speech and Free Exercise
rights are, of course compelling. But so too is
Colorado’s interest in protecting its citizens from the
harms of discrimination. And Colorado cannot defend
that interest while also excepting Appellants from
CADA.
For these reasons, we AFFIRM the district court’s
grant of summary judgment in favor of Colorado.

unwelcome may be unduly vague. Yet, CADA only proscribes
communications that “indicate” a consumer is unwelcome.
Whether a communication indicates as such may entail a more
objective standard than the Dissent implies. And, in any event,
the Dissent never explains why Appellants may bring a
vagueness claim when their Proposed Statement clearly
indicates a refusal of services.

51a
19-1413, 303 Creative v. Elenis, Tymkovich,
Chief Judge, dissenting.
If liberty means anything at all, it means the right to
tell people what they do not want to hear.
– George Orwell
No one denies Lorie Smith’s sincere religious
beliefs, good faith, and her willingness to serve clients
regardless of race, creed, ethnicity, or sexual
orientation. But what she will not do is compromise
her beliefs and produce a message at odds with them.
The Constitution neither forces Ms. Smith to
compromise her beliefs nor condones the government
doing so. In fact, this case illustrates exactly why we
have a First Amendment. Properly applied, the
Constitution protects Ms. Smith from the government
telling her what to say or do.
But the majority takes the remarkable—and
novel—stance that the government may force Ms.
Smith to produce messages that violate her
conscience. In doing so, the majority concludes not
only that Colorado has a compelling interest in forcing
Ms. Smith to speak a government-approved message
against her religious beliefs, but also that its publicaccommodation law is the least restrictive means of
accomplishing this goal. No case has ever gone so far.
Though I am loathe to reference Orwell, the majority’s
opinion endorses substantial government interference in matters of speech, religion, and conscience.
Indeed, this case represents another chapter in the
growing disconnect between the Constitution’s
endorsement of pluralism of belief on the one hand
and anti-discrimination laws’ restrictions of religiousbased speech in the marketplace on the other. It

52a
seems we have moved from “live and let live” to “you
can’t say that.” While everyone supports robust and
vigorously enforced anti-discrimination laws, those
laws need not and should not force a citizen to make
a Hobson’s choice over matters of conscience.
Colorado is rightfully interested in protecting certain
classes of persons from arbitrary and discriminatory
treatment. But what Colorado cannot do is turn the
tables on Ms. Smith and single out her speech and
religious beliefs for discriminatory treatment under
the aegis of anti-discrimination laws.
The Constitution is a shield against CADA’s
discriminatory treatment of Ms. Smith’s sincerely
held religious beliefs. The First Amendment prohibits
states from “abridging the freedom of speech” or the
“free exercise” of religion. U.S. Const. amend. I. And
the freedom to speak necessarily guarantees the right
to remain silent. So the majority ushers forth a brave
new world when it acknowledges that CADA compels
both speech and silence—yet finds this intrusion
constitutionally permissible. CADA forces Ms. Smith
to violate her faith on pain of sanction both by
prohibiting religious-based business practices and by
penalizing her if she does speak out on these matters
in
ways
Colorado
finds
“unwelcome”
or
1
“undesirable.”
The Colorado Anti-Discrimination Act provides that, for
places of public accommodation:
1

It is a discriminatory practice and unlawful for a
person, directly or indirectly, to refuse, withhold
from, or deny to an individual or a group,
because of disability, race, creed, color, sex,
sexual orientation, gender identity, gender
expression, marital status, national origin, or

53a
I agree with the majority that Ms. Smith has
standing to bring her claims and that the case is ripe.
But because I cannot agree that Colorado may force
Ms. Smith to create messages or stay silent contrary
to her beliefs, I respectfully dissent.

I. Free Speech
It is important to understand from the outset that
Ms. Smith and Colorado agree that she will serve
anyone, regardless of protected class status. In the
district court, both she and Colorado stipulated that:
(1) Ms. Smith is “willing to work with all people
regardless of classifications such as race, creed,
sexual orientation and gender”; and (2) Ms. Smith
ancestry, the full and equal enjoyment of the
goods, services, facilities, privileges, advantages,
or accommodations of a place of public accommodation or, directly or indirectly, to publish,
circulate, issue, display, post, or mail any
written, electronic, or printed communication,
notice, or advertisement that indicates that the
full and equal enjoyment of the goods, services,
facilities, privileges, advantages, or accommodations of a place of public accommodation
will be refused, withheld from, or denied an
individual or that an individual’s patronage or
presence at a place of public accommodation is
unwelcome, objectionable, unacceptable, or
undesirable because of disability, race, creed,
color, sex, sexual orientation, gender identity,
gender expression, marital status, national
origin, or ancestry.
Colo. Rev. Stat. § 24-34-601, as amended by H.B. 21-1108
(enacted May 20, 2021). CADA was amended in May 2021 to add
“gender identity” and “gender expression” as protected class
characteristics.

54a
does “not object to and will gladly create custom
graphics and websites for gay, lesbian, or bisexual
clients or for organizations run by gay, lesbian, or
bisexual persons so long as the custom graphics and
websites do not violate [her] religious beliefs, as is
true for all customers.” Aplt. App. 2-322. Ms. Smith
and Colorado also agree that she “will decline any
request to design, create, or promote content that:
contradicts biblical truth; demeans or disparages
others; promotes sexual immorality; supports the
destruction of unborn children; incites violence; or
promotes any conception of marriage other than
marriage between one man and one woman.” Id. at 2323. And counsel for Ms. Smith confirmed at oral
argument that she would represent clients regardless
of sexual orientation in creating websites that
celebrate opposite-sex weddings.
In short, Colorado appears to agree that Ms. Smith
does not distinguish between customers based on
protected-class status and thus advances the aims of
CADA.
But when any customer asks Ms. Smith to create
expressive content that violates her sincerely held
beliefs, she will decline the request.2 Colorado claims
to endorse this type of message-based refusal,
asserting that “the Commission does not interpret
At oral argument, the following hypothetical was posed of
Ms. Smith’s counsel: imagine a heterosexual wedding planner
approached Ms. Smith, asking her to design five mock-up
wedding websites for the wedding planner to attract potential
customers—four for opposite-sex weddings and one for a samesex wedding. Ms. Smith’s counsel confirmed that she would not
make a same-sex wedding website for a heterosexual client.
2

55a
[CADA] to require any business owner, regardless of
religious beliefs, to produce a message it would
decline to produce for any customer.” Appellee Br. at
62. Yet Colorado and the majority argue that Ms.
Smith must do exactly this: create expressive content
celebrating same-sex weddings as long as she will
create expressive content celebrating opposite-sex
weddings. This is paradigmatic compelled speech.

A. Compelled Speech Provisions Are Subject
to Strict Scrutiny
Government-compelled speech is antithetical to
the First Amendment. Forcing an individual “to be an
instrument for fostering public adherence to an
ideological point of view he finds unacceptable . . . .
‘invades the sphere of intellect and spirit which it is
the purpose of the First Amendment to our
Constitution to reserve from all official control.’”
Wooley v. Maynard, 430 U.S. 705, 715 (1977) (quoting
W. Va. State Bd. of Educ. v. Barnette, 319 U.S. 624,
642 (1943)). Thus, the government cannot—for
example—coerce affirmations of belief, compel
unwanted expression, or force one speaker to host the
message of another as a public accommodation. See
Barnette, 319 U.S. at 633–34; Wooley, 430 U.S. at 714;
Hurley v. Irish-Am. Gay, Lesbian & Bisexual Grp. of
Bos., 515 U.S. 557, 573 (1995).
The compelled speech doctrine was first
articulated in 1943 in Justice Jackson’s opinion in
Barnette. In that case, Jehovah’s Witness parents and
schoolchildren sought to enjoin the enforcement of
compulsory flag-salute laws, as the required salute
and accompanying pledge of allegiance violated their
religious beliefs. Justice Jackson concluded that the

56a
First Amendment protected the schoolchildren’s right
to free speech, noting that “[t]o sustain the
compulsory flag salute we are required to say that a
Bill of Rights which guards the individual’s right to
speak his own mind, left it open to public authorities
to compel him to utter what is not in his mind.”
Barnette, 319 U.S. at 634. Written against the
backdrop of World War II, the opinion cautioned
against the “[c]ompulsory unification of opinion” of
the like sought by the “fast failing efforts of our
present totalitarian enemies.” Id. at 641. “[T]he First
Amendment to our Constitution was designed to
avoid these ends by avoiding these beginnings”—
namely, by preventing the government from coercing
speech in the first instance. Id.
Over three decades later, the Court again
confirmed that the government cannot compel an
unwilling individual to speak or even passively
display the government’s ideological message, no
matter its popularity. In 1977, the Wooley Court
struck down New Hampshire regulations requiring
the display of the state’s “Live Free or Die” motto on
license plates. Wooley, 430 U.S. at 714. The motto’s
wide acceptance was irrelevant because the “First
Amendment protects the right of individuals to hold a
point of view different from the majority and to refuse
to foster . . . an idea they find morally objectionable.”
Id. at 717. Wooley also expanded Barnette’s logic: just
as the government cannot coerce affirmations of
belief, it also cannot require an individual to be a
“courier for [the State’s] message,” even when that
message does not otherwise interfere with the
individual’s own speech. Id.

57a
Nor can the government require a speaker to be a
courier for another citizen’s message. In Hurley, the
Court unanimously held as unconstitutional the
application of the Massachusetts public-accommodations statute to the organizers of Boston’s St. Patrick’s
Day Parade. Hurley, 515 U.S. at 572–73. Forcing the
organizers of the parade—which itself is protected
expression—to allow the participation of the IrishAmerican Gay, Lesbian & Bisexual Group “had the
effect of declaring the sponsors’ speech itself to be the
public accommodation.” Id. at 573. “[T]his use of the
State’s power violates the fundamental rule of
protection under the First Amendment, that a
speaker has the autonomy to choose the content of his
own message.” Id. Organizing the parade and
selecting participants was expressive, so applying the
public-accommodations law to force the organizers to
include unwanted speech was an impermissible
intrusion on the freedom to create that expression.
See id. at 576 (“[W]hen dissemination of a view
contrary to one’s own is forced upon a speaker
intimately connected with the communication
advanced, the speaker’s right to autonomy over the
message is compromised.”). Indeed, “[w]hile the law is
free to promote all sorts of conduct in place of harmful
behavior, it is not free to interfere with speech for no
better reason than promoting an approved message or
discouraging a disfavored one, however enlightened
either purpose may strike the government.” Hurley,
515 U.S. at 579.
And the autonomy to speak necessarily includes
the freedom to remain silent. Because “‘all speech
inherently involves choices of what to say and what to
leave unsaid,’ . . . one important manifestation of the

58a
principle of free speech is that one who chooses to
speak may also decide ‘what not to say.’” Id. at 573
(quoting Pac. Gas & Elec. Co. v. Pub. Utilities Comm’n
of Cal., 475 U.S. 1, 11, 19 (1986)) (emphasis in
original). The Supreme Court has “held time and
again that freedom of speech includes both the right
to speak freely and the right to refrain from speaking
at all.” Janus v. Am. Fed’n of State, Cty., & Mun.
Employees, Council 31, 138 S. Ct. 2448, 2463 (2018)
(internal quotation marks omitted). As the Hurley
Court held, “the choice of a speaker not to propound a
particular point of view . . . is presumed to lie beyond
the government’s power to control.” Hurley, 515 U.S.
at 575. The rule that a “speaker has the right to tailor
. . . speech[ ] applies not only to expressions of value,
opinion, or endorsement, but equally to statements of
fact the speaker would rather avoid.” Id. at 573; see
also Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights
Comm’n, 138 S. Ct. 1719, 1745 (2018) (Gorsuch, J.,
concurring) (“Because the government cannot compel
speech, it also cannot ‘require speakers to affirm in
one breath that which they deny in the next.’”
(quoting Pac. Gas & Elec. Co., 475 U.S. at 16)).
Key to the Hurley decision was the expressive
nature of a parade. This crucial point distinguishes it
from the Court’s decision compelling college campuses
to allow military recruiters in Rumsfeld v. Forum for
Academic & Institutional Rights, Inc., 547 U.S. 47, 61
(2006). The Solomon Amendment, challenged in that
case, required law schools to afford military recruiters
access to campus facilities for interviews and
promotional events, including access to school
scheduling emails and announcements. Id. at 60. But
the law schools were already providing these services

59a
to other speakers, and the notification emails and
posted notices were not considered the law schools’
expressive speech. Id. at 61–63. The law schools’
actions in sending out such notices were not “affected
by the speech it was forced to accommodate” because
the emails did not constitute expressive conduct. Id.
at 63–64; see also id. at 64 (“Unlike a parade
organizer’s choice of parade contingents, a law
school’s decision to allow recruiters on campus is not
inherently expressive.”). This is why, in Hurley, the
Massachusetts public-accommodation law had “been
applied in a peculiar way”: it had made expressive
speech the public accommodation and thereby
changed its message. Hurley, 515 U.S. at 572.
Nothing about the access afforded by the Solomon
Amendment, in contrast, compromised the law
schools’ expressive beliefs.
In more recent cases, the Supreme Court has
confirmed the First Amendment’s antipathy toward
government-compelled speech. The government may
no more “prohibit the dissemination of ideas that it
disfavors” than it can “compel the endorsement of
ideas that it approves.” Knox v. Serv. Emps. Int’l
Union, Local 1000, 567 U.S. 298, 309 (2012). A state
cannot compel pregnancy crisis centers—many of
which are pro-life—to inform patients about the
availability of abortions because it “alter[s] the
content of their speech.” Nat’l Inst. of Family & Life
Advocates v. Becerra (NIFLA), 138 S. Ct. 2361, 2371
(2018) (quoting Riley v. Nat’l Fed’n of the Blind of
N.C., Inc., 487 U.S. 781, 795 (1988)) (alterations
incorporated); see also NIFLA, 138 S. Ct. at 2379
(Kennedy, J., concurring) (“This law is a paradigmatic
example of the serious threat presented when

60a
government seeks to impose its own message in the
place of individual speech, thought, and expression.”).
Nor can a state force individuals to pay dues to
subsidize a private organization’s speech. Janus, 138
S. Ct. at 2464. And—until now—our own precedent
has similarly taken a deeply skeptical approach to
compelled speech. See Axson-Flynn v. Johnson, 356
F.3d 1277, 1283 (10th Cir. 2004) (finding a genuine
dispute of material fact as to whether university’s
compulsion of theater student’s speech was
pretextual); Cressman v. Thompson, 798 F.3d 938,
951 (10th Cir. 2015) (discussing the long prohibition
on compelled speech); Phelan v. Laramie Cty. Cmty.
Coll. Bd. of Trustees, 235 F.3d 1243, 1247 (10th Cir.
2000) (noting that, in government-speech contexts,
the “crucial question is whether, in speaking, the
government is compelling others to espouse or to
suppress certain ideas and beliefs”); Semple v.
Griswold, 934 F.3d 1134, 1143 (10th Cir. 2019)
(concluding that a Colorado state amendment raising
standards for citizen ballot initiatives did not compel
speech by requiring interactions with voters in all
state senate districts).
Accordingly, compelled speech is deeply suspect in
our jurisprudence—and rightly so, given the unique
harms it presents. For one, the ability to choose what
to say or not to say is central to a free and selfgoverning polity. As Justice Alito wrote in Janus:
When speech is compelled, . . . additional
damage is done. In that situation,
individuals are coerced into betraying
their convictions. Forcing free and
independent individuals to endorse
ideas they find objectionable is always

61a
demeaning, and for this reason, . . . a law
commanding “involuntary affirmation”
of objected-to beliefs would require “even
more immediate and urgent grounds”
than a law demanding silence.
Id. (quoting Barnette, 319 U.S. at 634). The
“[c]ompulsory unification of opinion” cautioned by
Justice Jackson in Barnette is not only a social harm
but a personal one. 319 U.S. at 641. The choice of what
to say has value, regardless of what is said or not said;
narrowing the field of permissible expression
diminishes autonomy and free will.
Moreover, the government’s ability to compel
speech and silence would make hollow the promise of
other First Amendment freedoms. Freedom of
association means little without the ability to express
the bonds of connection, see Boy Scouts of Am. v. Dale,
530 U.S. 640, 655–56 (2000), and the freedom to
petition for redress of grievances is valueless unless
one is protected from retribution for that speech. The
freedom of the press is essentially coextensive with—
and reliant on—the freedom of speech. See, e.g.,
Branzburg v. Hayes, 408 U.S. 665, 708 (1972). And the
freedom to exercise one’s religion necessitates the
ability to speak, engage in expressive conduct, and
conscientiously refuse to speak, in order to have
meaningful protection at all. See, e.g., NIFLA, 138 S.
Ct. at 2379 (“Freedom of speech secures freedom of
thought and belief.”) (Kennedy, J., concurring).
It is axiomatic that freedom of speech properly
keeps the power of the government in check and
preserves democratic self-government. See, e.g.,
Thornhill v. State of Alabama, 310 U.S. 88, 95 (1940)

62a
(“The safeguarding of these rights to the ends that
men may speak as they think on matters vital to them
and that falsehoods may be exposed through the
processes of education and discussion is essential to
free government.”). This is why, of course, electoral
speech is essential to a free and functioning republic.
Citizens United v. Fed. Election Comm’n, 558 U.S.
310, 339 (2010) (“Speech is an essential mechanism of
democracy, for it is the means to hold officials
accountable to the people.”). Stifling minority speech
is the prototypical “slippery slope” toward
authoritarianism, recognized in the first of the
compelled speech cases: “As first and moderate
methods to attain unity have failed, those bent on its
accomplishment must resort to an ever-increasing
severity.” Barnette, 319 U.S. at 640. To paraphrase
Orwell, liberty must mean the right to tell others—
especially the government—what it does not want to
hear.
Furthermore, the protection of minority
viewpoints is not only essential to protecting speech
and self-governance but also a good in and of itself.
See, e.g., Wooley, 430 U.S. at 715 (“The First
Amendment protects the right of individuals to hold a
point of view different from the majority and to refuse
to foster, in the way New Hampshire commands, an
idea they find morally objectionable.”); Texas v.
Johnson, 491 U.S. 397, 414 (1989) (“If there is a
bedrock principle underlying the First Amendment, it
is that the government may not prohibit the
expression of an idea simply because society finds the
idea itself offensive or disagreeable.”). Indeed, the
“point of all speech protection, . . . is to shield just
those choices of content that in someone’s eyes are

63a
misguided, or even hurtful.” Hurley, 515 U.S. at 574.
The lack of minority viewpoints would impoverish the
richness of conversation and impede the search for
truth contemplated by the First Amendment. See,
e.g., Thornhill, 310 U.S. at 95 (“Those who won our
independence had confidence in the power of free and
fearless reasoning and communication of ideas to
discover and spread political and economic truth.”).
Because of its existential threat to the most sacred
freedoms, we are tasked with reviewing instances of
compelled expressive speech with the utmost
skepticism. The majority’s endorsement of compelled
speech directed at Ms. Smith turns away from these
foundational principles.

B. CADA Compels Expressive Speech
The Supreme Court’s repeated, emphatic
disapprobation of compelled expressive speech leaves
little room for other conclusions. So it is all the more
troubling when, in a case where the parties have
stipulated that Ms. Smith’s work is expressive
speech—“[the] custom wedding websites will be
expressive in nature”—the majority decides that its
compulsion is constitutional.3
Ms. Smith and Colorado stipulated that her “custom
wedding websites will be expressive in nature, using text,
graphics, and in some cases videos to celebrate and promote the
couple’s wedding and unique love story.” Aplt. App. at 2-325. The
parties also agree that “[a]ll of these expressive elements will be
customized and tailored to the individual couple and their
unique love story.” Id. And the parties stipulate that “[v]iewers
of the wedding websites will know that the websites are
Plaintiffs’ original artwork because all of the wedding websites
will say ‘Designed by 303Creative.com.’” Id.
3

64a
Creating custom wedding websites is not merely
conduct, or even expressive conduct. Ms. Smith’s
wedding websites as a whole—and the “text, graphics,
and . . . videos” that comprise them—are pure speech.
See Kaplan v. California, 413 U.S. 115, 119–20 (1973)
(pure speech includes the printed word, oral
utterances, pictures, films, paintings, drawings, and
engravings); Brown v. Ent. Merchants Ass’n, 564 U.S.
786, 790 (2011) (holding that books, plays, movies,
and video games all communicate ideas, which
“suffices to confer First Amendment protection”);
Cressman, 798 F.3d at 953 (noting that “an artist’s
sale of his own original work is pure speech”). This is
because the websites are greater than the sum of their
parts: each custom website conveys Ms. Smith’s
message or interpretation of celebration of the
couple’s union. See Cressman, 798 F.3d at 952–53
(emphasizing that the “animating principle behind
pure-speech protection” is “safeguarding selfexpression”). The parties agree on this point,
stipulating that “[b]y creating wedding websites, Ms.
Smith and 303 Creative will collaborate with
prospective brides and grooms in order to use their
unique stories as source material to express Ms.
Smith’s and 303 Creative’s message celebrating and
promoting God’s design for marriage as the lifelong
union of one man and one woman.” Aplt. App. at 2325.
The fact that Ms. Smith sells her custom website
designs does not reduce their value as speech. “It is
well settled that a speaker’s rights are not lost merely
because compensation is received; a speaker is no less
a speaker because he or she is paid to speak.” Riley,
487 U.S. at 801. The creative confluence of the text

65a
and graphics in these original, individualized
websites produce expression—which deserves the
highest protection under the First Amendment.4
If anything, this is an easier case than those
involving wedding cakes, see Masterpiece, 138 S. Ct.
at 1723, wedding photographs, see Chelsey Nelson
Photography LLC v. Louisville/Jefferson Cty. Metro
Gov’t, No. 3:19-CV-851-JRW, 2020 WL 4745771, at
*10 (W.D. Ky. Aug. 14, 2020), Updegrove v. Herring,
No. 1:20-CV-1141, 2021 WL 1206805, at *1 (E.D. Va.
Mar. 30, 2021), and Elane Photography, LLC v.
Willock, 309 P.3d 53, 59 (N.M. 2013), wedding videos,
see Telescope Media Grp. v. Lucero, 936 F.3d 740, 750
(8th Cir. 2019), wedding floral arrangements, see
State v. Arlene’s Flowers, Inc., 441 P.3d 1203, 1225
Ms. Smith’s custom websites are not commercial speech—or
even expressive commercial speech. The Supreme Court has
recognized that while advertising, for example, is purely
commercial speech, see Zauderer v. Office of Disciplinary
Counsel of Supreme Court of Ohio, 471 U.S. 626, 637 (1985),
expressive art—including art created in exchange for money—is
afforded First Amendment protection. See, e.g., Se. Promotions,
Ltd. v. Conrad, 420 U.S. 546, 557–58 (1975) (theater production);
Hurley, 515 U.S. at 569 (paintings, music, poetry, expressive
parades); Kaplan, 413 U.S. at 119–20 (pure speech includes the
printed word, oral utterances, pictures, films, paintings,
drawings, and engravings). Jackson Pollock sold his paintings,
Leonard Bernstein profited from his compositions, and Lewis
Carroll published his works to sell—but their creations are
“unquestionably shielded.” Hurley, 515 U.S. at 569. Indeed, to
hold that pure speech for sale is not deserving of First
Amendment protection would be the exception that swallows the
rule. Nearly all art and expressive speech has a commercial
aspect in its creation because artists’ and speakers’ livelihoods
often depend on its sale. But a paid speaker is still a speaker.
See Riley, 487 U.S. at 801.
4

66a
(Wash. 2019), cert. denied, (U.S. July 2, 2021) (No. 19333), or even custom wedding invitations, see Brush
& Nib Studio, LC v. City of Phoenix, 448 P.3d 890, 908
(Ariz. 2019). It is obvious to even the most casual
viewer that Ms. Smith is creating a customized art
product—which incorporates unique, expressive
speech—for her customers.

Fig. 1 – A prototype of a wedding website page design
by Ms. Smith.
Yet the majority does not afford Ms. Smith’s pure
speech any protection, endorsing CADA’s compulsion
of both speech and silence. If Ms. Smith creates
wedding websites for opposite-sex couples, CADA
compels her to create wedding websites for same-sex
couples. She does not, for example, pre-design t-shirts
and set a stack of them on a shelf, available to be

67a
picked up by any customer who walks in the store. (If
that were the case, CADA’s application would be
uncontroversial: Ms. Smith would be required to
serve every customer wanting to buy the pre-designed
t-shirt, regardless of protected class status.) Instead,
Ms. Smith’s wedding websites will be custom-made,
conveying both the couple’s message about their
wedding and Ms. Smith’s own beliefs about and
interpretation of marriage. So the majority recognizes
that CADA forces artists to create individualized,
expressive artwork that conveys a message betraying
their beliefs—yet finds this constitutionally
permissible.5
This departs from the explanation of a case
substantially similar to this one, Telescope Media. See
936 F.3d at 750. There, the Eighth Circuit recognized
that wedding videographers made videos that, “[b]y
design, . . . serve as a medium for the communication
of ideas about marriage” and are thus “a form of
speech that is entitled to First Amendment
As long as a public-accommodation law is applied neutrally
and not to expression, it is a commendable—and constitutional—
effort by a state to eliminate discriminatory treatment of
protected classes. See Hurley, 515 U.S. at 572 (“Provisions like
these are well within the State’s usual power to enact when a
legislature has reason to believe that a given group is the target
of discrimination, and they do not, as a general matter, violate
the First or Fourteenth Amendments.”); Masterpiece, 138 S. Ct.
at 1728 (“It is unexceptional that Colorado law can protect gay
persons, just as it can protect other classes of individuals, in
acquiring whatever products and services they choose on the
same terms and conditions as are offered to other members of
the public. And there are no doubt innumerable goods and
services that no one could argue implicate the First
Amendment.”).
5

68a
protection.” Id. at 750–51 (internal quotation marks
omitted). Indeed, the Eighth Circuit acknowledged,
“once conduct crosses over to speech or other
expression, the government’s ability to regulate it is
limited.” Id. at 755. Because the publicaccommodation law thus required the videographers
“to speak favorably about same-sex marriage if they
choose to speak favorably about opposite-sex
marriage,” it impermissibly compelled speech. Id. at
752. And the Arizona Supreme Court came to a
similar conclusion about custom wedding invitations.
See Brush & Nib Studio, 448 P.3d at 914–15 (holding
that Arizona’s public-accommodations law had
compelled the pure speech of the custom wedding
invitation designers). Another federal court agreed
with regard to wedding photography. See Chelsey
Nelson Photography, 2020 WL 4745771, at *10; but
see Elane Photography, 309 P.3d at 59 (holding New
Mexico’s public-accommodations law did not compel
speech when enforced against wedding photographer
who refused to photograph same-sex weddings).
The majority instead concludes that Ms. Smith
must either agree to propound messages accepting
and celebrating same-sex marriage contrary to her
deeply held principles or face financial penalties and
remedial training under CADA.6 This is not a
These penalties include fines between $50 and $500 for
each violation, compulsory mediation, orders to comply with
CADA, and requirements that the charged party take other
remedial actions, including required training, reports, and
posting notices “setting forth the substantive rights of the
public.” Colo. Rev. Stat. §§ 24-34-602(1)(a), 24-34-306, 24-34-605.
But I doubt any amount of training or struggle session would
make Ms. Smith amenable to violating her conscience.
6

69a
meaningful choice—nor is it one Colorado can or
should force her to make. See Hurley, 515 U.S. at 573
(recognizing the rule that the government “may not
compel affirmance of a belief with which the speaker
disagrees”).
This is the central lesson of Hurley. A state may
not regulate speech itself as a public accommodation
under anti-discrimination laws. But CADA does so
here, making Ms. Smith’s artistic talents the vehicle
for a message anathema to her beliefs. The expansive
view Colorado takes of CADA’s reach would not stop
with Ms. Smith’s wedding websites. Indeed, the

State could wield CADA as a sword, forcing an
unwilling Muslim movie director to make a film
with a Zionist message or requiring an atheist
muralist to accept a commission celebrating
Evangelical zeal. After all, the Muslim director
would make films and the atheist muralist would
paint murals for the general public with other
messages. And that, Colorado contends, is all that
is required to force them to accommodate a
customer’s request if it relates to the customer’s
protected class status:
[CADA] requires commercial actors to
offer specific goods and services to
customers regardless of protected class
status only ‘if, and to the extent[,]’ the
merchant willingly provides those goods
and services to the general public. . . .
That those goods and services may
involve the vendor’s creative or expressive
skill does not change this analysis.

70a
Appellee Br. at 46 (emphasis added). The majority
agrees, declaring that “unique goods and services are
where public accommodation laws are most necessary
to ensuring equal access.” Maj. Op. at 31. It appears
that the path to “coercive elimination of dissent” is
steep—and short. Barnette, 319 U.S. at 641.
Moreover, CADA compels silence. Ms. Smith
would like to post on her website an honest, straightforward message about why she will only make
wedding websites for weddings involving one man
and one woman.7 Endorsing same-sex marriage is a
7

Ms. Smith’s intended statement reads in full:
I love weddings.
Each wedding is a story in itself, the story of a couple
and their special love for each other.
I have the privilege of telling the story of your love and
commitment by designing a stunning website that
promotes your special day and communicates a unique
story about your wedding – from the tale of the
engagement, to the excitement of the wedding day, to the
beautiful life you are building together.
I firmly believe that God is calling me to this work. Why?
I am personally convicted that He wants me – during
these uncertain times for those who believe in biblical
marriage – to shine His light and not stay silent. He is
calling me to stand up for my faith, to explain His true
story about marriage, and to use the talents and
business He gave me to publicly proclaim and celebrate
His design for marriage as a life-long union between one
man and one woman.
These same religious convictions that motivate me also
prevent me from creating websites promoting and
celebrating ideas or messages that violate my beliefs. So
I will not be able to create websites for same-sex
marriages or any other marriage that is not between one

71a
message Ms. Smith will not create for any client. But
CADA prevents her from informing clients of this.
The State of Colorado can—and will, given its
arguments throughout this litigation and given its
past actions—penalize her. See, e.g., Masterpiece, 138
S. Ct. 1719, 1726 (2018) (discussing the penalties
imposed on Masterpiece Cakeshop by the
Commission); Masterpiece Cakeshop Inc. v. Elenis
(Masterpiece II), No.1:18-cv-02074-WYD-STV (D.
Colo. Jan. 4, 2019), ECF No. 94 (order on suit
regarding Colorado’s second enforcement action
brought against Masterpiece Cakeshop for refusing to
make a birthday cake celebrating a sex-change). This
reality forces Ms. Smith to stay silent about her
convictions.

Fig. 2 – The statement Ms. Smith wishes to publish on
her business’s website.

man and one woman. Doing that would compromise my
Christian witness and tell a story about marriage that
contradicts God’s true story of marriage – the very story
He is calling me to promote.
Aplt. App. at 1-110.

72a
Nor is Ms. Smith’s statement intended to be
derogatory or malicious. She forthrightly states her
firm conviction—grounded in her Christian faith—
that conscience requires her to create wedding
websites only for marriages between one man and one
woman. Doing otherwise, she states, would
“compromise [her] Christian witness.” Aplt. App. at 2326.
Ms. Smith, like some other businesses that
espouse religious sentiments, is simply informing the
public that she operates her business in accordance
with her faith. And as an artist, she will not create
commissioned messages contrary to her beliefs. Her
business is firmly nondiscriminatory. Her policy
applies to all clients: as Ms. Smith’s counsel explained
at oral argument, she would not create a same-sex
wedding website—even a prototype for a non-existent
couple—for anyone, regardless of sexual orientation.
Her statement simply informs potential clientele of
the constraints of her faith, and the First Amendment
protects Ms. Smith’s right to do so.

C. ContentRestriction

and

Viewpoint-Based

Like laws that compel speech, laws that restrict
speech based on content or viewpoint are also highly
suspect. As applied to Ms. Smith, CADA does both.
A law is content-based if it “applies to particular
speech because of the topic discussed or the idea or
message expressed.” Reed v. Town of Gilbert, Ariz.,
576 U.S. 155, 163 (2015); see also R.A.V. v. City of St.
Paul, Minn., 505 U.S. 377, 395 (1992). This “requires
a court to consider whether a regulation of speech ‘on
its face’ draws distinctions based on the message a

73a
speaker conveys.” Reed, 576 U.S. at 163 (quoting
Sorrell v. IMS Health Inc., 564 U.S. 552, 566 (2011));
see also Aptive Env’t., LLC v. Town of Castle Rock,
Colo., 959 F.3d 961, 981–83 (10th Cir. 2020) (treating
an ordinance that facially distinguished between
commercial solicitation and other types of solicitation
as content-based). Of course, “[s]ome facial distinctions based on a message are obvious, defining
regulated speech by particular subject matter, and
others are more subtle, defining regulated speech by
its function or purpose.” Id. But “[b]oth are
distinctions drawn based on the message a speaker
conveys, and, therefore, are subject to strict scrutiny.”
Id. at 163–64. Also subject to strict scrutiny are laws
that are facially content-neutral but that “cannot be
‘justified without reference to the content of the
regulated speech,’ or that were adopted by the
government ‘because of disagreement with the
message the speech conveys.’” Id. at 164 (quoting
Ward v. Rock Against Racism, 491 U.S. 781, 791
(1989)) (alterations incorporated). All of these types of
content-based regulations—which “target speech
based on its communicative content—are presumptively unconstitutional and may be justified only if the
government proves that they are narrowly tailored to
serve compelling state interests.” Reed, 576 U.S. at
163.
Furthermore, a law that discriminates based on
viewpoint is an even more “blatant” violation of the
First Amendment. Rosenberger v. Rector & Visitors of
Univ. of Virginia, 515 U.S. 819, 829 (1995). Because
the government is regulating “speech based on ‘the
specific motivating ideology or the opinion or
perspective of the speaker,’” it is a more “egregious

74a
form of content discrimination.” Reed, 576 U.S. at 168
(quoting Rosenberger, 515 U.S. at 829). Consequently,
the “government must abstain from regulating speech
when the specific motivating ideology or the opinion
or perspective of the speaker is the rationale for the
restriction.” Rosenberger, 515 U.S. at 829. The First
Amendment thus “forbid[s] the State to exercise
viewpoint discrimination,” and such a regulation
must undergo the strictest scrutiny. Id.
As the majority recognizes, CADA is indisputably
a content- and viewpoint-based regulation. The
“crucial first step in the content-neutrality analysis
[is] determining whether the law is content neutral on
its face.” Reed, 576 U.S. at 165. Take, for example, the
provision that requires an arbiter to—at the very
least—read a challenged “communication, . . . notice,
or advertisement” to determine whether it “indicates
that the full and equal enjoyment” of the public
accommodation “will be refused, withheld from, or
denied an individual.” Colo. Rev. Stat. § 24-34601(2)(a). The permissibility of the communication
depends on what it says—or, stated simply, its
content.
Similarly, determining whether a person has been
denied accommodation because of a protected class
status requires, of course, an inquiry into the
motivation behind the denial. (This is, in large part,
why the Commission exists.) Because the content of
the message determines the applicability of the
statute and the viewpoint of the speaker determines
the legality of the message, CADA is both contentand viewpoint-based. But both point to the same
conclusion: “A law that is content-based on its face is
subject to strict scrutiny regardless of the govern-

75a
ment’s benign motive, content-neutral justification, or
lack of animus toward the ideas contained in the
regulated speech.” Reed, 576 U.S. at 165 (internal
quotation marks omitted).
* * *
Whether CADA compels speech or regulates
speech based on its content or discriminates against
speech based on its viewpoint—or all three—one
thing is clear, as the majority concedes: CADA must
undergo strict scrutiny. Under a proper application of
strict scrutiny, CADA fails to pass constitutional
muster.

D. CADA Fails Strict Scrutiny
Although the majority properly finds CADA
compels expressive speech, see Maj. Op. at 24, it
resists the firm teaching of precedent that the
resulting compulsion violates the Constitution. And
even though the majority also agrees that CADA is a
content-based restriction on speech, see Maj. Op. at
25, its permissive application of strict scrutiny is
troubling. The majority tells us not to worry because
Colorado has good reasons to violate Ms. Smith’s
conscience for the greater good. After all, she is only
one person out of many. But this is misguided. See
Barnette, 319 U.S. at 638 (“The very purpose of a Bill
of Rights was to withdraw certain subjects from the
vicissitudes of political controversy, to place them
beyond the reach of majorities and officials and to
establish them as legal principles to be applied by the
courts. One’s right to life, liberty, and property, to free
speech, a free press, freedom of worship and
assembly, and other fundamental rights may not be

76a
submitted to vote; they depend on the outcome of no
elections.”).
To be sure, the Supreme Court has warned that it
“wish[es] to dispel the notion that strict scrutiny is
strict in theory, but fatal in fact.” Adarand
Constructors, Inc. v. Pena, 515 U.S. 200, 237 (1995)
(internal quotation marks omitted). But “it is the rare
case in which a State demonstrates” that a provision
passes strict scrutiny. Williams-Yulee v. Fla. Bar, 575
U.S. 433, 444 (2015) (internal quotation marks
omitted). In the context of expressive speech, the
stakes are high—so a rigorous application of strict
scrutiny is vital.
As the majority acknowledges, strict scrutiny
requires the government to demonstrate that the
provision “is justified by a compelling government
interest and is narrowly drawn to serve that interest.”
Brown, 564 U.S. at 799; see also Pac. Gas & Elec. Co.,
475 U.S. 1, 19 (1986) (holding that a law that compels
speech is only valid if it is a “narrowly tailored means
of serving a compelling state interest”). When
determining whether a law is narrowly tailored, “the
court should ask whether the challenged regulation is
the least restrictive means among available, effective
alternatives.” Ashcroft v. ACLU, 542 U.S. 656, 666
(2004). And in the free-speech context, “narrow”
means the law must “avoid unnecessarily abridging
speech.” See Williams-Yulee, 575 U.S. at 444. It also
means a law cannot be overinclusive, see Brown, 564
U.S. at 804, or underinclusive, see Reed, 576 U.S. at
171–72. The existence of administrable, reasonable
alternatives indicate the law is not sufficiently
narrow to survive the rigors of strict scrutiny. See
Ashcroft, 542 U.S. at 666. Ultimately, the court’s task

77a
is to ensure that “speech is restricted no further than
necessary to achieve the [government’s] goal[.]” Id.
CADA is not narrowly tailored so as to survive its
encroachment on First Amendment liberties.
Eliminating discrimination in places of public
accommodation is undeniably a compelling state
interest. See Roberts v. U.S. Jaycees, 468 U.S. 609,
628 (1984) (“[A]cts of invidious discrimination in the
distribution of publicly available goods, services, and
other advantages cause unique evils that government
has a compelling interest to prevent[.]”). And as a
general proposition, “ensuring ‘equal access to
publicly available goods and services’” is also a
compelling government interest. Maj. Op. at 28
(quoting U.S. Jaycees, 468 U.S. at 624). But ensuring
access to a particular person’s unique, artistic
product—as the majority holds, see Maj. Op. at 33—is
not a compelling state interest.8 Nor does the majority
In concluding that CADA is narrowly tailored, the majority
appears to conflate the compelling-interest analysis with the
narrow-tailoring analysis. The majority states that CADA is
“narrowly tailored to Colorado’s interest in ensuring access to
the commercial marketplace.” Maj. Op. at 33. Although the
majority acknowledges that “the commercial nature of [Ms.
Smith’s] business does not diminish [her] speech interest,” id. at
28, the opinion then states that this same commercial nature
allows Colorado to regulate it.
8

But this statement—and the ensuing discussion—is not
aimed at how narrowly CADA is or is not tailored; rather, it
confuses the means (how a State accomplishes its compelling
interest) with the ends (the State’s compelling interest it seeks
to further). Put differently, the majority appears to endorse the
proposition that if the government’s compelling interest is drawn
narrowly enough, the government may use any means to further
it. Other than pointing out how CADA is aimed at regulating
commercial behavior, the majority says nothing about how

78a
cite any case law to support this unconventional
characterization of a compelling interest.
And in advancing its aims, Colorado has failed to
narrowly tailor CADA so as to preserve vital speech
protections. For one, CADA is overinclusive,
intruding into protected speech both by compelling it
and by suppressing it, as discussed above. For
another, there are reasonable, practicable alternatives Colorado could implement to ensure market
access while better protecting speech. Colorado could
simply take seriously (and codify) its own statement
that CADA allows for message-based exceptions. See
Appellee Br. at 62 (“[T]he Commission does not
interpret [CADA] to require any business owner,
regardless of religious beliefs, to produce a message it
would decline to produce for any customer.”). This
practicable alternative protects artists’ speech
interests while not harming the state’s interest in
ensuring market access. After all, the Commission
claims to interpret CADA in this way already.
Alternatively, Colorado could allow artists—those
who are engaged in making expressive, custom art—
to select the messages they wish to create, free from
fear of retribution. Or Colorado could exempt from
CADA artists who create expressive speech about or
for weddings, as Mississippi does. See Miss. Code
Ann. § 11-62-5(5). Colorado could also modify its
CADA uses the least restrictive means to accomplish its goal and
“avoid[s] unnecessarily abridging speech.” See Williams-Yulee,
575 U.S. at 444. The majority’s discussion on this point merely
reiterates Colorado’s purportedly compelling interest in
providing market access to Ms. Smith’s website designs in
particular.

79a
definition of “place of public accommodation” by
placing expressive businesses beyond its reach. See
Colo. Rev. Stat. § 24-34-601(1). Indeed, CADA already
excludes one type of expressive establishment: “places
principally used for religious purposes.” Id.
In any event, the majority overlooks these simple
answers that would keep Colorado properly within
the bounds of the Constitution. Instead, the majority
allows the government to dictate what shall and shall
not be said, impinging on the most vital First
Amendment liberties. Rather than embracing the
idea that creative, expressive works are even worthier
of First Amendment protection by virtue of their
originality and intrinsic worth, the majority comes to
the opposite conclusion. It holds that “unique goods
and services are where public accommodation laws
are most necessary to ensuring equal access.” Maj.
Op. at 32. It premises this argument on the idea
(novel to the First Amendment) of a “monopoly of
one,” characterizing the “product at issue [as] not
merely ‘custom-made wedding websites,’ but rather
‘custom-made wedding websites of the same quality
and nature as those made by [Ms. Smith].’” Id. at 30–
31 (emphasis added). The majority then concludes
that “monopolies present unique anti-discrimination
concerns,” justifying regulation of a market in which
“only [Ms. Smith] exist[s].” Id. at 30.
But this reductive reasoning leads to absurd
results. By describing custom artists as creating a
monopoly of one, the majority uses the very quality
that gives the art value—its expressive and singular
nature—to cheapen it. In essence, the majority holds
that the more unique a product, the more aggressively
the government may regulate access to it—and thus

80a
the less First Amendment protection it has.9 This is,
in a word, unprecedented. And this interpretation
subverts our core understandings of the First Amendment. After all, if speech can be regulated by the
government solely by reason of its novelty, nothing
unique would be worth saying. And because
essentially all artwork is inherently “not fungible,” id.
at 28, the scope of the majority’s opinion is staggering.
Taken to its logical end, the government could
regulate the messages communicated by all artists,
forcing them to promote messages approved by the
government in the name of “ensuring access to the
commercial marketplace.”10 Id. at 27.
In sum, I am persuaded by what Justice Jackson
wrote nearly 80 years ago: “If there is any fixed star
in our constitutional constellation, it is that no
official, high or petty, can prescribe what shall be
orthodox in politics, nationalism, religion, or other
matters of opinion or force citizens to confess by word
or act their faith therein.” Barnette, 319 U.S. at 642.
These words are as true now as they were then.
This was not the conclusion reached by the Hurley Court.
Consider what was at issue in that case: participation in the
Boston St. Patrick’s Day–Evacuation Day Parade. What could
possibly be more unique and non-fungible than marching in this
famous, storied parade? See Hurley, 515 U.S. at 560–61
(discussing the long history of the parade).
9

The majority points out that its holding “does not address
how CADA might apply to non-commercial activity (such as
commissioning a mural for some charitable purpose).” Maj. Op.
at 33 n.6. But this is surely cold comfort for the vast majority of
artists, who make a living by selling their work. Artists should
not have to choose to either disavow their beliefs or charitably
create in order to have control over their own messages.
10

81a

II. Free Exercise
The majority then turns to Ms. Smith’s right to
freely exercise her religious beliefs. State actions that
infringe on this right enshrined in the First Amendment can range from extreme (and unconstitutional)
to permissible. A short review of the legal framework
demonstrates where CADA’s application to Ms. Smith
falls on this spectrum.
At one end of the spectrum are neutral laws that
are generally applicable, which treat religious and
secular entities the same. See Emp. Div., Dep’t of
Human Res. of Or. v. Smith, 494 U.S. 872, 878–79
(1990); Fulton v. City of Philadelphia, 141 S. Ct. 1868,
1876 (2021).11 These laws are subject to rational basis
On June 17, 2021, the Supreme Court issued its opinion in
Fulton v. Philadelphia, a case in which Philadelphia had ended
its relationship with Catholic Social Services for approving foster
parents because CSS’s religious beliefs on marriage prevented it
from approving same-sex couples. 141 S. Ct. at 1874. Although
one of the issues presented was whether Employment Division v.
Smith should be overturned, the Court held that “[t]his case falls
outside Smith” because Philadelphia’s policies were not
“generally applicable.” Id. at 1878.
11

Nevertheless, since Smith, several Supreme Court justices
have written or joined in expressing doubt about Smith’s free
exercise jurisprudence. See, e.g., Fulton, 141 S. Ct. at 1882
(Barrett, J., concurring) (“In my view, the textual and structural
arguments against Smith are more compelling. As a matter of
text and structure, it is difficult to see why the Free Exercise
Clause—lone among the First Amendment freedoms—offers
nothing more than protection from discrimination.”); Id. at 1883
(Alito, J., concurring) (writing that “[Smith’s] severe holding is
ripe for reexamination” and “correct[ion]”); Id. at 1926 (Gorsuch,
J., concurring) (“Smith failed to respect this Court’s precedents,
was mistaken as a matter of the Constitution’s original public
meaning, and has proven unworkable in practice.”); Kennedy v.

82a
review. A “law that is both neutral and generally
applicable need only be rationally related to a
legitimate governmental interest to survive a
constitutional challenge.” Grace United Methodist
Church v. City of Cheyenne, 451 F.3d 643, 649 (10th
Cir. 2006); see also Smith, 494 U.S. at 878–79.
Furthermore, “a law that is neutral and of general
applicability need not be justified by a compelling
governmental interest even if the law has the
incidental effect of burdening a particular religious
practice.” Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 531 (1993) (emphasis
added). “[A]n individual’s religious beliefs [do not]
excuse him from compliance with an otherwise valid

Bremerton Sch. Dist., 139 S. Ct. 634, 637 (2019), denial of cert.
(Alito, J., concurring, joined by Thomas, Gorsuch, and
Kavanaugh, JJ.) (writing that Smith “drastically cut back on the
protection provided by the Free Exercise Clause”); City of Boerne
v. Flores, 521 U.S. 507, 548 (1997) (O’Connor, J., dissenting)
(stating that “Smith is gravely at odds with our earlier free
exercise precedents.”); id. at 565 (Souter, J., dissenting) (“I have
serious doubts about the precedential value of the Smith rule
and its entitlement to adherence.”); id. at 566 (Breyer, J.,
dissenting); Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, 559 (1993) (Souter, J., concurring in part
and concurring in the judgment). And recent COVID-restrictionrelated opinions have cast doubt on Smith’s precedential value
for cases in which a state’s facially neutral regulations result in
disparate treatment between secular and religious entities. See
Tandon v. Newsom, 141 S. Ct. 1294, 1296 (2021) (per curiam);
Roman Cath. Diocese of Brookyn v. Cuomo, 141 S. Ct. 63, 67
(2020) (per curiam).
But because this case presents the “individualized
exemptions” exception to Smith, we need not predict whether
Smith has continued viability.

83a
law prohibiting conduct that the State is free to
regulate.” Smith, 494 U.S. at 878–79.
But a state’s discriminatory treatment—hidden in
the guise of facial neutrality—may be less apparent.
See Lukumi Babalu Aye, 508 U.S. at 534 (“Facial
neutrality is not determinative. The Free Exercise
Clause . . . extends beyond facial discrimination.”). A
law may place certain secular activities in a favored
category at the same time it places religious activities
in a less favorable category—perhaps by denying
them exemptions or excluding them from benefits or
beneficial treatment. See id. at 537–38. But “[t]he
Free Exercise Clause bars even ‘subtle departures
from neutrality’ on matters of religion.” Masterpiece,
138 S. Ct. at 1731. As a result, “government
regulations are not neutral and generally applicable,
and therefore trigger strict scrutiny under the Free
Exercise Clause, whenever they treat any comparable
secular activity more favorably than religious
exercise.” Tandon v. Newsom, 141 S. Ct. 1294, 1296
(2021) (per curiam) (emphasis in original); see also
Roman Cath. Diocese of Brooklyn v. Cuomo, 141 S. Ct.
63, 67 (2020) (per curiam) (stating that because
COVID-related capacity restrictions resulted in
disparate treatment between houses of worship and
some businesses, the restrictions were not neutral
and generally applicable and thus subject to strict
scrutiny).
The Supreme Court has identified at least two
ways in which a law can lack general applicability,
thereby triggering strict scrutiny review. One of these
is “if [a law] prohibits religious conduct while
permitting secular conduct that undermines the
government’s asserted interests in a similar way.”

84a
Fulton, 141 S. Ct. at 1877. Such a law might be
underinclusive, targeting only certain harms
purportedly caused by religious conduct while
permitting similar harms by others. See Lukumi
Babalu Aye, 508 U.S. at 545–46.
The other manner in which a law may not be
generally applicable is the individualized exemption
exception. “A law is not generally applicable if it
‘invites’ the government to consider the particular
reasons for a person’s conduct by providing ‘a
mechanism for individualized exemptions.’” Fulton,
141 S. Ct. at 1877 (quoting Smith, 494 U. S., at 884)
(alterations incorporated); see also Grace United
Methodist Church, 451 F.3d at 650. “[T]he individualized exemption exception inquiry can be summarized as follows: as long as a law remains
exemptionless, it is considered generally applicable
and religious groups cannot claim a right to
exemption; however, when a law has secular
exemptions, a challenge by a religious group becomes
possible.” Grace United Methodist Church, 451 F.3d
at 650. Accordingly, this exception “is limited . . . to
systems that are designed to make case-by-case
determinations.” Axson-Flynn, 356 F.3d at 1298
(finding that a university’s treatment of an LDS
student’s right to free exercise of her religion was part
of a system of individualized exemptions because it
had granted an exception to a Jewish student). This
is because such a system “permit[s] the government
to grant exemptions based on the circumstances
underlying each application” of the law. Fulton, 141
S. Ct. at 1877. Accordingly, “[t]o ensure that
individuals do not suffer unfair treatment on the
basis of religious animus, subjective assessment

85a
systems that invite consideration of the particular
circumstances behind an applicant’s actions . . .
trigger strict scrutiny.” Grace United Methodist
Church, 451 F.3d at 651 (internal quotation marks
omitted).
At the far end of the spectrum, a state violates the
right to free exercise when it expressly discriminates
against—or demonstrates animus toward—religion.
This type of action is subject to the “strictest
scrutiny.” Trinity Lutheran Church of Columbia, Inc.
v. Comer, 137 S. Ct. 2012, 2019 (2017) (“The Free
Exercise Clause ‘protect[s] religious observers against
unequal treatment’ and subjects to the strictest
scrutiny laws that target the religious for ‘special
disabilities’ based on their ‘religious status.’” (quoting
Lukumi Babalu Aye, 508 U.S. at 533)). As Justice
Kennedy wrote in another case involving CADA,
“[T]he government, if it is to respect the
Constitution’s guarantee of free exercise, cannot
impose regulations that are hostile to the religious
beliefs of affected citizens and cannot act in a manner
that passes judgment upon or presupposes the
illegitimacy of religious beliefs and practices.”
Masterpiece, 138 S. Ct. at 1731. In other words, a
statute that discriminates against religious beliefs or
prohibits conduct because they are religious must
pass strict scrutiny review. Lukumi Babalu Aye, 508
U.S. at 531–33, 546. This type of law is invalid unless
it is narrowly tailored to accomplish the government’s
compelling interest. See Grace United Methodist
Church, 451 F.3d at 649 (“[I]f a law that burdens a
religious practice is not neutral or generally
applicable, it is subject to strict scrutiny, and the
burden on religious conduct violates the Free Exercise

86a
Clause unless it is narrowly tailored to advance a
compelling governmental interest.”).
Given this legal framework, CADA clearly violates
Ms. Smith’s Free Exercise rights.
Colorado asserts that CADA is a neutral, generally
applicable law because it purports to regulate only
commercial conduct, or the “terms and conditions
under which a business chooses to offer goods or
services for sale to the public.” Appellee Br. at 38. All
that CADA requires of Ms. Smith, therefore, is that
she “make that product or service available to all
customers regardless of protected class status.”
Appellee Br. at 38. If CADA were enforced exactly in
this even-handed manner, perhaps it would be
neutral and generally applicable, and perhaps it
would pass the resulting rational basis scrutiny.12
But this is not how CADA works. Colorado has
allowed exceptions. In fact, the entire CADA enforcement mechanism is structured to make case-by-case
determinations. See Maj. Op. at 6–7 (discussing
investigative and adjudicative processes dictated by
CADA). CADA deputizes anyone to file a complaint
challenging a business practice, and the Commission
is required to investigate and rule on each complaint
individually. Id. There is no meaningful difference
between the Commission’s role in enforcing CADA
here and the Commissioner’s role in Fulton in
parceling out exceptions for foster care contracts. In
that case, Philadelphia’s provision “incorporate[d] a
system of individual exemptions, made available . . .
As discussed above, 303 Creative does not deny website
services based on sexual orientation.
12

87a
at the sole discretion of the Commissioner.” Fulton,
141 S. Ct. at 1878 (internal quotation marks omitted).
And, as here, Philadelphia “made clear that the
Commissioner ‘ha[d] no intention of granting an
exception’” to the Catholic charity. Id. (quoting the
petition for certiorari). But in cases where this causes
“religious hardship,” held the Court, this “exception
system” triggers strict scrutiny. Id. (quoting Smith,
494 U.S. at 884).
The Colorado Civil Rights Commission operates
under exactly the same ad-hoc system as in Fulton.
The Commission is the sole arbiter for handling
complaints submitted to it—decreeing when a
religious objection is valid13 and when it is not, doling
out punishment and reprieve based on its own
standards. As the Supreme Court has made clear, “in
circumstances in which individualized exemptions
from a general requirement are available, the
government ‘may not refuse to extend that system to
cases of religious hardship without compelling
reason.’” Lukumi Babalu Aye, 508 U.S. at 537
(quoting Smith, 494 U.S. at 884); see also Fulton, 141
S. Ct. at 1878; Tandon, 141 S. Ct. at 1296.14 Because
Or, for that matter, whether a sex-related “restriction has
a bona fide relationship to the goods, services, facilities,
privileges, advantages, or accommodations of such place of
public accommodation.” Colo. Rev. Stat. § 24-34-601(3).
13

The majority declines to apply heightened scrutiny under
a hybrid-rights theory because it concludes that Ms. Smith’s free
speech claim fails. See Maj. Op. at 47. But because CADA
employs case-by-case individualized exemptions, it triggers
strict scrutiny, see Lukumi Babalu Aye, 508 U.S. at 537, not the
“heightened scrutiny” required in the hybrid-rights context, see
Axson-Flynn, 356 F.3d at 1295.
14

88a
CADA’s enforcement requires the Commission to
make individualized assessments of complaints—
Moreover, jurists and scholars have expressed doubts as to
the practical validity of Smith’s hybrid-rights doctrine,
characterizing it as dicta, difficult to define, illogical, and
untenable. See, e.g., Lukumi Babalu Aye, 508 U.S. at 567
(Souter, J., concurring) (“And the distinction Smith draws
strikes me as ultimately untenable. If a hybrid claim is simply
one in which another constitutional right is implicated, then the
hybrid exception would probably be so vast as to swallow the
Smith rule, and, indeed, the hybrid exception would cover the
situation exemplified by Smith.”); Axson-Flynn, 356 F.3d at 1301
(“We agree with the district court that the law regarding this
controversial ‘hybrid-rights’ exception is not clearly established,
and even this Court has recognized that ‘[i]t is difficult to
delineate the exact contours of the hybrid-rights theory
discussed in Smith.’” (quoting Swanson, 135 F.3d at 699));
Kissinger v. Bd. of Trustees of Ohio State Univ., Coll. of
Veterinary Med., 5 F.3d 177, 180 (6th Cir. 1993) (criticizing the
hybrid-rights doctrine as illogical and declining to apply it);
Michael W. McConnell, Free Exercise Revisionism and the Smith
Decision, 57 U. Chi. L. Rev. 1109, 1122 (1990) (“[A] legal realist
would tell us . . . that the Smith Court’s notion of ‘hybrid’ claims
was not intended to be taken seriously.”). And courts are “divided
on the strength of the independent constitutional right claim
that is required to assert a cognizable hybrid rights claim, with
a number of courts, including this circuit, expressing the view
that a litigant is required to assert at least a ‘colorable’ claim to
an independent constitutional right to survive summary
judgment.” Grace United Methodist Church, 451 F.3d at 656.
Regardless, in a similar case on wedding videography, the
Eighth Circuit acknowledged that the hybrid-rights doctrine
supported a free speech claim that was intertwined with a free
exercise claim. See Telescope Media, 936 F.3d at 758. But it may
simply be a distinction without a difference, for as the Telescope
Media panel stated, “it is not at all clear that the hybrid-rights
doctrine will make any real difference in the end. After all, the
[appellants’] free-speech claim already requires the application
of strict scrutiny.” Id. at 760. The same is true here.

89a
which
is
necessarily
structured
to
allow
individualized exemptions for some and not for
others—it must undergo strict scrutiny.
The arbitrary way in which Colorado has handed
out exceptions to CADA is best demonstrated by a
familiar case: Masterpiece. See 138 S. Ct. at 1730.
There, the Court delivered a stinging rebuke to the
Commission, declaring that its “treatment of [the
baker’s] case ha[d] some elements of a clear and
impermissible hostility toward the sincere religious
beliefs that motivated his objection.” Id. at 1729.
Besides this remarkable reprimand, though,
Masterpiece has additional relevance here with
respect to the differential treatment of religious
individuals. Masterpiece’s applicability is not, as the
majority would have it, related to any animus (or lack
thereof) of the Commission. Rather, it indicates how
the CADA-created system of individualized
exceptions is designed for—and has already resulted
in—disparate treatment, particularly for religious
speakers. For example, during the pendency of the
Masterpiece litigation, a professing Christian man,
William Jack, filed CADA complaints against three
bakeries for refusing to make cakes that expressed
opposition to same-sex marriage. Aplt. App. at 1-027–
28; see also Masterpiece Cakeshop, 138 S. Ct. at 1728.
But the Commission found that there was “no
probable cause” to Mr. Jack’s “creed” discrimination
complaints because the bakeries would not have made
cakes with those messages for any customer,
regardless of creed. But around the same time, the
Commission concluded that Masterpiece Cakeshop
had violated CADA by refusing to make a cake
because of the customer’s status—that is, sexual

90a
orientation. In other words, the Commission
contended, the Jack cases were acceptable messagebased refusals, while the Masterpiece case was an
unacceptable status-based refusal.
But this evinces a failure to act neutrally toward
religious belief. Masterpiece, 138 S. Ct. at 1730
(“Another indication of hostility is the difference in
treatment between Phillips’ case and the cases of
other bakers who objected to a requested cake on the
basis of conscience and prevailed before the
Commission.”). As Justice Gorsuch pointed out, the
Commission “slid[ ] up and down the mens rea scale,
picking a mental state standard to suit its tastes
depending on its sympathies” in coming to these
inconsistent conclusions. Id. at 1737 (Gorsuch, J.,
concurring). Such “gerrymander[ing]” leads to
unacceptable “results-driven reasoning” by civil
authorities.15 Id. at 1739. Stated more simply, the
Commission cannot use different standards for
The majority disagrees, holding that Colorado may engage
in “a gerrymander favoring LGBT customers, as opposed to a
gerrymander disfavoring religious-speakers.” Maj. Op. at 41.
But in doing so, the majority places the burden on the wrong
party. In a system of case-by-case adjudication exactly like this
one—where the Commission would determine whether a
person’s objection to same-sex marriage is religiously
motivated—strict scrutiny must apply. See also Fulton, 141 S.
Ct. at 1878. As the Supreme Court has made clear, “the
government has the burden to establish that the challenged law
satisfies strict scrutiny.” Tandon, 141 S. Ct. at 1296. The
majority disregards this, stating that Ms. Smith “provide[s] no
evidence that Colorado permits secularly-motivated objections to
serving LGBT consumers.” Maj. Op. at 41 (internal citations to
Lukumi Babalu Aye omitted). Of course, it is the government’s
job to prove CADA passes muster—not Ms. Smith’s.
15

91a
religious individuals and non-religious individuals.
See id. at 1737 (“But the one thing [the Commission]
can’t do is apply a more generous legal test to secular
objections than religious ones.”). This type of
differential treatment is the most intolerable of the
“individualized exemption” exception to Smith, as
recognized in Lukumi Babalu Aye., 508 U.S. at 537
(quoting Smith, 494 U.S. at 884).
And contrary to the majority’s assertion, Colorado
may not “gerrymander” CADA, see Maj. Op. at 39, to
benefit a certain group when its practical effect is to
violate the rights of another. See Lukumi Babalu Aye,
508 U.S. at 524 (invalidating ordinances where “the
principle of general applicability was violated
because the secular ends asserted in defense of the
laws were pursued only with respect to conduct
motivated by religious beliefs”); id. at 535
(determining the validity of the law by looking to the
“ordinances’ operation” (emphasis added)).
Despite all this, Colorado continues to profess
that CADA allows for message-based refusals,
stating: “[T]he Commission does not interpret
[CADA] to require any business owner, regardless of
religious beliefs, to produce a message it would
decline to produce for any customer.”16 Appellee Br.
The majority states that “[m]essage-based refusals are not
an ‘exemption’ from CADA’s requirements; they are a defense.”
Maj. Op. at 43. This contradicts Colorado’s own position that the
Commission “interpret[s] [CADA]” to allow message-based
refusals; if Colorado says it interprets the law this way, it
provides guidance to business owners before a complaint is filed,
not after. Such an interpretation gives notice to business owners
that they may make message-based refusals without fear that
they will be dragged before the Commission to present this
16

92a
at 62. As Ms. Smith’s counsel affirmed at oral
argument, Ms. Smith would refuse to make any
message celebrating same-sex marriage for any
client, regardless of sexual orientation. This is
exactly the type of refusal Colorado claims Ms. Smith
can make: a message-based refusal not rooted in the
identity or status of the client. But again, Colorado
slides up and down the mens rea scale, presuming
that Ms. Smith has discriminatory intent in her
faith-based refusal while allowing other artists to
refuse to convey messages contrary to their nonargument as a defense. And such an interpretation should
prevent the Commission from seriously investigating any
complaint based on a message-based refusal in the first
instance—thus “free[ing] or releas[ing]” message-based refusals
from liability under CADA. See Exempt, Black’s Law Dictionary
(11th ed. 2019).
But even assuming that the majority’s characterization is
correct, a defense available only to some and not others based on
protected class status triggers strict scrutiny. The majority
claims that “[o]stensibly, message-based refusals are unrelated
to class-status,” Maj. Op. at 43, but in CADA’s enforcement
history, they can and have been related to protected class status.
It is precisely why the differential treatment between the secular
bakeries’ refusals and Jack Phillips’s refusal in Masterpiece has
enduring relevance here: because both were making a messagebased refusal, Colorado demonstrated religious animus in
crediting one and not the other. Masterpiece, 138 S. Ct. at 1731.
Or imagine a Muslim muralist, contacted by a Jewish restaurant
owner requesting a depiction of the Israeli flag with a Zionist
message. The Muslim muralist might refuse to paint such a
message—but the message is undeniably intertwined with the
Jewish restaurant owner’s protected religious class status. Even
though “message-based refusals may be objectively defined,”
Maj. Op. at 44, Colorado can and does enforce its purported
message-based-refusal rule in a subjective manner based on
protected class status. This requires strict scrutiny review.

93a
faith-based beliefs. Just because Ms. Smith’s beliefs
may seem to be a minority viewpoint to Colorado does
not give it the right to presume ill-intent.17 On the
contrary, it is precisely because Ms. Smith’s views
may be in the minority that they must be afforded the
greatest protection. See Masterpiece, 138 S. Ct. 1737
(Gorsuch, J., concurring) (“Popular religious views
are easy enough to defend. It is in protecting
unpopular religious beliefs that we prove this
country’s commitment to serving as a refuge for
religious freedom.”); Fulton, 141 S. Ct. at 1925 (Alito,
J., concurring) (“Suppressing speech—or religious
practice—simply because it expresses an idea that
some find hurtful is a zero-sum game.”). This is the
promise of the Free Exercise Clause, and it is why
Colorado’s treatment of Ms. Smith’s religious beliefs
must be rejected.
Indeed, we need only look at our own precedent.
In Axson-Flynn, the University of Utah refused to
exempt an LDS student from speaking profanity in
her acting program—which she refused to do because
of her religious beliefs—but did grant an exemption
As the Supreme Court made clear in Obergefell,
individuals with religious convictions about marriage
17

may continue to advocate with utmost, sincere
conviction that, by divine precepts, same-sex
marriage should not be condoned. The First
Amendment ensures that religious organizations and persons are given proper protection as
they seek to teach the principles that are so
fulfilling and so central to their lives and faiths,
and to their own deep aspirations to continue the
family structure they have long revered.
Obergefell v. Hodges, 576 U.S. 644, 679–80 (2015).

94a
for a Jewish student who refused to perform on Yom
Kippur. Axson-Flynn, 356 F.3d at 1298. Because this
meant the University had a system of individualized
exemptions, the panel concluded the LDS student
had raised a genuine issue of material fact as to
whether her case fell in the “individualized
exemption” exception. In other words, the University
“maintained a discretionary system of making
individualized
case-by-case
determinations
regarding who should receive exemptions from
curricular requirements,” indicating it was not
demonstrating the requisite neutrality to the
student’s religious beliefs. Id. at 1299. Furthermore,
the “‘system of individualized exemptions’ need not
be a written policy, but rather the plaintiff may show
a pattern of ad hoc discretionary decisions amounting
to a ‘system.’” Id.
By demonstrating that CADA sets up a case-bycase system for determining exceptions, Ms. Smith
has shown CADA’s application here must be
reviewed with strict scrutiny with regard to the free
exercise claims. See Fulton, 141 S. Ct. at 1878; id. at
1881 (“A government policy can survive strict
scrutiny only if it advances ‘interests of the highest
order’ and is narrowly tailored to achieve those
interests.” (quoting Lukumi, 508 U. S. at 546)). “So
long as [Colorado] can achieve its interests in a
manner that does not burden religion, it must do so.”
Id. at 1881.
But for the same reasons CADA fails strict
scrutiny with regard to Ms. Smith’s free speech
claims, it fails with regard to the free exercise claims.
See Grace United Methodist Church, 451 F.3d at 649
(“[I]f a law that burdens a religious practice is not

95a
neutral or generally applicable, it is subject to strict
scrutiny, and the burden on religious conduct violates
the Free Exercise Clause unless it is narrowly
tailored to advance a compelling governmental
interest.”). With regard to the compelling interest
analysis, Colorado bears the burden of proving not
that it “has a compelling interest in enforcing its nondiscrimination policies generally, but whether it has
such an interest in denying an exception” to Ms.
Smith. Fulton, Slip Op. at 14. Colorado has not done
so here. And with respect to the narrow tailoring
analysis, Colorado must show CADA is not “the least
restrictive means among available, effective
alternatives.” Ashcroft, 542 U.S. at 666. But, as
discussed above, effective alternatives do exist.
Colorado says it allows message-based refusals for
religious beliefs. Given its infamous history in not
administering these exceptions in a neutral way, see
Masterpiece, 138 S. Ct. at 1729, perhaps Colorado can
write this provision into CADA. Or perhaps it could
exempt religious speakers when their refusal to
provide a service or product is rooted in a sincerely
held religious belief. Or again, Colorado could exempt
faith-based artists who speak about weddings from
the requirements of CADA.
When all is said and done, allowing business
owners like Ms. Smith to operate in accordance with
the tenets of their faiths does not damage society but
enriches it. Indeed, “we apply the limitations of the
Constitution with no fear that freedom to be
intellectually and spiritually diverse or even contrary
will disintegrate the social organization.” Barnette,
319 U.S. at 641. Religious liberty is among the purest
forms of self-determination because it allows

96a
believers to retain sovereignty of the soul. Because of
this, the “Free Exercise Clause commits government
itself to religious tolerance.” Lukumi Babalu Aye, 508
U.S. at 547. Even though Colorado has not committed
itself to respect this diversity, our First Amendment
protects Ms. Smith.

III.

Facial Challenge for Overbreadth and
Vagueness

Finally, the majority fails to protect Ms. Smith
from CADA’s Orwellian diktat that regulates
businesses based on the subjective experience of
customers. CADA contains a breathtakingly broad
and vague provision prohibiting “directly or indirectly” speaking in such a way that makes a
customer feel “unwelcome, objectionable, unacceptable, or undesirable” because of a protected
characteristic.18 Colo. Rev. Stat. § 24-34-601(2)(a).
Facially and as applied to Ms. Smith, this
“Unwelcome Provision” easily flunks the requirement
that fair notice be given to citizens about what can or
cannot be said in exercising First Amendment rights.
Like Nineteen Eighty-Four’s Winston Smith, CADA
18

It states:
It is a discriminatory practice and unlawful for a
person, . . . directly or indirectly, to [communicate] that an individual’s patronage or presence
at a place of public accommodation is
unwelcome, objectionable, unacceptable, or
undesirable because of disability, race, creed,
color, sex, sexual orientation, gender identity,
gender expression, marital status, national
origin, or ancestry.

Colo. Rev. Stat. § 24-34-601(2)(a).

97a
wants Lorie Smith to not only accept government
approved speech but also to endorse it.
In the First Amendment context, a plaintiff may
bring a facial challenge “whereby a law may be
invalidated as overbroad if a substantial number of
its applications are unconstitutional, judged in
relation to the statute’s plainly legitimate sweep.”
United States v. Stevens, 559 U.S. 460, 473 (2010); see
also Virginia v. Hicks, 539 U.S. 113, 119–20 (2003)
(holding that a “law’s application to protected speech
[must] be ‘substantial,’ not only in an absolute sense,
but also relative to the scope of the law’s plainly
legitimate applications . . . before applying the ‘strong
medicine’ of overbreadth invalidation” (quoting
Broadrick v. Oklahoma, 413 U.S. 601, 613 (1973)). In
Stevens, the Supreme Court held as constitutionally
overbroad an animal cruelty ban that applied to any
depiction in which “a living animal is intentionally
maimed, mutilated, tortured, wounded, or killed.” Id.
at 474 (quoting the statute at issue). The Court picked
through each of these words, one by one, determining
whether any of these words made the statute’s reach
too broad. The words “wounded” and “killed”
encompassed too much legal, protected conduct. Id. at
475–76. Even the statute’s inclusion of the additional
element of “accompanying acts of cruelty” did not
work to contain the too-broad meaning of “wounded”
and “killed.” Id. at 474.
Nor may a statute be so impermissibly vague as to
deprive a potential lawbreaker of due process. As the
Supreme Court has explained:
Vague laws offend several important
values. First, because we assume that

98a
man is free to steer between lawful and
unlawful conduct, we insist that laws
give the person of ordinary intelligence a
reasonable opportunity to know what is
prohibited, so that he may act
accordingly. Vague laws may trap the
innocent by not providing fair warning.
Second, if arbitrary and discriminatory
enforcement is to be prevented, laws
must provide explicit standards for those
who apply them. A vague law
impermissibly delegates basic policy
matters to policemen, judges, and juries
for resolution on an ad hoc and
subjective basis, with the attendant
dangers of arbitrary and discriminatory
application. Third, but related, where a
vague statute abuts upon sensitive areas
of basic First Amendment freedoms, it
operates to inhibit the exercise of those
freedoms.
Uncertain
meanings
inevitably lead citizen[s] to steer far
wider of the unlawful zone than if the
boundaries of the forbidden areas were
clearly marked.
Grayned v. City of Rockford, 408 U.S. 104, 108–09
(1972) (internal quotation marks omitted; alterations
incorporated); see also U.S. Jaycees, 468 U.S. at 629
(“The void-for-vagueness doctrine reflects the
principle that a statute which either forbids or
requires the doing of an act in terms so vague that
persons of common intelligence must necessarily
guess at its meaning and differ as to its application,
violates the first essential of due process of law.”)

99a
(internal quotation
incorporated).

marks

omitted;

alterations

The void-for-vagueness doctrine also prevents
arbitrary enforcement by government officials and
properly maintains separation of powers. See
Sessions v. Dimaya, 138 S. Ct. 1204, 1225 (2018)
(Gorsuch, J., concurring) (“Vague laws invite
arbitrary power”); id. at 1205 (“Nor is the worry only
that vague laws risk allowing judges to assume
legislative power. Vague laws also threaten to
transfer legislative power to police and prosecutors,
leaving to them the job of shaping a vague statute’s
contours through their enforcement decisions.”). And
when a law abridges First Amendment civil rights, it
must be subjected to an especially “stringent
vagueness test.” Vill. of Hoffman Ests. v. Flipside,
Hoffman Ests., Inc., 455 U.S. 489, 499 (1982).
CADA’s “do-not-offend provision” is both
overbroad and vague. Begin with the provision’s overbreadth. Analyzing any of the operative words—
“unwelcome,
objectionable,
unacceptable,
or
undesirable”—is instructive. Take, for instance,
“unwelcome.” Merriam-Webster defines unwelcome
as “not wanted.” It surely implies a subjective element
on behalf of the person who feels unwelcome. For
example, an atheist who walked into a hardware store
owned by a Christian might feel unwelcome if he saw
a sign inside that said, “We honor God and His
commandments here.” This sign says nothing about
the atheist’s protected class status, and it certainly
does not directly “indicate” that he is unwelcome. And
the store’s purveyors might not have hung the sign
with that intent whatsoever—but the statute includes
indirect as well as direct speech or conduct. This

100a
otherwise completely innocent and lawful sign—
indeed, a sign protected by the First Amendment—
would fall within the provision’s purview.
Or suppose a restaurant owner hung a
Confederate flag outside his establishment. Given its
controversial status, such a symbol might make
potential patrons feel unwelcome in that restaurant,
or perhaps make them feel as though the owner finds
their business undesirable. But government
regulation of displaying a flag as part of expressive or
symbolic speech is surely subject to strict scrutiny
under the First Amendment. See Spence v. State of
Washington, 418 U.S. 405, 415 (1974) (holding the
display of an United States flag upside down and with
a peace sign taped on it was protected expression);
Texas v. Johnson, 491 U.S. 397, 406 (1989)
(concluding that a man’s “burning of the [United
States] flag was conduct ‘sufficiently imbued with
elements of communication’ to implicate the First
Amendment” (quoting Spence, 418 U.S. at 409)).
Or take “objectionable.” Perhaps a Muslim shop
owner hangs a sign that reads, “There is no God but
Allah and Muhammad is His Prophet.” A Christian
who walked into the store may feel that the
shopkeeper objects to his beliefs about Jesus Christ as
his savior—which would make the sign an indirect
statement that the Christian’s views about Jesus
Christ (or about Muhammad, for that matter) are
objectionable. But the sign is, of course, protected
speech. It takes little imagination to multiply these
examples by dozens. The provision unyieldingly
sweeps in substantial swaths of protected conduct
and speech.

101a
The majority’s position that the Unwelcome
Provision cannot be overbroad because it is couched
within the Communication Clause’s “primar[y] focus[]
on access to goods and services,” Maj. Op. at 48, is
unpersuasive. For one, all of the examples above
relate to access to goods and services within places of
public accommodation and would be covered by both
the Communication Clause and the Unwelcome
Provision—yet the speech in each example is
undoubtedly protected. For another, the Unwelcome
Provision does not solely target access to goods and
services: indeed, communication that an individual’s
mere presence at a place of public accommodation is
unwelcome is swept into the law as well. Colo. Rev.
Stat. § 24-34-601(2)(a) (prohibiting communication
“that an individual’s patronage or presence at a place
of public accommodation is unwelcome, objectionable,
unacceptable, or undesirable” because of a protected
class status (emphasis added)). Moreover, by its own
terms, the Unwelcome Provision applies not only to
direct but indirect communication. The majority fails
to explain how its market-access theory will
permissibly apply to indirect communication—
communication that, in other words, may not even be
aimed at an individual’s access to a product or place
of public accommodation. Is the monopolist-of-one
artist required to silence herself?
As for vagueness, the examples discussed above
make clear that the terms “unwelcome, objectionable,
unacceptable, [and] undesirable” are too flexible in
meaning to give proper notice to any reasonable
person as to the provision’s reach. Indeed, given the
terms’ subjective valence, their definitions could be
nearly limitless. The Unwelcome Provision abuts

102a
directly against “sensitive areas of basic First
Amendment freedoms,” thus “operat[ing] to inhibit
the exercise of those freedoms.” Grayned, 408 U.S. at
109. In verging on, or even overlapping with,
protected speech, the provision has confusing and
uncertain meanings that “inevitably lead citizen[s] to
steer far wider of the unlawful zone than if the
boundaries of the forbidden areas were clearly
marked.” Id. And given this wide latitude, Colorado
state officials and courts can arbitrarily interpret the
provision, parceling out punishment and mercy at
whim.
Colorado says no harm, no foul. But its own
statements in this litigation belie Colorado’s
willingness to distribute punishment inequitably.
Colorado explained at oral argument that
interpreting the provision would require case-by-case
analysis—and that outcomes would “depend on the
context.” Oral Arg. at 31:50. Hanging a Confederate
flag, for example, might be acceptable in “some
circumstances” and not in others. Id. at 32:10. But
Colorado offers no cognizable standard by which
business owners, the Commission, or judges can
determine which are which. And the provision itself
does not give any clues for interpretation. Rather, the
Unwelcome Provision
leaves the people to guess about what
the law demands—and leaves judges to
make it up. You cannot discern answers
to any of the questions this law begets by
resorting to the traditional canons of
statutory interpretation. No amount of
staring at the statute’s text, structure, or
history will yield a clue. Nor does the

103a
statute call for the application of some
preexisting body of law familiar to the
judicial power.
Sessions v. Dimaya, 138 S. Ct. at 1225 (Gorsuch, J.,
concurring). Without hints about how to apply these
traditional methods of interpretation, the provision
invites exactly the type of capricious enforcement
prohibited by due process.
Because it cannot give proper and clear notice of
what is lawful and what is not, this provision of CADA
is unconstitutionally vague and overbroad.

IV.

Conclusion

Lest it go unsaid in this case: We must presume
Ms. Smith wants to live and speak by her faith, not
discriminate against any particular group or person.
We must presume she has reached her beliefs “based
on decent and honorable religious or philosophical
premises.” Obergefell, 576 U.S. at 672. And we must
presume that her beliefs are anything but trivial. So
it is in protecting the right to hold these beliefs that
we understand the true resilience of the First
Amendment. The “freedom to differ is not limited to
things that do not matter much. That would be a mere
shadow of freedom. The test of its substance is the
right to differ as to things that touch the heart of the
existing order.” Barnette, 319 U.S. at 642.
For these reasons, I dissent.

104a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Marcia S. Krieger
Civil Action No. 16-cv-02372-MSK
303 CREATIVE LLC, and
LORIE SMITH,
Plaintiffs,
v.
AUBREY ELENIS,
CHARLES GARCIA,
AJAY MENON,
MIGUEL RENE ELIAS,
RICHARD LEWIS,
KENDRA ANDERSON,
SERGIO CORDOVA,
JESSICA POCOCK, and
PHIL WEISER,
Defendants.1
_________________________________________________
OPINION AND ORDER GRANTING SUMMARY
JUDGMENT
_________________________________________________
THIS MATTER comes before the Court pursuant
to the Court’s May 17, 2019 Opinion and Order
Denying Motion for Summary Judgment (# 72), and
the Plaintiffs’ brief in response (# 74).

1

The caption of this action has been amended consistent with
the Defendants’ Notice of Substitution of Parties (# 78).

105a
The Court assumes the reader’s familiar with the
proceedings to date and the specific contents of the
May 17, 2019 Order, which the Court deems
incorporated herein by reference. In summary, Ms.
Smith is the owner of 303 Creative, LLC (“303”),2 and
engaged in the business of creating customized
wedding websites for her clients. Ms. Smith is a
devout Christian, believes in “biblical marriage,” and
opposes the extension of marriage rights to same-sex
couples. Thus, she intends to decline any request that
a same-sex couple might make to her to create a
wedding website. That policy would appear to violate
C.R.S. § 24-34-601(2), which prohibits discrimination
in the provision of goods and services on various
bases, including on the basis of sexual orientation
(“the Accommodations Clause”). Ms. Smith also
wishes to post a statement (“the Statement”) on 303’s
website, advising of her policy and the reasons
therefor. The posting of such a statement would
appear to violate a separate provision of C.R.S. § 2434-601(2), which prohibits the publication of any
communication that advises that goods or services
will be refused to patrons on the basis of, among other
things, sexual orientation (“the Communications
Clause”).
Before she posted her Statement and before any
enforcement action was taken (or even threatened)
against her, Ms. Smith and 303 commenced this
action seeking a declaratory judgment that both the
2

For purposes of convenience, the Court will typically refer to
both Plaintiffs jointly as either “Ms. Smith” or “303,” except
where it is necessary to specifically identify distinguish between
them.

106a
Accommodations Clause and the Communications
Clause of C.R.S. § 24-34-601(2) violated her rights
under the Free Speech and Free Exercise clauses of
the First Amendment to the U.S. Constitution and the
Equal Protection and Due Process clauses of the
Fourteenth Amendment. This Court subsequently
found that Ms. Smith could not demonstrate standing
sufficient to support her challenge to the Accommodation Clause. Thus, the Court dismissed the
claims directed at that clause, leaving only Ms.
Smith’s challenge to the Communications Clause.
Ms. Smith moved for summary judgment in her
favor on her claims. In the May 17, 2019 Order, this
Court denied Ms. Smith’s motion. The Court further
noted that, on the undisputed facts, it appeared that
the Defendants were entitled to judgment in their
favor on all of Ms. Smith’s claims. Pursuant to Fed. R.
Civ. P. 56(f), the Court advised Ms. Smith of its
intention to grant summary judgment to the
Defendants and invited her to submit any further
briefing and evidence that she desired on the issues
in the motion. Ms. Smith filed a brief (# 74) and
certain additional factual material (# 75), as well as
two subsequent notices of supplemental authority
(# 76, 77). The Court has considered those filings and,
for the reasons set forth in May 17, 2019 Order, as
supplemented herein, finds that judgment in favor of
the Defendants is appropriate.
The Court deems its discussion in the May 17,
2019 Order to be incorporated herein and will neither
repeat nor summarize that analysis. The Court uses
the instant order to address any new legal and factual
arguments raised by Ms. Smith in her response brief.

107a
Ms. Smith first argues that this Court should not
assume the legality of the Accommodation Clause,
and
should
instead
analyze
Ms.
Smith’s
constitutional challenges to that statute as well when
considering her Communication Clause challenges.
The cases Ms. Smith cites in support of this
proposition are inapposite. Housing Opportunities
Made Equal, Inc. v. Cincinnati Enquirer, Inc., 943
F.2d 644, 651 n. 9 (6th Cir. 1991), involved a statute
that prohibited the publication of real estate
advertisements that indicate the advertiser’s
intention to discriminate among prospective clients
and purchasers on the basis of (among others) race. A
housing-oriented community group sued a newspaper
under that law, arguing that the newspaper routinely
published real estate advertisements that almost
universally contained photos of white models (thus
implicitly discouraging minorities from applying for
housing). Noting in Housing Opportunities stands for
the proposition that the court, in assessing the ban on
discriminatory advertising, should not have assumed
the legality of any other statute. Ms. Smith instead
cites Housing Opportunities for a bit of dicta set forth
in a footnote. After noting that the advertisements in
question did not “relate[ ] to an illegal activity,” the
court proceeded to speculate about how its analysis
might apply “if these advertisements were considered
illegal.” The court explained that “[w]hen analyzing
the constitutional protections accorded a particular
commercial message, a court starts with the content
of the message and not the label given the message
under the relevant statute.” It goes on to state that
“[s]tarting with the language of a statute would
foreclose a court from ever considering the

108a
constitutionality of particular commercial speech
because the statute would label such speech illegal
and thus unprotected by the first amendment.
Constitutional review by a court is not so easily
circumvented.” 942 F.2d at 651 n. 9. But this footnote
is referring to the court overlooking statutes that
declare the advertisement itself to be illegal, not
statutes that prohibit the conduct the advertisement
is promoting. In other words, this Court does not
deem Ms. Smith’s Statement to propose an unlawful
act simply because the Communications Clause
declares the Statement to be unlawful. Consistent
with Housing Opportunities, this Court looks past the
Communications Clause’s label and considers the
content of the speech. But the content of Ms. Smith’s
speech is unlawful because it proposes an action made
unlawful by an entirely different statute – the
Accommodation Clause. Nothing in Housing
Opportunities suggests that this Court should ignore
the effect of an entirely different statutory provision
when assessing the legality of Ms. Smith’s Statement.
That principle is illustrated more clearly by
Bigelow v. Virginia, 421 U.S. 809 (1975), the case
upon which Housing Opportunities relies. In Bigelow,
Virginia law prohibited the publication of any
communication encouraging the procuring of an
abortion. A newspaper publisher in Virginia ran an
ad from a business in New York State that informed
readers that “abortions are now legal in New York.
There are no residency requirements. . . We will make
all arrangements for you.” Virginia prosecuted the
publisher under its statute and the publisher, and the
publisher appealed his conviction citing First
Amendment protections. The Supreme Court

109a
reversed the conviction, finding that the
advertisement was commercial speech that enjoyed
First Amendment protection. Addressing the
argument that the advertisement forfeited First
Amendment protection because it proposed an illegal
act, the Supreme Court noted that abortion services
were legal in New York at the time. Thus, it
explained, a state “may not, under the guise of
exercising internal police powers, bar a citizen of
another State from disseminating information about
an activity that is legal in that State.” 421 U.S. at 82425. In other words, the Supreme Court ignored the
superficial fact that Virginia law purported to declare
the advertisement illegal, in the same way that this
Court ignores the fact that the Communications
Clause declares Ms. Smith’s Statement illegal.
Instead, the Supreme Court analyzed whether the
content of the advertisement proposed an illegal act.
In Bigelow, it did not because procuring an abortion
was legal in New York. Here, however, Ms. Smith’s
Statement proposes to undertake an action that is
made illegal by the Accommodation Clause, and thus,
her statement forfeits First Amendment protection.
More to the point however, nothing in Bigelow
suggests that the court was required to separately
assess the constitutionality of any law other than the
law being enforced (the prohibition on advertising
abortion services), and thus, Bigelow does not support
Ms. Smith’s contention that this Court must
separately assess the constitutionality of the
Accommodation Clause while it evaluates Ms. Smith’s
challenge to the Communications Clause.
Similarly, BellSouth Telecommunications, Inc. v.
Farris, 542 F.3d 499, 506 (6th Cir, 2008), does not

110a
stand for the proposition Ms. Smith asserts. There,
the state passed a tax on telecommunications
services, but prohibited providers from “separately
stating the tax on [customers’] bill[s].” Providers
challenged, on First Amendment grounds, the
prohibition against advising customers of the tax as a
separate line item on bills. The state defended the
challenge in part by arguing that disclosing the tax on
customer bills was not speech that enjoyed First
Amendment protection because such speech was
“illegal” – made so by the very statute the providers
were challenging. “[T]hat contention simply chases
the [state’s] tail,” the court explained, “[t]he
lawfulness of the activity does not turn on the
existence of the speech ban itself; otherwise, all
commercial speech bans would all be constitutional.”
542 F.3d at 506. Once again, BellSouth illustrates a
principle distinct from the one that Ms. Smith is
urging here. If this Court were to simply declare Ms.
Smith’s Statement to be devoid of First Amendment
protection because the Communication Clause
declared it unlawful, cases like Bigelow and BellSouth
would expose that reasoning as error. But this Court
has not done so. This Court finds that Ms. Smith’s
statement proposes an unlawful act because it
proposes to do something – deny services to same-sex
couples -- that a different statute, the Accommodations Clause, prohibits. Nothing in any of the cases
Ms. Smith cites suggest that a party challenging an
advertising ban can use that challenge to attack an
entirely different statute as well (e.g. the providers in
BellSouth using the advertising ban to challenge the
telecommunications tax itself; the editor in Bigelow

111a
using the advertising ban to challenge Virginia’s ban
on abortions).
As this Court has already found, Ms. Smith lacks
the standing to bring a direct challenge to the
Accommodations Clause. Allowing her to use a claim
challenging the Communications Clause as a Trojan
Horse to challenge the Accommodations clause
indirectly would undermine the Court’s prior finding
with regard to standing. Accordingly, the Court
rejects Ms. Smith’s argument that this Court cannot
assume the constitutionality of the Accommodations
Clause when evaluating her Communications Clause
claim.3

3
Because the legality of the Accommodations Clause lies
outside the scope of this Court’s review in this matter, Ms.
Smith’s reliance on Telescope Media Group v. Lucero, ___ F.3d
___, 2019 WL 3979621 (8th Cir., Aug. 23, 2019), is misplaced.
Telescope involved a challenge by a film-making business and its
principals who offered to create wedding videos for opposite-sex
couples but whose principals opposed, on religious grounds,
extending those services to same-sex couples. The plaintiffs
challenge Minnesota’s version of the Accommodations Clause
and the 8th Circuit, in a divided opinion, reversed the District
Court’s dismissal of the plaintiffs’ challenges. The 8th Circuit
held that the creation of videos constituted First Amendment
speech and that the state’s interest in eradicating discrimination
was not sufficiently compelling to overcome the burdens that the
law placed on that speech.
Because Telescope dealt with a challenge to a version of the
Accommodations Clause, not the Communications Clause, its
analysis is not relevant here. If Ms. Smith had standing to
pursue her Accommodations Clause claims, Telescope might be
germane. But this Court has carefully limited itself to analyzing
only the Communication Clause, and thus, Telescope provides no
guidance. (In any event, to the extent that the 8th Circuit’s
analysis overlaps with certain portions of analysis in this Court’s

112a
Second, Ms. Smith argues that the Court’s May
17, 2019 Order failed to fully consider her arguments
in support of her Free Exercise claim. Specifically, she
contends that the Court failed to consider “whether
certain statements by members of the Colorado Civil
Rights Commission . . . reveal hostility toward [Ms.
Smith’s] religious beliefs on marriage.” (Ms. Smith is
referring to the same comments that animated the
Supreme Court’s reasoning in Masterpiece Cake Shop,
Ltd. v. Colorado Civil Rights Commission, 138 S.Ct.
1719, 129-30 (2018).) But such comments are
irrelevant to a pre-enforcement challenge like the one
Ms. Smith brings here (as compared to a challenge to
the circumstances under which the Accommodations
Clause was actually enforced against Masterpiece
Cake Shop). Whether the members of the Colorado
Civil Rights Commission would be biased against Ms.
Smith’s religious beliefs or not, if Ms. Smith were
cited for violating the Communications Clause, has no
bearing on the question the Court considers at this
time: whether Ms. Smith’s Statement violates the
Communications Clause as a matter of law.
May 17, 2019 Order, this Court would simply disagree with the
8th Circuit’s analysis, finding it unpersuasive.)
The Court notes that Ms. Smith appears to cite Telescope,
in part, because it found that the plaintiffs there had standing
to bring a pre-enforcement challenge to the Accommodation
Clause-type statute., contrary to the finding made by this Court
in this case. To the extent Ms. Smith intends her Notice of
Supplemental Authority to request that the Court reconsider its
September 1, 2017 Opinion and Order addressing Ms. Smith’s
standing to bring her Accommodation Clause challenge, the
Court finds that Ms. Smith’s simple citation to another case is
not sufficient to meaningfully present a motion for
reconsideration.

113a
For the foregoing reasons, the Court finds that the
Defendants are entitled to summary judgment on all
of Ms. Smith’s claims in this action. The Clerk of the
Court shall enter judgment in favor of the Defendants
on all claims and close this case.
Dated this 26th day of September, 2019.
BY THE COURT:

Marcia S. Krieger
Senior United States District Judge

114a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Marcia S. Krieger
Civil Action No. 16-cv-02372-MSK-CBS
303 CREATIVE LLC, and
LORIE SMITH,
Plaintiffs,
v.
AUBREY ELENIS,
ANTHONY ARAGON,
ULYSSES J. CHANEY,
MIGUEL RENE ELIAS,
CAROL FABRIZIO,
HEIDI HESS,
RITA LEWIS,
JESSICA POCOCK, and
PHIL WEISER,1
Defendants.
_________________________________________________
OPINION AND ORDER DENYING MOTION
FOR PRELIMINARY INJUNCTION AND
MOTION FOR SUMMARY JUDGMENT
_________________________________________________

1

The Court sua sponte modifies the caption in this case to reflect
the election of a new Colorado Attorney General since this action
was commenced. Phil Wieser is substituted for Cynthia Coffman
for purposes of the official capacity claims against the Colorado
Attorney General.

115a
THIS MATTER comes before the Court on the
Plaintiffs’ Motion for Preliminary Injunction (# 6) and
the Plaintiffs’ Motion for Summary Judgment (# 48),
the corresponding response and reply briefs, and the
parties’ recent supplemental briefing (# 67, 68).
FACTS
Plaintiff Lorie Smith, through her wholly-owned
company 303 Creative, LLC (“303”), is engaged
generally in the fields of graphic design, website
design, social media management and consultation,
marketing, branding strategy, and website
management training. This case concerns Ms. Smith’s
intention to expand 303’s business into the design of
custom websites for customers planning weddings –
that is, websites to keep a couple’s friends and family
informed about the upcoming wedding.
Ms. Smith describes herself as a Christian and
states that her religious beliefs are central to her
identity. She believes that she must use her talents in
a manner that glorifies God and that she must use her
creative talents in operating 303 in a way that she
believes will honor and please him. Consistent with
those beliefs, Ms. Smith desire to limit the scope of
her services. Although she is willing to work with all
people regardless of their race, religion, gender, and
sexual orientation, she “will decline any request to
design, create, or promote content that: contradicts
biblical truth; demeans or disparages others;
promotes sexual immorality; supports the destruction
of unborn children; incites violence; or promotes any
conception of marriage other than marriage between
one man and one woman.” This restriction precludes

116a
provision of wedding website services for same-sex
couples.
Ms. Smith has prepared a proposed statement
(“the Statement”) that she intends to post on 303’s
website to explain 303’s policies: It reads:
I love weddings.
Each wedding is a story in itself, the
story of a couple and their special love
for each other.
I have the privilege of telling the story of
your love and commitment by designing
a stunning website that promotes your
special day and communicates a unique
story about your wedding - from the tale
of the engagement, to the excitement of
the wedding day, to the beautiful life you
are building together.
I firmly believe that God is calling me to
this work. Why? I am personally
convicted that He wants me - during
these uncertain times for those who
believe in biblical marriage - to shine His
light and not stay silent. He is calling me
to stand up for my faith, to explain His
true story about marriage, and to use the
talents and business He gave me to
publicly proclaim and celebrate His
design for marriage as a life-long union
between one man and one woman.
These same religious convictions that
motivate me also prevent me from
creating websites promoting and

117a
celebrating ideas or messages that
violate my beliefs. So I will not be able to
create websites for same-sex marriages
or any other marriage that is not
between one man and one woman. Doing
that would compromise my Christian
witness and tell a story about marriage
that contradicts God’s true story of
marriage-the very story He is calling me
to promote.
Ms. Smith acknowledges that her intended
website activities conflict with Colorado law,
specifically C.R.S. § 24-34-601(2).2 That statute
provides:
It is a discriminatory practice and
unlawful for a person … directly or
indirectly, to publish . . . any written,
electronic, or printed communication,
notice, or advertisement that indicates
that the full and equal enjoyment of the
goods, services, facilities, privileges,
advantages, or accommodations of a
place of public accommodation will be
refused, withheld from, or denied an
individual or that an individual’s
patronage or presence at a place of
2

An earlier iteration of Ms. Smith’s claims also challenged a
separate provision of C.R.S. § 24-34-601(2), insofar as that
statute prohibits persons from refusing to provide services to an
individual or group because of, among other things, sexual
orientation (the “Accommodation Clause”). Claims relating to
the Accommodation Clause were dismissed by this Court on
standing grounds.

118a
public accommodation is unwelcome,
objectionable, unacceptable, or undesirable because of . . . sexual orientation.
(Hereafter,
the
“Communication
Clause”)
Violations of the Communications Clauses are
enforced administratively by the Colorado Civil
Rights Commission (“CCRC”) and may be
independently prosecuted by the Colorado Attorney
General.
Believing that these provisions of Colorado law
abridge her rights under the U.S. Constitution, Ms.
Smith commenced this action against the Defendants,
the members of the CCRC (in their official capacities),
and against Phil Weiser, Colorado’s current Attorney
General (also in his official capacity). At present, Ms.
Smith asserts a challenge to the Communication
Clause, contending that it violates the Free Speech,
Free Press, and Free Exercise clauses of the First
Amendment to the U.S. Constitution, and the Equal
Protection and Due Process clauses of the Fourteenth
Amendment. Because Ms. Smith has tendered the
specific content of the Statement she intends to post,
the Court treats her claims as asserting an as-applied
challenge.3
3

The CCRC has not given any formal opinion regarding the
legality of Ms. Smith’s proposed Statement nor threatened her
with prosecution if she posts it. In the wake of the Supreme
Court’s ruling and criticism of the CCRC in Masterpiece, it is
unclear what, if any, enforcement action the CCRC would seek
to take if Ms. Smith actually posted her statement. Prior to the
Supreme Court’s ruling in Masterpiece, the Court found (# 52)
that Ms. Smith has standing to challenge the application of the
Communications Clause to her proposed disclaimer. In the

119a
Simultaneously with the Complaint, Ms. Smith
sought a preliminary injunction (#6) to restrain the
CCRC from enforcing the Communication Clause
against her and 303. The parties eventually agreed
that the Motion for Preliminary Injunction should be
determined in conjunction with a determination on
the merits through the mechanism of summary
judgment. Consequently, the Plaintiffs filed their
Motion for Summary Judgment (#48), and the parties
filed stipulated facts (#49). Those facts are deemed
incorporated herein and discussed in more detail
below.
After briefing was completed, the United States
Supreme Court granted certiorari in a case involving
similar facts and legal issues and raising issues of the
constitutionality of the Public Accommodation
Statute. This Court deferred consideration of the
issues in this case, anticipating a dispositive
substantive ruling by the Supreme Court on the
issues presented here. However, in Masterpiece
Cakeshop, Ltd. v. Colorado Civil Rights Com’n,, 138
S.Ct. 1719 (2018), the Supreme Court avoided a
ruling on the merits, returning the case to the lower
courts. In light of the Masterpiece decision (and other
decisions by the Supreme Court during the same
term), the parties filed supplemental briefs (# 67, 68).
The motions for preliminary injunction and summary
judgment motions in this case are now ripe for
determination.
absence of the Defendants tendering additional facts that now
call that ruling into question, the Court will continue to assume,
without necessarily finding, that Ms. Smith’s standing is
sufficient to proceed.

120a
For purposes of this ruling, the Court need only
evaluate Ms. Smith’s summary judgment motion.4
That motion was filed prior to the Court’s dismissal of
any Accommodation Clause challenge, making it
somewhat difficult to extract those remaining
arguments
that
remain
pertinent
to
the
Communication Clause itself. It appears to the Court
that Ms. Smith alleges that: (i) the CCRC’s
anticipated application of the Communication Clause
to her Statement violates the Equal Protection clause
of the 14th Amendment to the U.S. Constitution
because the CCRC does not prosecute similarlysituated businesses expressing different religious
beliefs; (ii) the Communication Clause violates the
Substantive Due Process clause, in that it is vague
and overbroad; (iii) the Communication Clause
violates an otherwise unspecified constitutional right
to “personal autonomy”; (iv) the Communication
clause violates Ms. Smith’s free speech rights in
various ways, in violation of the First Amendment;
and (iv) the Communication Clause constitutes a
substantial burden on Ms. Smith’s free exercise of
religion, as guaranteed by the First Amendment, and
does not survive strict scrutiny.
ANALYSIS
The Court begins by recognizing certain facts that
are not in dispute. As is clear under the Public
Accommodations Law, the Colorado legislature has
determined that discrimination against persons on
4

Because the Court concludes that none of Ms. Smith’s
constitutional challenges have merit, it necessarily follows that
she cannot establish a likelihood of success on the merits
sufficient to support a preliminary injunction.

121a
the basis of sexual orientation is contrary to the public
interest and thus, is prohibited in this state. This case
does not invite this Court to weigh in on whether that
law reflects sound policy or not. Rather, it is simply a
fact: it is an unlawful act for a person to discriminate
against others on the basis of sexual orientation in
Colorado in the circumstances covered by the Public
Accommodations Law.
In addition, it appears to be undisputed that the
act Ms. Smith wishes to engage in – posting the
Statement on her website –would violate the
Communication Clause. Ms. Smith concedes that the
Statement “indicates that the full and equal
enjoyment of the services” that 303 provides “will be
withheld from [potential customers] because of sexual
orientation” - specifically, that same-sex couples could
not hire 303 to design a website for their wedding,
even though opposite-sex couples could.
The Court also emphasizes that it is not deciding
whether Ms. Smith has a colorable constitutional
right to refuse to provide wedding website services to
same-sex couples. That question implicates the
Accommodation Clause of the Public Accommodations
Law which is not challenged.5 Instead, in this action
the Court is limited to analyzing the constitutionality
of the application of the Communication Clause.
Thus, the analysis is extremely narrow. The Court
assumes the constitutionality of the Accommodation
Clause which prohibits discrimination against same5

The Court has already determined that Ms. Smith lacks
standing to challenge anything other than the Communication
Clause.

122a
sex couples in the creation of wedding websites.6 The
only question presented at this juncture is whether
the Communication Clause unconstitutionally
prohibits Ms. Smith from posting the Statement,
which promises (or, if one would prefer, threatens)
prospective customers that she will refuse service to
customers who wish her to create a wedding website
for a same-sex wedding.
As to this issue the parties have stipulated to all
pertinent facts, the Court applies the law to those
facts to render a determination on the Plaintiffs’
summary judgment motion. Fed. R. Civ. P. 56(a).
A. Summary judgment standard
Rule 56 of the Federal Rules of Civil Procedure
facilitates the entry of a judgment only if no trial is
necessary. See White v. York Intern. Corp., 45 F.3d
357, 360 (10th Cir. 1995). Summary adjudication is
authorized when there is no genuine dispute as to any
material fact and a party is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a). Substantive law
governs what facts are material and what issues must
be determined. It also specifies the elements that
must be proved for a given claim or defense, sets the
standard of proof and identifies the party with the
burden of proof. See Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986); Kaiser-Francis Oil Co. v.
Producer’s Gas Co., 870 F.2d 563, 565 (10th Cir.
6

Whether Ms. Smith would adhere to the representations in
the Statement by refusing to actually provide website services to
same-sex couples if requested is irrelevant. A violation of the
Communication Clause occurs upon the posting of the offending
notice or advertisement.

123a
1989). A factual dispute is “genuine” and summary
judgment is precluded if the evidence presented in
support of and opposition to the motion is so
contradictory that, if presented at trial, a judgment
could enter for either party. See Anderson, 477 U.S. at
248. When considering a summary judgment motion,
a court views all evidence in the light most favorable
to the non-moving party, thereby favoring the right to
a trial. See Garrett v. Hewlett Packard Co., 305 F.3d
1210, 1213 (10th Cir. 2002).
If the movant has the burden of proof on a claim
or defense, the movant must establish every element
of its claim or defense by sufficient, competent
evidence. See Fed. R. Civ. P. 56(c)(1)(A). Once the
moving party has met its burden, to avoid summary
judgment the responding party must present
sufficient, competent, contradictory evidence to
establish a genuine factual dispute. See Bacchus
Indus., Inc. v. Arvin Indus., Inc., 939 F.2d 887, 891
(10th Cir. 1991); Perry v. Woodward, 199 F.3d 1126,
1131 (10th Cir. 1999). If there is a genuine dispute as
to a material fact, a trial is required. If there is no
genuine dispute as to any material fact, no trial is
required. The court then applies the law to the
undisputed facts and enters judgment.
If the moving party does not have the burden of
proof at trial, it must point to an absence of sufficient
evidence to establish the claim or defense that the
non-movant is obligated to prove. If the respondent
comes forward with sufficient competent evidence to
establish a prima facie claim or defense, a trial is
required. If the respondent fails to produce sufficient
competent evidence to establish its claim or defense,
then the movant is entitled to judgment as a matter

124a
of law. See Celotex Corp. v. Catrett, 477 U.S. 317, 32223 (1986).
Except as may be noted below, Ms. Smith
generally bears the initial burden of making a prima
facie showing that the Communication Clause
infringes upon the various constitutional rights she
invokes. In certain circumstances, such a showing
shifts the burden of proof to the Defendants to defend
the constitutionality of the statute.
B. Equal Protection Clause
The Equal Protection Clause of the 14th
Amendment requires the state to treat similarlysituated persons similarly, or to provide a sufficient
justification for any dissimilar treatment. As a result,
an essential element of a claim of an Equal Protection
violation is a showing that the plaintiff was similarlysituated to those persons that were treated more
favorably. To be “similarly-situated,” the plaintiff’s
position must be identical to the comparators “in all
relevant respects,” a particularly fact-intensive
inquiry. Grissom v. Roberts, 902 F.3d 1162, 1173
(10th Cir. 2018).
Ms. Smith contends that the CCRC “ha[s] applied
[the Communication Clause] only to expressive
business owners like [herself] that disfavor messages
promoting same-sex marriage,” but, in contrast, has
refused to cite business who refused requests by
customers to produce products bearing a pro-religious
message. Specifically, Ms. Smith points to:
• The fact that “the only business that [the CCRC
has] prosecuted for declining to create speech

125a
promoting an unwelcome message is a Christian
Bakery” – that is, Masterpiece Cake Shop.
• That the CCRC refused to prosecute several
complaints by a patron whose requests to “secular
cake artists” to create cakes with messages criticizing
same-sex marriage, promoting white supremacist
messages, and denigrating the Koran were denied.
• That the CCRC “does not apply [the Communications Clause] to expressive business owners that
strongly advocate the acceptance of same-sex
marriage and whose messages directly or indirectly
indicate that requests from religious customers with
opposing beliefs would be unwelcome or denied.” The
evidence Ms. Smith cites in support of this contention
is a website of a Colorado photographer whose
webpage included photographs from a same-sex
wedding, along with text that states that praises the
couple involved and states that “it’s just unfortunate
government & religion has not always recognized
[same-sex marriage].”
None of the situations identified by Ms. Smith in
her briefing involve comparators who are “similarlysituated” to her in all of the pertinent respects. Her
citations to the CCRC’s prosecution of Masterpiece
Cake Shop, and its refusal to prosecute other bakers
who refused to bake particular cakes, do not implicate
the Communication Clause, the sole portion of
Colorado law that Ms. Smith challenges here.
Situations in which a commercial entity actually
refused service to a customer implicate the
Accommodation Clause, but the Court has dismissed
Ms. Smith’s Accommodation Clause challenge. Ms.
Smith’s claims here are limited to challenges under

126a
the Communication Clause, and she has not shown
that the bakers she refers to “publish[ed]” any “notice
or advertisement” like the Statement, indicating that
certain classes of individuals would be denied the full
enjoyment of those bakers’ services. Thus, she is not
similarly-situated to those bakers for purposes of an
Equal Protection challenge to the Communication
Clause.
She is also not similarly-situated to the
photographer
whose
website
promotes
her
willingness to photograph same-sex weddings. The
photographer’s website’s praise of same-sex weddings
gives no indication whatsoever that the photographer
would refuse to photograph an opposite-sex wedding
(or, for that matter, a wedding between two religious
adherents).7 Because the Communication Clause is
only concerned with advertisements or messages that
threaten to refuse services on discriminatory grounds,
nothing in the photographer’s website would violate
the Communication Clause in any way. Ms. Smith’s
own proffered Statement is unambiguous in stating
that Ms. Smith intends to refuse her services to samesex couples: “I will not be able to create websites for
same-sex marriages.”8 Thus, Ms. Smith is not

7 Although Ms. Smith’s affidavit refers only to selected portions
of the photographer’s website highlighting same-sex weddings, a
review of the photographer’s “Portfolio” page shows that she has
photographed the weddings of numerous opposite-sex couples.
8

Because Ms. Smith brings this case as an as-applied challenge,
the Court will not speculate as to whether the outcome might be
different if Ms. Smith’s proposed Statement limited itself to
reciting her faith in general terms, without stating an express or
implied intention to refuse service to certain categories of

127a
similarly-situated to the photographer. In the absence
of evidence that a similarly-situated comparator has
received more favorable treatment than Ms. Smith
anticipates, the Defendants are entitled to summary
judgment on her Equal Protection claim.
C. Due Process Clause
Ms. Smith articulates two theories as to how the
Communication Clause violates her rights under the
Substantive Due Process Clause.9
The Court summarily rejects Ms. Smith’s first
challenge, which asserts that the Communication
Clause is void for vagueness because its prohibition
against notices or advertisements that indicate that a
putative customer’s patronage or presence “is
unwelcome,
objectionable,
unacceptable,
or
undesirable” uses concepts that are so ill-defined as to
invite the risk of arbitrary and discriminatory
enforcement by the CCRC. Although the Court is
unpersuaded by this argument, it need not reach it.
Even if the Court were to agree that the quoted
language in the Communication Clause were
unconstitutionally vague and struck it, the remaining
unchallenged portion of the Communication Clause
would still suffice to render Ms. Smith’s Statement
unlawful. As noted above, Ms. Smith’s Statement
unambiguously states that she intends to deny
individuals. The Court examines only the Statement in its
entirety as tendered.
9

Although her briefing refers to asserting Procedural Due
Process claims as well, none of her theories fit squarely within
that rubric. Thus, the Court has evaluated her arguments
through the lens of the Substantive Due Process clause only.

128a
certain services to individuals preparing for a samesex wedding. Because unambiguous provisions of the
Communication Clause clearly proscribe the message
Ms. Smith seeks to convey, she cannot successfully
challenge some other portion of the Communication
Clause on vagueness grounds. See Expressions Hair
Design v. Schneiderman, 137 S.Ct. 1144, 1151 (2017).
Ms. Smith’s second argument is less well-defined,
seemingly assembled from selective snippets
extracted, without context, from various Supreme
Court opinions. She asserts that she has a
constitutionally-guaranteed “right to own and operate
her own expressive business,” and that the
Communication Clause deprives her of that right. Her
sources for such a claim are off-point. First, quoting
Board of Regents v. Roth, 408 U.S. 564, 572 (1972),
she argues that the Fourteenth Amendment confers
upon her a constitutional right “to engage in any of
the common occupations of life . . . and to worship God
according to the dictates of [her] own conscience.” The
quoted passage is mere dicta, listing a variety of the
rights that the Supreme Court has found to be
secured by the concept of “liberty” guaranteed by the
14th Amendment; it also includes “the right of the
individual to contract, . . . to acquire useful
knowledge, to marry, establish a home and bring up
children,” and others. Roth certainly does not stand
for the proposition that the 14th Amendment
guarantees individuals the right to operate a business
constrained only by their religious beliefs; rather,
Roth held that a non-tenured university professor had
no constitutionally-guaranteed interest in continued
employment or renewal of his teaching contract,

129a
absent a showing that the state had stigmatized him
or restricted his ability to obtain other work.
She also cites Reno v. Flores, 507 U.S. 292, 301-02
(1993), for the proposition that “when the government
infringes upon such liberty interests” – presumably
the interest in engaging in an occupation and
worshipping God – “courts apply strict scrutiny.”
Flores does state that strict scrutiny review applies to
governmental infringements on “certain fundamental
liberty interests,” but the very next sentence of Flores
is even more germane here. It emphasizes that a
Substantive Due Process analysis “must begin with a
careful description of the asserted right, for the
doctrine of judicial self-restraint requires us to
exercise the utmost care whenever we are asked to
break new ground in this field.” Id. Flores refused to
find that juvenile immigration detainees who lacked
available relatives had a constitutionally-guaranteed
right to be released to the custody of other private
custodians, rather than being detained in state childcare institutions. It further noted that “the mere
novelty of such a claim is reason enough to doubt that
substantive due process sustains it.” Id. at 303. Thus,
to the extent Flores has some relevance to this case, it
is not in support of Ms. Smith’s vague invocation of a
constitutional right to engage in a business that
follows her religious beliefs instead of state law.
Indeed, Flores suggests that the Court should exercise
restraint in recognizing new constitutional rights
worthy of protection under the Substantive Due
Process clause. It is not enough to cobble together an
asserted constitutional right from isolated sentences
and clauses found scattered among various Supreme
Court cases, and thus, the Court finds that Ms.

130a
Smith’s vaguely-defined Substantive Due Process
claim invoking her right to operate an “expressive
business” constrained only by “the dictates of her own
conscience” fails.
D. “Personal autonomy”
Ms. Smith’s briefing also detours into an illdefined claim that the Communication Clause
infringes upon a judicially-recognized “right of
citizens to have dignity in their own distinct identity,”
citing Obergefell v. Hodges, 135 S.Ct. 2584, 2596
(2015). She argues that if cases like Obergefell can
afford constitutional protection to “certain personal
choices central to individual dignity and autonomy,
including intimate choices that define personal
identity and belief,” that same rationale should apply
to protect “identity grounded in sincerely held
religious beliefs” as well. The problem with this
argument is that the Constitution already affords
protections to religious beliefs pursuant to the Free
Exercise and Establishment Clauses. There is little
need to contort the principles underlying Obergefell –
a case recognizing that the fundamental right to
marry extends to same-sex marriages – into a new
right protecting religious exercise when such
protections exist within the First Amendment.
Accordingly, to the extent any of Ms. Smith’s claims
invoke this claimed constitutional right to “personal
autonomy” or “personal identity,” they duplicate her
other First Amendment challenges.
E. Free Speech
Ms. Smith offers several arguments as to why the
Communication Clause violates the guarantee of Free
Speech contained in the First Amendment. Several of

131a
those arguments, proffered before the Court
dismissed her challenge to the Accommodation
Clause, are no longer viable. For example, her
argument that Colorado law impermissibly compels
her to speak when she would prefer to remain silent
might have been cognizable as a challenge to the
Accommodation Clause – that is, if a customer had
actually asked her to create a same-sex wedding
website and she refused – but one can hardly say that
the Communication Clause compels her to speak. To
the contrary, the Communication Clause prohibits
Ms. Smith from engaging in the very speech she
wishes to engage in: posting her Statement. Thus, the
Court ignores Ms. Smith’s arguments that are not
germane to the Communication Clause. Similarly,
Ms. Smith offers extensive argument as to whether
her creation of wedding websites, like the creation of
cakes in Masterpiece, is itself expressive conduct
entitled to constitutional protection. Again, because
this case has been narrowed to address only the
Communication Clause, the Court does not reach that
issue. The sole question before this Court concerns the
Statement that Ms. Smith wishes to post on 303’s
website. Thus, the Court turns to those arguments by
Ms. Smith that are germane to that limited issue.
1. Content-neutrality
Ms. Smith’s first pertinent argument is that the
Communication Clause acts as an impermissible
content-related restriction on her proposed speech in
the Statement. As a general rule, the government is
prohibited from regulating speech based upon its
content or the particular message it conveys. Such
content-based
restrictions
are
presumptively
unconstitutional, and the government bears the

132a
burden of showing that they are narrowly-tailored to
serve compelling governmental interests. National
Institute of Family and Life Advocates v. Becerra, 138
S.Ct. 2361, 2371 (2018); R.A.V. v. City of St. Paul, 505
U.S. 377, 382-83 (1992).
However, the Supreme Court has recognized that
the government may engage in a content-based
restriction to prohibit speech that proposes an illegal
act or transaction. In Pittsburgh Press Co. v. Human
Relations Commn., 413 U.S. 376 (1973), the City of
Pittsburgh’s Human Relations Ordinance prohibited,
among other things, discrimination in employment on
the basis of sex. In furtherance of that proscription,
the city’s Human Relations Commission promulgated
an ordinance that prohibited employers from
“publish[ing] or circulat[ing] any notice or advertisement relating to employment . . . which indicates any
discrimination because of sex,” and further prohibited
any person from assisting an employer in doing any
act that violated the ordinance. The Commission
prosecuted a newspaper publisher that published
“help wanted” classified ads that were categorized
separately as jobs of “Male Interest” and “Female
Interest” based on the employer’s specifications. The
newspaper challenged the ordinance as violating the
First Amendment. Id. at 378-80.
The Supreme Court rejected the newspaper’s
First Amendment challenge. It stated that “we have
no doubt that a newspaper constitutionally could be
forbidden to publish a want ad proposing a sale of
narcotics or soliciting prostitutes.” It conceded that
unlawful sex discrimination might be “less overt”
than those examples, but no different in principle:
such discrimination was prohibited by the ordinance

133a
and the legality of such a prohibition was not subject
to challenge in the case. The Court held that “[a]ny
First Amendment interest which might be served by
advertising an ordinary commercial proposal and
which might arguably outweigh the governmental
interest supporting the regulation is altogether
absent when the commercial activity itself is illegal
and the restriction on advertising is incidental to a
valid limitation on economic activity.” Id. at 388-89.
More recently, the Supreme Court hinted that
this same line of analysis remains viable (albeit under
a somewhat different rubric). In R.A.V., the Court
implied that “sexually derogatory ‘fighting words’”
could be regulated by the government because they
“may produce a violation of Title VII’s general
prohibition against sexual discrimination in
employment practices.” 505 U.S. at 389-90. R.A.V.
suggested that such a regulation would be valid under
the Court’s “secondary effects” jurisprudence – that
[w]here the government does not target conduct on
the basis of its expressive content, acts are not
shielded from regulation merely because they express
a discriminatory idea or philosophy.” Id.
These cases suggest that the Communication
Clause,
although
nominally
content-based,
nevertheless survives constitutional scrutiny (so long
as the Accommodation Clause is constitutional, which
this Court assumes it is for purposes of this ruling).
Much as the extant law in Pittsburgh Press prohibited
sex discrimination, it is undisputed here that
Colorado law prohibits discrimination on the basis of
sexual orientation in the provision of public
accommodations like those provided by 303. Thus,
Ms. Smith’s Statement expressing her intention to

134a
engage in such discrimination, like the newspaper’s
advertising of sex-segregated jobs, is a statement
promoting an act that is illegal. Pittsburgh Press
makes clear that the government’s ability to regulate
unlawful economic activity allows it to prohibit
advertisements of this type, even if it must do so by
defining the prohibited message based on its content.
R.A.V. reinforces this idea: the government may
prohibit speech that would violate duly enacted antidiscrimination laws, even if it does so by reference to
the speech’s content, because the government’s target
is not the speech’s “expressive content” but rather its
tendency to cause the prohibited discrimination. The
same concerns clearly underlie the Communications
Clause here: the CCRC is not targeting Ms. Smith
because of the expressive content of her Statement –
that is, her professed love of weddings or even her
belief that God calls her to make wedding websites. It
targets her because her express statement that she
“will not . . . create websites for same-sex marriages”
is a specific promise to engage in unlawful
discrimination against customers based on their
sexual orientation.10 In such circumstances, the
analysis of Pittsburgh Press (and the dicta of R.A.V.)
make clear that the Communication Clause does not
run afoul of the Free Speech clause of the First
Amendment.
2. Overbreadth
Ms. Smith also makes a somewhat unclear
argument that the Communication Clause is over10

Once again, this Court expresses no opinion as to whether a
differently-worded Statement might be analyzed differently.

135a
broad because it potentially applies to “newspapers,
book publishers, printers, web designers, and other
creative professionals who deal in pure speech.” She
argues that these types of businesses – presumably of
which she considers 303 to be one – “have the
constitutional right to (1) create speech that accords
with their beliefs; (2) solicit the expressive work they
desire, and (3) decline to create speech with which
they disagree.”
This argument fails to hit the Communication
Clause target. The Communication Clause simply
prohibits Ms. Smith from stating that she will not
provide 303’s wedding website services to same-sex
couples. It does not prohibit her form “solicit[ing]
expressive work” – presumably wedding websites –
generally, nor does it appear to prohibit her from
“creat[ing] speech that accords with” her love of God
or her view of the significance of marriage. And, as
noted above, noting in the Communication Clause
compels her to “create” any speech that she might
disagree with, it simply prevents her from stating her
intention to unlawfully discriminate. As such, the
Court sees no colorable overbreadth challenge that
Ms. Smith can bring against the Communication
Clause.
3. Free speech vs. Nondiscrimination laws
Finally, Ms. Smith argues that “where free speech
and nondiscrimination laws come into conflict, free
speech wins,” and thus, the Court should strike down
any anti-discrimination law, including the Communications Clause, that purports to prohibit or regulate
otherwise expressive speech. Pithy as it may be, Ms.

136a
Smith’s argument is not an accurate statement of the
law.
Cases like Pittsburgh Press make clear that the
government’s interest in eradicating unlawful
discrimination trumps the free speech rights of a
person who wishes to advertise their willingness to
unlawfully discriminate. Similarly, statutes like Title
VII may expose a speaker or employer to liability for
engaging in discriminatory remarks or comments
that could be argued to constitute protected First
Amendment speech, yet no court has ever declared
that Title VII must yield to a speaker’s constitutional
right to utter discriminatory speech in the workplace.
In Hishon v. King & Spalding, 467 U.S. 69, 78 (1984),
an employer accused of discriminating against female
candidates for partnership argued that Title VII’s
anti-discrimination policies violated its First
Amendment right to freedom of association. The
Supreme Court disagreed, explaining that “invidious
private discrimination may be characterized as a form
of exercising freedom of association protected by the
First Amendment, but it has never been accorded
affirmative constitutional protections.” See also Baty
v. Willamette Industries, Inc., 172 F.3d 1232, 1246
(10th Cir. 1999) (“ Title VII, in general, does not
contravene the First Amendment”); R.A.V., supra
(acknowledging that Title VII’s anti-discrimination
requirements might justify content-based restrictions
on otherwise-protected speech).
To be sure, there have been occasions where First
Amendment speech or associational rights have been
found to prevail over the application of state antidiscrimination laws. In Hurley v. Irish-American Gay,
Lesbian and Bisexual Group of Boston, 515 U.S. 557

137a
(1995), the Supreme Court weighed the tension
between a state law requiring non-discrimination on
the basis of sexual orientation in public
accommodations and the free expression rights of the
organizers of a St. Patrick’s Day parade who refused
to allow a unit of gay and lesbian marchers to
participate. The trial court ruled in favor of the
marchers, ordering the organizers to allow the
marchers in the parade. On appeal, the Supreme
Court reversed. It drew a careful distinction between
the public accommodation of the parade itself – which
gay and lesbian individuals could participate in as,
say, members of marching bands or other social
groups invited to march – and the organizers’
message embodied by the parade as a whole. “The
state courts’ application of the statute had the effect
of declaring the sponsors’ speech itself to be the public
accommodation,” the Court explained, such that “any
contingent of protected individuals with a message
would have the right to participate in petitioners’
speech.” Doing so would deprive the organizers of the
ability to choose the content of the message the
parade was to convey. 515 U.S. at 573. The Court
acknowledged that the anti-discrimination law in
question served a valuable purpose in ensuring that
gay and lesbian individuals would have equal access
to public accommodations, but held that it could not
be applied to expressive activity where “its apparent
object is simply to require speakers to modify the
content of their expression to whatever extent
beneficiaries of the law choose.” Id. at 578.
But Hurley acknowledges limits in application of
its teachings. It notes that “the State may at time
prescribe what shall be orthodox in commercial

138a
advertising by requiring the dissemination of purely
factual and uncontroversial information,” expressly
citing Pittsburgh Press, among others. 515 U.S. at
573. Hurley states that “outside that context” –
commercial advertising – the government “may not
compel affirmance of a belief with which the speaker
disagrees,” implicitly suggesting that within the
realm of commercial advertising, the state may
require a speaker to acknowledge the state’s nondiscrimination objectives (even if the speaker does not
subjectively believe in them). Id. Here, the
Communications Clause is expressly directed at
advertising and other written promotional messages
concerning public accommodations and services.
Measured by the Supreme Court’s reasoning, Ms.
Smith’s claims fall within the ambit of Pittsburgh
Press analysis, rather than that found in Hurley. As
explained above, Pittsburgh Press holds that an
advertiser’s speech rights must yield to the state’s
anti-discrimination interests. Because Ms. Smith’s
posting of the Statement occurs in the context of
advertising or promoting the business of 303 (and not,
say, in Ms. Smith’s own private website or social
media page), the same result applies. Thus, Ms.
Smith’s free speech challenge to the Communication
Clause fails.
F. Free Exercise
Finally, the Court comes to that portion of the
First Amendment that guarantees Ms. Smith the
right to engage in the free exercise of her religious
beliefs. The Court accepts as true that Ms. Smith’s
objections to same-sex marriage derive from her
religious beliefs and are sincerely held. The Court will
also assume (without necessarily finding) that the

139a
Communication Clause’s prohibition against Ms.
Smith announcing the effects of her religious beliefs
via 303’s advertising constitutes a substantial burden
on Ms. Smith’s exercise of her religious beliefs.
The level of scrutiny applied to a state law like the
Communications Clause depends on whether the law
is one of general applicability whose burden on
religious exercise is only incidental or whether the
law is one that specifically seeks to regulate conduct
because of that conduct’s religious motivation. That
distinction is aptly demonstrated by Employment
Division v. Smith, 494 U.S. 872 (1990) and Church of
the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508
U.S. 520 (1993).
In Smith, the plaintiff was an adherent of the
Native American Church. He participated in rituals
of that church that included followers ingesting
peyote, a psychedelic plant that was regulated by
federal and state law as a controlled substance. When
his employer, a drug rehabilitation organization,
learned of his peyote use, it terminated his employment. The plaintiff then applied for unemployment
benefits from the State of Oregon, but the state found
that his unlawful use of a controlled substance
constituted “misconduct” that disqualified him from
receiving such benefits. The plaintiff sued the state,
arguing that denial of benefits violated his free
exercise rights under the First Amendment. In
assessing the interplay between the state law
prohibiting the use of controlled substances and the
plaintiff’s use of peyote in exercise of his religious
beliefs, the Supreme Court began by recognizing that
a state would likely be violating the First Amendment
if it prohibited certain acts – such as the use of a

140a
particular substance – “only when they are engaged
in for religious reasons or only because of the religious
belief that they display.” 494 U.S. at 877-78
(emphasis added). But it drew a distinction between
that situation and a state law requiring “an
individual to observe a generally applicable law that
requires (or forbids) the performance of an act that his
religious beliefs forbid (or requires).” Id. at 878. In the
latter situation, the Court explained, “prohibiting the
exercise of religion . . . is not the object of the [law] but
merely the incidental effect of a generally applicable
and otherwise valid provision.” Id. Because the
prohibition on the use of peyote was a law of general
applicability, applying to all persons in Oregon and
enacted for reasons unrelated to religious
suppression, the Court affirmed the denial of benefits
to Mr. Smith, even though the law had the incidental
effect of suppressing his religious exercise. Put
differently, the Court refused to grant Mr. Smith a
religious exemption to an otherwise valid law of
general applicability.
In Lukumi, the religion in question was Santeria,
a faith whose rituals included the practice of animal
sacrifice. When members of the church announced an
intention to found a house of worship in the city of
Hialeah, Florida, city officials expressed “concern . . .
that certain religions may propose to engage in
practices which are inconsistent with public morals,
peace, and safety.” Thereafter, the city enacted
several ordinances that prohibited, among other
things, the killing of an animal “in a public or private
ritual or ceremony not for the primary purpose of food
consumption.” The church sued to overturn the
ordinances as a violation of its free exercise rights.

141a
The Supreme Court summarized its prior rule in
Smith as stating that “a law that is neutral and of
general applicability need not be justified by a
compelling governmental interest even if the law has
the incidental effect of burdening a particular
religious practice.” 508 U.S. at 531. But it held that a
law that was not both “of general applicability” and
“neutral” would be subject to strict scrutiny, requiring
the government to demonstrate a compelling interest
and narrow tailoring. The Court found that the
ordinances in question were not “neutral,” because
they were specifically directed at animal sacrifices
because of their religious motivation, hence the city’s
use of words like “ritual” and “sacrifice.” The Court
also found that the law was not one of “general
applicability,” because they were carefully drafted
only to target religiously-motivated animal killings
and not, say, animal killings resulting from sport
fishing and the euthanizing of stray animals. Thus,
the Court held that the ordinances should be subject
to strict scrutiny and, upon such scrutiny, struck
them down.
Here, there Communication Clause is both
neutral and of general applicability. Unlike the
ordinances in Lukumi, there is no suggestion that it
is not neutral – that is, that it was specifically enacted
in response to and with the purpose of frustrating
anyone’s religious exercise. In 2008, the Colorado
legislature added sexual orientation as a prohibited
basis for discrimination in Colorado’s existing antidiscrimination framework governing public accommodations, housing, employment, club licensing, juror
service, and various other incidents of daily life. 2008
Colo. Legis. Serv. Ch. 341 (S.B. 08-022). The parties

142a
have not proffered any legislative history that
addresses the reasons for the legislature’s actions in
2008, although it is notable that Section 1 of S.B 08200 provides that “the general assembly hereby finds,
determines, and declares that nothing in this act is
intended to impede or otherwise limit the protections
contained in section 4 of article II of the state
constitution concerning the free exercise and
enjoyment of religious profession and worship,”
suggesting that the legislature’s goal was not to
suppress religious exercise.
Moreover, the Communications Clause has
general applicability, regulating the statements that
discriminate against same-sex couples regardless of
whether such statements are based on religious or
other beliefs. There is nothing inherent in
discrimination on the basis of sexual orientation that
suggests that such a practice is necessarily linked to
a particular religion or with religion itself. The
Communications Clause is equally applicable to
sexual orientation discrimination that arises from
purely secular prejudices – for example based on fears
that homosexuals will transmit HIV/AIDS, will
transmit homosexuality itself, will attempt to
“convert” heterosexuals to a “gay lifestyle”, will
engage in pederasty or rape or other forms of sexual
licentiousness, will cause society’s extinction because
they do nor reproduce, and so on. Such views can exist
independently from any religious belief. Thus, a law
that seeks to eradicate sexual orientation discrimination is not inherently a law that targets religious
exercise; rather, it is a law of general applicability
that only incidentally affects those whose opposition

143a
to same-sex marriage springs from religious, not
merely secular, objections.
Neutral laws of general applicability will be
upheld against First Amendment challenge if the
government demonstrates that the law is rationally
related to a legitimate governmental interest. Grace
United Methodist Church v. City of Cheyenne, 451
F.3d 643 (10th Cir. 2006). Ms. Smith does not contend
that the Communication Clause does not satisfy this
deferential standard. Indeed, states have a
paramount interest in protecting historicallydisfavored groups from discrimination in the
provision of public services.11 See e.g. R.A.V., 505 U.S.
at 395 (stating that “we do not doubt” that the state
interests in “ensur[ing] the basic human rights of
members of groups that have historically been
subjected to discrimination . . . are compelling”);
Board of Directors of Rotary Intl. v. Rotary Club of
Duarte, 481 U.S. 537, 549 (1987) (recognizing
compelling
state
interest
in
“eliminating
discrimination against women”). If the state’s interest
in preventing discrimination on the basis of sexual
orientation is compelling, it necessarily must follow
that the state has a similarly-compelling interest in
preventing persons or businesses from threatening to
do that which the law prohibits. For example, the
11

Ms. Smith has not argued that the State of Colorado’s
decision to extend antidiscrimination protection on the basis of
sexual orientation presents a less compelling governmental
interest than does extending anti-discrimination protections to
other protected classes. Cases like Obergefell and Lawrence v.
Texas, 539 U.S. 558 (2003), make it abundantly clear that samesex couples enjoy the same rights to equal protection of the laws
as others.

144a
state’s interest in prohibiting businesses from
engaging in racial discrimination would be rendered
a mockery if businesses could nevertheless post a
“WHITES ONLY” sign near the entrance to the
business with the intent of discouraging patronage,
even if the proprietors agreed to admit any minority
individuals who dared to ignore the sign and seek
entrance. Thus, the Court finds that the
Communication Clause is supported by an important
(indeed, compelling) state interest in discouraging
discrimination against protected groups. For the
same reasons, the Court also finds that the
Communication Clause is rationally related to the
state’s interest in discouraging discrimination in the
provision of public accommodations and business
services.12

12

Were the Court to instead apply strict scrutiny analysis to
the Communication Clause, as Ms. Smith proposes it should, its
conclusion would remain the same. The state’s interest in
discouraging discrimination in public services is not only
important, it is also compelling. Although the parties offer a
minimal factual record on this point, the Court is hard-pressed
to conceive of a less-restrictive means by which the state could
serve that interest than by prohibiting business owners from
advertising their intention to engage in acts of discrimination
that are prohibited by law.
Ms. Smith proposes that Colorado could impose lessrestrictive measures by, say, applying the Communication
Clause only to threats by business owners to discriminate in
providing employment, rather than other services. (Ms. Smith
distinguishes between “the means by which citizens support
their families” and “pure luxur[ies]” such as wedding websites.)
But in doing so, she ignores the scope of the Accommodation
Clause. The state’s compelling interest in it is to ensure that
citizens can access all types of public accommodations without
discrimination. It makes no distinction between necessary and

145a
Accordingly, Ms. Smith cannot show that the
Communication Clause violates her free exercise
rights under the First Amendment.
G. Order to Show Cause
Pursuant to Fed. R. Civ. P. 56(f), where
consideration of a motion for summary judgment
appears to indicate that not only should the motion be
denied but that it may also be appropriate to enter
judgment in favor of the non-movant, the Court
should give the parties notice and an opportunity to
be heard as to why such judgment should not be
entered.

luxury services. Because the Court must assume its
constitutionality, and it is evident that the Communications
Clause is designed to serve the same purposes, the measures
that Ms. Smith suggests would be impermissibly narrow.
Ms. Smith also suggests that the state does not need a
Communication Clause for industries where there are many
competing providers and “powerful market forces weigh in favor”
of those businesses providing services without discrimination. In
short, Ms. Smith suggests that because there are many wedding
website providers who don’t discriminate on the basis of sexual
orientation, same-sex couples would not be harmed if only she
(and presumably like-minded website creators) were allowed to
promote their intention to do so. As the Court explained in
Fulton v. City of Philadelphia, ___ F.3d ___, 2019 WL 1758355
(3d. Cir. Apr. 22, 2019), “[t]he government’s interest lies not in
maximizing the number of establishments that do not
discriminate against a protected class, but in minimizing—to
zero—the number of establishments that do.” Thus, exempting
Ms. Smith from the Communication Clause simply because she
is one of only a few business owners that wish to engage in
unlawful discrimination is not a less-restrictive means of
achieving the state’s compelling interest in eradicating
discrimination altogether.

146a
Here, the parties represented to the Court on
January 11, 2017 that all of the pertinent evidence
necessary for resolving the motions for injunctive
relief and summary judgment were undisputed and
that the matters could be decided entirely on briefs.
Having now had the opportunity to consider the
parties’ stipulated facts, and in light of the analysis
above, it would appear to the Court that it is
appropriate to enter summary judgment in favor of
the Defendants on all claims. Accordingly, within 21
days of this Order, the Plaintiffs shall show cause why
summary judgment should not be entered in favor of
the Defendants.
CONCLUSION
For the foregoing reasons, the Court DENIES the
Plaintiffs’ Motion for Preliminary Injunction (# 6) and
Motion for Summary Judgment (# 48).
Dated this 17th day of May, 2019.
BY THE COURT:

Marcia S. Krieger
Senior United States District Judge

147a
FILED
United States Court of Appeals
Tenth Circuit
August 14, 2018
Elisabeth A. Shumaker
Clerk of Court
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
______________________________
303 CREATIVE LLC, a limited
liability company; LORIE
SMITH,
Plaintiffs – Appellants,
v.
AUBREY ELENIS, Director of
the Colorado Civil Rights
Division, in her official
capacity; ANTHONY ARAGON,
member of the Colorado Civil
Rights Commission, in his
official capacity; ULYSSES J.
CHANEY, member of the
Colorado Civil Rights
Commission, in his official
capacity; MIGUEL RENE
ELIAS, member of the Colorado
Civil Rights Commission, in his

No. 17-1344
(D.C. No. 1:16cv-02372-MSKCBS)
(D. Colo.)

148a
official capacity; CAROL
FABRIZIO, member of the
Colorado Civil Rights
Commission, in her official
capacity; HEIDI HESS,
member of the Colorado Civil
Rights Commission, in her
official capacity; RITA LEWIS,
member of the Colorado Civil
Rights Commission, in her
official capacity; JESSICA
POCOCK, member of the
Colorado Civil Rights
Commission, in her official
capacity; CYNTHIA H.
COFFMAN, Colorado Attorney
General, in her official capacity,
Defendants – Appellees
---------------------------------*****
_______________________________
ORDER AND JUDGMENT*
_______________________________
After examining the briefs and appellate record, this panel
has determined unanimously that oral argument wouldn’t
materially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and
judgment isn’t binding precedent, except under the doctrines of
law of the case, res judicata, and collateral estoppel. But it may
be cited for its persuasive value. See Fed. R. App. P. 32.1; 10th
Cir. R. 32.1.
*

149a
Before McHUGH, KELLY and MORITZ, Circuit
Judges.
_______________________________
Plaintiffs 303 Creative LLC and Lorie Smith sued
various Colorado officials (collectively, the state) to
preempt them from enforcing certain parts of the
Colorado Anti-Discrimination Act (CADA), Colo. Rev.
Stat. § 24-34-601. The plaintiffs say the CADA
interferes with their plan to design wedding websites
for
opposite-sex—but
not
same-sex—couples.
Although there are some pertinent differences, the
facts and legal issues in this case overlap substantially with those in Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Commission, 138 S. Ct. 1719
(2018), which the Supreme Court recently decided.
The plaintiffs in this case moved for a preliminary
injunction below. The district court suggested it
expedite the litigation by ruling on summary
judgment in conjunction with the preliminary
injunction based on stipulated facts. The parties
agreed. The district court then issued an order
dismissing several of the plaintiffs’ claims for lack of
standing. And it decided not to reach the merits of the
plaintiffs’ remaining claims while Masterpiece
Cakeshop was pending before the Supreme Court. It
explained:
The parties have agreed that the case is at
issue and that the Preliminary Injunction
Motion and Motion for Summary Judgment
should be determined together in resolution of
the matters in dispute on the merits.
Although the [p]laintiffs have standing to

150a
challenge [part of the CADA], the [c]ourt
declines to rule on the merits due to the
pendency of Masterpiece Cakeshop . . . before
the United States Supreme Court. As noted,
the factual and legal similarities between
Masterpiece Cakeshop and this case are
striking. It is likely that a determination by
the Supreme Court will either guide
determination of or eliminate the need for
resolution of the issues in this case . . . .
Further, the [c]ourt finds that the parties will
not be prejudiced by delay in resolution of the
issues in this case. The [p]laintiffs are not
currently offering to build wedding websites,
and no evidence has been presented to show
that their financial viability is threatened if
they do not begin offering to do so. Thus, the
[c]ourt denies the Motions for Preliminary
Injunction and Summary Judgment with
leave to renew after ruling by the United
States Supreme Court in Masterpiece
Cakeshop.
App. vol. 3, 375.
The plaintiffs appealed this order. The state
moved to dismiss this appeal for lack of appellate
jurisdiction. We reserved judgment on that motion
and the parties proceeded with their merits briefing.
Then, while this appeal was pending, the Supreme
Court announced its decision in Masterpiece
Cakeshop. We ordered supplemental briefing on how
that decision both affected our appellate jurisdiction
and the merits of this appeal.

151a
Meanwhile, the plaintiffs renewed their motions
for a preliminary injunction and summary judgment
in the district court, as the district court invited them
to do in its original order. The district court also
ordered
supplemental
briefing
addressing
Masterpiece Cakeshop. The parties submitted their
supplemental briefs to the district court the same day
they submitted their supplemental briefs to us.
In light of these developments, we now rule on the
state’s pending motion to dismiss.
Ordinarily, we only have jurisdiction to hear
appeals from final orders in the district court. See 28
U.S.C. § 1291. But the plaintiffs argue we have
jurisdiction in this case under 28 U.S.C. § 1292(a)(1),
which grants us jurisdiction over certain interlocutory
orders, including those that “refus[e] . . . injunctions.”
As they see it, the district court’s order both expressly
and effectively refused their preliminary-injunction
request, so it’s appealable under § 1292(a)(1). The
state urges us to view the order as a temporary stay
that isn’t subject to appeal, especially now that the
stay has expired.
Although we recognize that the district court used
the word “denies” in reference to the plaintiffs’ motion
for a preliminary injunction, App. vol. 3, 375, we agree
with the state that the order is properly characterized
as a stay, see Forest Guardians v. Babbitt, 174 F.3d
1178, 1185 n.11 (10th Cir. 1999) (“The labels of the
plaintiff and the district court cannot be dispositive of
whether an injunction has been requested or
denied.”). After all, the district court expressly
declined to reach the merits of the plaintiffs’
arguments and granted the plaintiffs leave to renew

152a
their motion once the Supreme Court decided
Masterpiece Cakeshop. Nevertheless, the plaintiffs
argue that we had appellate jurisdiction while the
stay was in effect to the extent that the stay “had the
‘practical effect’ of refusing [the] plaintiffs’
injunction.” Forest Guardians, 174 F.3d at 1185
(quoting Carson v. Am. Brands, Inc. 450 U.S. 79, 84
(1981)). But even if this court initially had
jurisdiction, the stay has since expired, and the
appeal is now moot. See Video Tutorial Servs., Inc. v.
MCI Telecomm. Corp., 79 F.3d 3, 5 (2d Cir. 1996) (“An
interlocutory appeal from a temporary stay no longer
in effect . . . is the paradigm of a moot appeal.”).
Moreover, even if we were to read the district
court’s order as refusing the injunction, the district
court effectively vacated that order upon the Supreme
Court’s decision in Masterpiece Cakeshop, and it now
appears ready to reconsider the plaintiffs’ motion for
a preliminary injunction. Thus, this appeal is moot
regardless of how we interpret the district court’s
order. See Primas v. City of Okla. City, 958 F.2d 1506,
1513 (10th Cir. 1992) (dismissing interlocutory appeal
as moot because district court vacated order appealed
from). The plaintiffs’ actions below in renewing their
preliminary-injunction motion and filing supplemental briefing in support of it are inconsistent with
any argument to the contrary. Accordingly, we
conclude that we lack jurisdiction under § 1292(a)(1)
to review the plaintiffs’ preliminary-injunction
motion.
The plaintiffs also seek to appeal the portion of
the district court’s order dismissing some of their

153a
claims for lack of standing.1 They argue we have
pendent appellate jurisdiction over this part of the
order. See Berrey v. Asarco Inc., 439 F.3d 636, 647
(10th Cir. 2006) (“It is appropriate to exercise pendent
appellate jurisdiction . . . where resolution of the
appealable issue necessarily resolves the nonappealable issue, or where review of the nonappealable issue
is necessary to ensure meaningful review of the
appealable one.”). But because we lack appellate
jurisdiction over the portion of the order staying the
preliminary-injunction motion, we cannot exercise
pendent jurisdiction over any other part of the order.
See Shinault v. Cleveland Cty. Bd. of Cty. Comm’rs,
82 F.3d 367, 371 (10th Cir. 1996). And because the
plaintiffs don’t assert an alternative basis for us to
review the partial dismissal, we dismiss the plaintiffs’
appeal in its entirety. See EEOC v. PJ Utah, LLC, 822
F.3d 536, 542 n.7 (10th Cir. 2016) (explaining
appellant has burden of establishing appellate
jurisdiction).
Therefore, even assuming we once had
jurisdiction to hear this appeal, we conclude it is now
moot. Accordingly, we grant the state’s motion to
dismiss this appeal for lack of jurisdiction.
Entered for the Court
Nancy L. Moritz
Circuit Judge

1

The plaintiffs initially appealed the portion of the district
court’s order denying (pending Masterpiece Cakeshop) summary
judgment as well. But they abandoned this part of their appeal
in their supplemental brief.

154a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Marcia S. Krieger
Civil Action No. 16-cv-02372-MSK-CBS
303 CREATIVE LLC, a limited liability
company; LORIE SMITH,
Plaintiffs,
v.
AUBREY ELENIS, Director of the Colorado
Civil Rights Division, in her official capacity;
ANTHONY ARAGON, member of the Colorado
Civil Rights Commission in his official
capacity;
ULYSSES J. CHANEY, member of the Colorado
Civil Rights Commission in his official
capacity;
MIGUEL RENE ELIAS, “Michael” member of
the Colorado Civil Rights Commission in his
official capacity;
CAROL FABRIZIO, member of the Colorado
Civil Rights Commission in her official
capacity;
HEIDI HESS, member of the Colorado Civil
Rights Commission in her official capacity;
RITA LEWIS, member of the Colorado Civil
Rights Commission in her official capacity;
JESSICA POCOCK, member of the Colorado
Civil Rights Commission in her official
capacity;
CYNTHIA H. COFFMAN, Colorado Attorney
General, in her official capacity,
Defendants.

155a
_________________________________________________
ORDER GRANTING IN PART AND DENYING
IN PART MOTION TO DISMISS and DENYING
MOTION FOR PRELIMINARY INJUNCTION
and MOTION FOR SUMMARY JUDGMENT,
WITH LEAVE TO RENEW
_________________________________________________
THIS MATTER comes before the Court on the
Plaintiffs’ Motion for Preliminary Injunction (#6), the
Defendants’ Response (#38), and the Plaintiffs’ Reply
(#40); the Defendants’ Motion to Dismiss (#37), the
Plaintiffs’ Response (#43), and the Defendants’ Reply
(#45); and the Plaintiffs’ Motion for Summary
Judgment (#48), the Defendants’ Response (#50), and
the Plaintiffs’ Reply (#51).
PROCEDURAL HISTORY
Plaintiffs 303 Creative LLC (“303”) and Lorie
Smith filed this action challenging the constitutionality of two clauses of Colorado Revised Statues § 2434-601(2) (“Public Accommodation Statute”). The two
clauses at issue are as follows:
The first clause (“Accommodation Clause”) states,
It is a discriminatory practice and unlawful
for a person, directly or indirectly, to refuse,
withhold from, or deny to an individual or a
group, because of disability, race, creed, color,
sex, sexual orientation, marital status,
national origin, or ancestry, the full and equal
enjoyment of the goods, services, facilities,
privileges, advantages, or accommodations of
a place of public accommodation

156a
The second clause (“Communication Clause”)
states,
It is a discriminatory practice and unlawful
for a person … directly or indirectly, to
publish, circulate, issue, display, post, or mail
any written, electronic, or printed communication, notice, or advertisement that indicates
that the full and equal enjoyment of the goods,
services, facilities, privileges, advantages, or
accommodations of a place of public accommodation will be refused, withheld from, or
denied an individual or that an individual's
patronage or presence at a place of public
accommodation is unwelcome, objectionable,
unacceptable, or undesirable because of
disability, race, creed, color, sex, sexual
orientation, marital status, national origin, or
ancestry.
Colo. Rev. Stat. § 24-34-601(2)(a).
The Complaint actually asserts five claims
challenging the validity of the Communication Clause
under several provisions of the United States
Constitution: the (1) Free Speech Clause, (2) Free
Press Clause, and (3) Free Exercise Clause of the
First Amendment, and (4) the Equal Protection
Clause and (5) Due Process Clause of the Fourteenth
Amendment. The Complaint also asserts four claims
challenging the validity of the Accommodation Clause
under the (1) Free Speech Clause and (2) Free
Exercise Clause of the First Amendment, and the (3)
Equal Protection Clause and (4) Due Process Clause
of the Fourteenth Amendment.

157a
Simultaneously with the Complaint, the
Plaintiffs sought a preliminary injunction (#6) to
restrain the Defendants from enforcing either
statutory provision against them. The Defendants
then moved to dismiss the Plaintiffs’ claims (#37). At
a hearing held on January 11, 2017, the parties
agreed that (1) the Motion for Preliminary Injunction
should be determined in conjunction with a
determination on the merits; and (2) there were no
disputed issues of material fact, no need for discovery,
and this matter should be resolved through summary
judgment. Consequently, the Plaintiffs filed their
Motion for Summary Judgment (#48), and the parties
filed stipulated facts (#49).
However, after briefing was completed on the
Plaintiffs’ Motion for Summary Judgment, the United
States Supreme Court granted certiorari in a case
involving similar facts and legal issues and raising
issues of the constitutionality of the Public
Accommodation Statute. In Craig v. Masterpiece
Cakeshop, Inc., 370 P.3d 272 (Colo. Ct. App. 2015),
cert granted, Masterpiece Cakeshop, Ltd. v. Colo. Civil
Rights Comm’n, 85 U.S.L.W. 3593 (U.S. June 26,
2017) (No. 16-111), a baker, citing religious
objections, declined to bake a wedding cake for a
same-sex couple and was prosecuted under the Public
Accommodation Statute. The issues to be determined
by the Supreme Court in that case are whether
compelling the baker to provide services for a samesex wedding under the Public Accommodation Statute
violates the Free Speech Clause or Free Exercise
Clause of the First Amendment, which are essentially
identical to two of the issues presented in this action.

158a
UNDISPUTED FACTS
The facts in this matter are not in dispute. The
Court offers a brief summary of the pertinent facts
here and elaborates as necessary in its analysis.
303 is a Colorado limited liability company that is
wholly owned and operated by Ms. Smith. Defendant
Aubrey Elenis is the Director of the Colorado Civil
Rights Division. Defendants Anthony Aragon,
Ulysses J. Chaney, Miguel “Michael” Rene Elias,
Carol Fabrizio, Heidi Hess, Rita Lewis, and Jessica
Pocock are members of the Colorado Civil Rights
Commission (“Commission”). Defendant Cynthia H.
Coffman is the Colorado Attorney General.
303 offers services to the general public, including
graphic design, website design, social media
management and consultation, marketing, branding
strategy, and website management training. Ms.
Smith provides these services for 303 without the
assistance of employees or contractors.
Ms. Smith describes herself as a Christian and
states that her religious beliefs are central to her
identity. She believes that she must use her talents in
a manner that glorifies God and that she must use her
creative talents in operating 303 in a way that she
believes will honor and please him.
Consistent with her beliefs, Ms. Smith limits the
scope of services she is willing to provide to 303’s
customers. She is willing to work with all people
regardless of their race, religion, gender, and sexual
orientation, but she “will decline any request to
design, create, or promote content that: contradicts
biblical truth; demeans or disparages others;

159a
promotes sexual immorality; supports the destruction
of unborn children; incites violence; or promotes any
conception of marriage other than marriage between
one man and one woman.”
Although 303 does not currently do so, Ms. Smith
intends to expand its services by offering to build
websites for couples who plan to marry. These
websites would be intended to keep a couple’s friends
and family informed about the upcoming wedding.
Ms. Smith desires to use the websites to “affect the
current cultural narrative regarding marriage”.
Because she believes that marriage is ordained of God
and should only be between one man and one woman,
she intends to deny any request a same-sex couple
may make for a wedding website.
Ms. Smith has prepared a Proposed Statement
that she intends to post on 303’s website to explain
303’s policies with regard to wedding websites. It
reads:
I love weddings.
Each wedding is a story in itself, the story of
a couple and their special love for each other.
I have the privilege of telling the story of your
love and commitment by designing a stunning
website that promotes your special day and
communicates a unique story about your
wedding - from the tale of the engagement, to
the excitement of the wedding day, to the
beautiful life you are building together.
I firmly believe that God is calling me to this
work. Why? I am personally convicted that He
wants me - during these uncertain times for

160a
those who believe in biblical marriage - to
shine His light and not stay silent. He is
calling me to stand up for my faith, to explain
His true story about marriage, and to use the
talents and business He gave me to publicly
proclaim and celebrate His design for
marriage as a life-long union between one
man and one woman.
These same religious convictions that
motivate me also prevent me from creating
websites promoting and celebrating ideas or
messages that violate my beliefs. So I will not
be able to create websites for same-sex
marriages or any other marriage that is not
between one man and one woman. Doing that
would compromise my Christian witness and
tell a story about marriage that contradicts
God’s true story of marriage-the very story He
is calling me to promote.
According to Ms. Smith, the only reason why 303
has not begun offering to build wedding websites and
she has not posted the Proposed Statement is that
doing so would violate the Accommodation and
Communication Clauses of the Public Accommodation
Statute and expose her and 303 to penalties and civil
liability.
ANALYSIS
A. Standing
The Defendants argue under Federal Rule of Civil
Procedure 12(b)(1) in their Motion to Dismiss that the
Plaintiffs lack standing to challenge the Public

161a
Accommodation Statute and thus their claims must
be dismissed.
Standing is a component of subject-matter
jurisdiction and may be challenged in a motion to
dismiss under Fed. R. Civ. P. 12(b)(1). The party
asserting the existence of subject matter jurisdiction
(here the Plaintiffs) bears the burden of proving such
jurisdiction exists, including the burden of demonstrating standing. Hydro Res., Inc. v. E.P.A., 608 F.3d
1131, 1144 (10th Cir. 2010); Montoya v. Chao, 296
F.3d 952, 955 (10th Cir.2002).
The jurisdiction of federal courts is limited to
actual cases or controversies. U.S. Const. art. III, § 2
cl.1. To have a cognizable case or controversy, a
plaintiff must have standing to sue. Colo. Outfitters
Ass’n v. Hickenlooper, 823 F.3d 537, 543 (10th Cir.
2016). Whether a plaintiff has standing is determined
as of the date that he or she files the action. Nova
Health Sys, 416 F.3d at 1154. When a plaintiff asserts
multiple claims, he or she may have standing as to
some claims but not to others, and under such
circumstances, the claims for which the plaintiff lacks
standing must be dismissed. See Bronson v. Swensen,
500 F.3d 1099, 1106 (10th Cir. 2007).
To establish standing, the Plaintiffs must
demonstrate three elements. First, the Plaintiffs
must have suffered an “injury in fact”. Such injury
must be concrete, particularized, and actual or
imminent but not conjectural or hypothetical. Second,
the injury must be fairly traceable to the challenged
actions of the defendant. Finally, it must be likely, as
opposed to merely speculative, that the injury will be
redressed by a favorable decision. Bronson, 500 F.3d

162a
at 1106 (citing Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs., Inc., 528 U.S. 167, 180–81 (2000)).
Working backwards through the elements listed
above, the traceability and redressability elements
can be addressed summarily. The Defendants claim
that any injury to the Plaintiffs is not traceable to
them, and that the Plaintiffs’ injuries are not
redressable because, even if the Court were to rule in
the Plaintiffs’ favor, private parties could bring an
independent civil action against them for violations of
the Public Accommodation Statute.
An injury in fact is fairly traceable to a defendant
if the defendant is charged with the responsibility to
enforce the statute. See Nova Health Sys., 416 F.3d at
1158. Because it is undisputed that the Commission
is charged with the responsibility to enforce the
Public Accommodation Statute, any injury is
traceable to it. The Court declines to address whether
every Defendant is charged with enforcement of the
statute.
Redressability concerns whether a court is
empowered to redress an injury, not whether the
lawsuit would result in an outcome that redresses
every injury. If a named defendant has the authority
to enforce a statute, a plaintiff’s injury caused by
enforcement of the statute is redressable even if a
private person could also seek to enforce the statute
through a civil lawsuit. Consumer Data Indus. Ass’n
v. King, 678 F.3d 898, 905 (10th Cir. 2012). Again,
because the Commission is charged with enforcing the
statute, and is named as a defendant, it does not
matter that a private person could also seek to enforce
the statute. The Court can redress the injury

163a
traceable to enforcement of the statute by the
governmental entities and actors.
The final standing element is whether the
Plaintiffs have suffered an injury in fact. The
Defendants argue that the Plaintiffs will not suffer
any injury until they publically offer to build wedding
websites, they receive a request for and then decline
to build a website for a same-sex couple, the same-sex
couple files a complaint against them, an administrative law judge finds that the Plaintiffs violated
the Public Accommodation Statute and orders them
to comply, and the Plaintiffs exhaust their state
appellate remedies. The Plaintiffs respond that they
are suffering two continuing constitutional injuries in
so far as (1) they face a credible threat that the
Defendants will enforce the Public Accommodation
Statute and (2) the Public Accommodation Statue has
a chilling effect on their ability to exercise their rights
of free speech.
Plaintiffs are correct that it is not necessary that
the Public Accommodation Statute be enforced
against them in order for there to be an “injury in
fact”. An “injury in fact” is recognized if the Plaintiffs
show that a threatened injury is certainly impending,
or there is a substantial risk that a harm will occur.
Tandy v. City of Wichita, 380 F.3d 1277, 1283 (10th
Cir.2004); see also Steffel v. Thompson, 415 U.S. 452,
459 (1974); Bronson v. Swensen, 500 F.3d 1099, 1107
(10th Cir. 2007); U.S. v. Supreme Ct. of N.M., 839 F.3d
888, 901 (10th Cir. 2016); Brammer-Hoelter v. Twin
Peaks Charter Acad., 602 F.3d 1175, 1182 (10th Cir.
2010). For a threat of injury to equate to an injury in
fact, the Plaintiffs must show that (1) they intend to
engage in conduct arguably affected by a

164a
constitutional interest, but proscribed by a statute,
and (2) there exists a credible threat of enforcement
of the statute for their conduct. See Colo. Outfitters
Ass’n v. Hickenlooper, 823 F.3d 537, 545 (10th Cir.
2016); see also Supreme Ct. of N.M., 839 F.3d at 901.
For a threat of enforcement to be credible, the injury
cannot rest on a “highly attenuated chain of
possibilities”, but rather the Plaintiffs must
demonstrate that “but for” their decision not to
engage in conduct proscribed by statute, there is a
substantial risk the statute would be enforced against
them. See Clapper v. Amnesty Int’l USA, 568 U.S. 398,
410-11 (2013).
It is helpful for analytical purposes to distinguish
between two actions which Plaintiffs intend but have
refrained from taking due to fear that the Public
Accommodation Statute will be enforced against
them:
1. Publishing the Proposed Statement on 303’s
website.
2. Declining any request by a same-sex couple to
build a wedding website.
The Communication Clause would appear to
prohibit publishing the Proposed Statement because
the Statement announces an intention to deny service
to persons based on sexual orientation. The
Accommodation Clause would appear to prohibit the
second action – refusal to provide services to a person
because of his or her sexual orientation.1 Thus, both
1

Indeed, the Colorado Court of Appeals has determined
that the refusal to provide goods or services for a same-sex
wedding on religious grounds constitutes discrimination because

165a
intended actions would appear to be proscribed by the
Public Accommodation Statute.
The next question is whether there is a credible
threat that the Public Accommodation Statute will be
enforced. As to publishing the Proposed Statement,
once the Plaintiffs post it to their website, they
arguably will have violated the Communication
Clause. If any person files a formal complaint with the
Commission against the Plaintiffs pursuant to Colo.
Rev. Stat. §§ 24-34-306(1)(a), the Commission has no
discretion to not enforce the statute. This was
confirmed by its counsel during the January 11
hearing. Given the public interest in and legal
disagreement that is evident in Masterpiece
Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, 16-111
(U.S. filed Jul. 22, 2016), it is not difficult to find it
likely that a complaint will be filed if the Proposed
Statement is posted. Because the only conditions
precedent to enforcement are the posting of the
Proposed Statement and the filing of a complaint, the
Court finds that the Plaintiffs are subject to a credible
threat of enforcement.
However, such is not the case with the Plaintiffs’
intent to decline any same-sex couple’s request to
build wedding websites. For the Plaintiffs to violate
the Accommodation Statute there are many
conditions precedent to be satisfied. The Plaintiffs
must offer to build wedding websites, a same-sex
couple must request Plaintiffs’ services, the Plaintiffs
must decline, and then a complaint must be filed. This
scenario is more attenuated and thus more
of sexual orientation. Masterpiece Cakeshop, Inc., 370 P.3d at
280-81.

166a
speculative. If the Court assumes that the Plaintiffs
would offer to build wedding websites, decline a
request by a same-sex couple, and the unhappy
customer filed a complaint, there remains the
question of whether a same-sex couple would request
Plaintiffs’ services.
The parties have submitted stipulated facts as to
the number of web design companies in Denver,
Colorado and in the United States, but such general
information does not provide details as to how many
web design companies offer wedding websites, how
many websites are built for weddings, or how many
same-sex couples use such services. On this evidence,
the Court cannot determine the imminent likelihood
that anyone, much less a same-sex couple, will
request Plaintiff’s services. The Plaintiffs also direct
the Court to an email that Ms. Smith received on
September 21, 2016, after the Complaint in this
matter was filed. Ostensibly in response to a prompt
from 303’s website asking “If your inquiry relates to a
specific event, please describe the nature of the event
and its purpose”, the email states: “My wedding. My
name is Stewart and my fiancee is Mike. We are
getting married early next year and would love some
design work done for our invites (sic.), placenames(sic.), etc. We might also stretch to a website.”
This evidence is too imprecise, as well. Assuming that
it indicates a market for Plaintiffs’ services, it is not
clear that Stewart and Mike are a same-sex couple (as
such names can be used by members of both sexes)
and it does not explicitly request website services,
without which there can be no refusal by Plaintiffs.
Because the possibility of enforcement based on a
refusal of services is attenuated and rests on the

167a
satisfaction of multiple conditions precedent, the
Court finds that the likelihood of enforcement is not
credible.
Based on the record before the Court, the
Plaintiffs have established an injury in fact sufficient
for standing as to the intended posting of the
Proposed Statement but not as to the intended denial
of wedding website building services.
With regard to the speech related claims, the
Plaintiffs also argue that their protected speech is
currently being chilled by the threat of enforcement of
the Public Accommodation Statute.2 A statute has a
chilling effect on speech if it causes plaintiffs to
refrain from speaking based on “an objectively
justified fear of real consequences”. Brammer-Hoelter,
602 F.3d at 1182. A plaintiff can show a chilling effect
with:
(1) evidence that in the past they have
engaged in the type of speech affected by the
challenged government action3; (2) affidavits
or testimony stating a present desire, though
no specific plans, to engage in such speech;
2

The Defendants argue that publishing the Proposed
Statement and building websites constitutes conduct and not
speech. Publishing a statement on a website is clearly speech.
The Court need not resolve this issue, however, at this time. For
purposes of the instant analysis, the Court will assume, without
deciding, that building websites for another constitutes speech
entitled to First Amendment protection.
3

Evidence that they engaged in the type of speech affected
in the past is not an indispensable element if other evidence
sufficiently establishes that the Plaintiffs’ fear of real
consequences is not speculative.

168a
and (3) a plausible claim that they presently
have no intention to do so because of a
credible threat that the statute will be
enforced.
Initiative & Referendum Institute, 450 F.3d at 1089.
Because the third element of this showing
requires evidence of a credible threat that the statute
will be enforced, the analysis duplicates that which is
provided above. The evidence is sufficient to find a
credible threat of enforcement of the Public
Accommodation Statute only as to the posting of the
Proposed Statement. With regard to the Proposed
Statement, it is undisputed that it has been prepared
and the sole impediment to its posting is enforcement
of the Public Accommodation Statute. This is
sufficient to show a chilling effect.
In summary, the Plaintiffs have standing only to
pursue claims challenging the Communication Clause
that arise from publication of the Proposed Statement. They lack standing to assert claims challenging
the Accommodation Clause based on the possibility
that they will decline all requests by same-sex couples
to build wedding websites. Accordingly, such claims
are dismissed for lack of subject-matter jurisdiction.
B. Denial of remaining motions
The parties have agreed that the case is at issue
and that the Preliminary Injunction Motion and
Motion for Summary Judgment should be determined
together in resolution of the matters in dispute on the
merits. Although the Plaintiffs have standing to
challenge the Communication Clause of the Public
Accommodation Statute, the Court declines to rule on

169a
the merits due to the pendency of Masterpiece
Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, 16-111
(U.S. filed Jul. 22, 2016) before the United States
Supreme Court. As noted, the factual and legal
similarities between Masterpiece Cakeshop and this
case are striking. It is likely that a determination by
the Supreme Court will either guide determination of
or eliminate the need for resolution of the issues in
this case as to whether prosecuting the Plaintiffs for
publishing the Proposed Statement would violate
their rights guaranteed by the Free Speech and Free
Exercise Clauses of the First Amendment.
Further, the Court finds that the parties will not
be prejudiced by delay in resolution of the issues in
this case. The Plaintiffs are not currently offering to
build wedding websites, and no evidence has been
presented to show that their financial viability is
threatened if they do not begin offering to do so. Thus,
the Court denies the Motions for Preliminary
Injunction and Summary Judgment with leave to
renew after ruling by the United States Supreme
Court in Masterpiece Cakeshop.
CONCLUSION
Defendants’ Motion to Dismiss (#37) is
GRANTED IN PART, and DENIED IN PART. For
the foregoing reasons, the Court GRANTS the motion
and DISMISSES Plaintiffs’ claims challenging the
constitutional validity of the Accommodation Clause
of the Public Accommodation Statute under the (1)
Free Speech Clause, (2) Free Exercise Clause, (3)
Equal Protection Clause, and (4) Due Process Clause
of the First and Fourteenth Amendments of the
United States Constitution for lack of standing. The

170a
Motion is DENIED as to the Plaintiffs’ five claims
challenging the validity of the Communication Clause
of the Public Accommodation Statute under the (1)
Free Speech Clause, (2) Free Press Clause, (3) Free
Exercise Clause, (4) Equal Protection Clause, and (5)
Due Process Clause of the First and Fourteenth
Amendments of the United States Constitution.
The Plaintiff’s Motion for Preliminary Injunction
and Motion for Summary Judgment (#6) and (#48)
are DENIED, WITH LEAVE TO RENEW after a
final ruling has been issued by the United States
Supreme Court in Masterpiece Cakeshop, Ltd. v. Colo.
Civil Rights Comm’n, 16-111 (U.S. filed Jul. 22, 2016).
Within 14 days of issuance of such ruling, the parties
will advise this Court in writing of their desire to
proceed (and if so whether they desire to refile or
reopen their briefing on the Motion for Summary
Judgment and Preliminary Injunction) or dismiss the
action.
Dated this 1st day of September, 2017
BY THE COURT:

___________________________
Marcia S. Krieger
Chief United States District Judge

171a
Colo. Rev. Stat. § 24-34-601
Discrimination in places of public
accommodation
(1) As used in this part 6, “place of public accommodation” means any place of business engaged in any
sales to the public and any place offering services,
facilities, privileges, advantages, or accommodations
to the public, including but not limited to any
business offering wholesale or retail sales to the
public; any place to eat, drink, sleep, or rest, or any
combination thereof; any sporting or recreational
area and facility; any public transportation facility; a
barber shop, bathhouse, swimming pool, bath, steam
or massage parlor, gymnasium, or other establishment conducted to serve the health, appearance, or
physical condition of a person; a campsite or trailer
camp; a dispensary, clinic, hospital, convalescent
home, or other institution for the sick, ailing, aged, or
infirm; a mortuary, undertaking parlor, or cemetery;
an educational institution; or any public building,
park, arena, theater, hall, auditorium, museum,
library, exhibit, or public facility of any kind whether
indoor or outdoor. “Place of public accommodation”
shall not include a church, synagogue, mosque, or
other place that is principally used for religious
purposes.
(2)(a) It is a discriminatory practice and unlawful for
a person, directly or indirectly, to refuse, withhold
from, or deny to an individual or a group, because of
disability, race, creed, color, sex, sexual orientation,
gender identity, gender expression, marital status,
national origin, or ancestry, the full and equal
enjoyment of the goods, services, facilities, privileges,

172a
advantages, or accommodations of a place of public
accommodation or, directly or indirectly, to publish,
circulate, issue, display, post, or mail any written,
electronic, or printed communication, notice, or
advertisement that indicates that the full and equal
enjoyment of the goods, services, facilities, privileges,
advantages, or accommodations of a place of public
accommodation will be refused, withheld from, or
denied an individual or that an individual's patronage
or presence at a place of public accommodation is
unwelcome,
objectionable,
unacceptable,
or
undesirable because of disability, race, creed, color,
sex, sexual orientation, gender identity, gender
expression, marital status, national origin, or
ancestry.
(b) A claim brought pursuant to paragraph (a) of this
subsection (2) that is based on disability is covered by
the provisions of section 24-34-802.
(2.5) It is a discriminatory practice and unlawful for
any person to discriminate against any individual or
group because such person or group has opposed any
practice made a discriminatory practice by this part 6
or because such person or group has made a charge,
testified, assisted, or participated in any manner in
an investigation, proceeding, or hearing conducted
pursuant to this part 6.
(3) Notwithstanding any other provisions of this
section, it is not a discriminatory practice for a person
to restrict admission to a place of public accommodation to individuals of one sex if such restriction
has a bona fide relationship to the goods, services,
facilities, privileges, advantages, or accommodations
of such place of public accommodation.

173a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 16-cv-02372-MSK-CBS
303 CREATIVE LLC, a limited liability company;
and LORIE SMITH,
Plaintiffs,
vs.
AUBREY ELENIS, Director of the Colorado Civil
Rights Division, in her official capacity;
ANTHONY ARAGON,
ULYSSES J. CHANEY,
MIGUEL “MICHAEL” RENE ELIAS,
CAROL FABRIZIO,
HEIDI HESS,
RITA LEWIS, and
JESSICA POCOCK, as members of the Colorado
Civil Rights Commission in their official capacities,
and
CYNTHIA H. COFFMAN, Colorado Attorney
General, in her official capacity;
Defendants.
_________________________________________________
JOINT STATEMENT OF STIPULATED FACTS
_________________________________________________
The parties
stipulated facts:

jointly

submit

the

following

1. Colorado’s Anti-Discrimination Act (“CADA”),
found at Colo. Rev. Stat. §§ 24-34-301, et seq. provides
that “[i]t is a discriminatory practice and unlawful for

174a
a person, directly or indirectly, to refuse, withhold
from, or deny to an individual or a group, because of
disability, race, creed, color, sex, sexual orientation,
marital status, national origin, or ancestry, the full
and equal enjoyment of the goods, services, facilities,
privileges, advantages, or accommodations of a place
of public accommodation . . . .” Colo. Rev. Stat. § 2434-601(2)(a).
2. CADA defines a “place of public accommodation” to
include “any place of business engaged in any sales to
the public and any place offering services, facilities,
privileges, advantages, or accommodations to the
public, including but not limited to any business
offering wholesale or retail sales to the public . . . .”
Colo. Rev. Stat. § 24-34-601(1).
3. CADA also provides that it is unlawful for a person
“directly or indirectly, to publish, circulate, issue,
display, post, or mail any written, electronic, or
printed communication, notice, or advertisement that
indicates that the full and equal enjoyment of the
goods, services, facilities, privileges, advantages, or
accommodations of a place of public accommodation
will be refused, withheld from, or denied an individual
or that an individual’s patronage or presence at a
place of public accommodation is unwelcome,
objectionable, unacceptable, or undesirable because of
disability, race, creed, color, sex, sexual orientation,
marital status, national origin, or ancestry.” Colo.
Rev. Stat. § 24-34-601(2)(a).
4. If a person believes that an individual or business
has violated CADA, that person can seek redress by
either filing a civil action in state court or by filing a
charge alleging discrimination or unfair practice with

175a
the Colorado Civil Rights Division (“Division”). Colo.
Rev. Stat. §§ 24-34-306(1)(a), 24-34-602-603.
5. If a person files a civil action and the state court
finds a violation of CADA, the court shall fine the
individual or business between $50.00 and $500.00
for each violation. Colo. Rev. Stat. § 24-34-602(1)(a).
6. If a person files a charge alleging discrimination or
unfair practice with the Division, the Director of the
Division (“Director”), with the assistance of the
Division’s staff, shall make a prompt investigation of
the charge. Colo. Rev. Stat. § 24-34-306(2)(a).
7. The Colorado Civil Rights Commission
(“Commission”), individual Commissioners, or the
Colorado Attorney General also have independent
authority to file charges alleging discrimination or
unfair practice when they determine that the alleged
discriminatory or unfair practice imposes a
significant societal or community impact. Colo. Rev.
Stat. § 24-34-306(1)(b).
8. If the Commission, individual Commissioners or
the Colorado Attorney General file a charge alleging
discrimination or unfair practice, the Director, with
the assistance of the Division’s staff under the
Director’s supervision, shall make a prompt
investigation of the charge. Colo. Rev. Stat. §§ 24-34306(1)(b) and (2)(a).
9. The Director, with the assistance of the Division’s
staff, investigates all charges of discrimination or
unfair practice received by the Division. Colo. Rev.
Stat. § 24-34-306(2)(a).

176a
10. The Director can issue subpoenas to witnesses and
compel the testimony of witnesses. Colo. Rev. Stat. §
24-34-306(2)(a).
11. The Director, or the Director’s designee, who shall
be an employee of the Division, determines whether
probable cause exists for crediting charges of
discrimination or unfair practice. Colo. Rev. Stat. §
24-34-306 (2)(b).
12. If the Director or the Director’s designee
determines that probable cause does not exist, he or
she shall dismiss the charge and provide notice to the
charging party of their right to file an appeal of the
dismissal to the Commission. Colo. Rev. Stat. § 24-34306(2)(b)(I).
13. If the Director of the Division determines that
probable cause does exist, the Director provides the
parties a written notice of the finding and commences
compulsory mediation. Colo. Rev. Stat. § 24-34306(2)(b)(II).
14. The Commission hears appeals from the Director’s
findings. Colo. Rev. Stat. § 24-34-306(2)(b)(I).
15. The Commission can issue notices and complaints
to set hearings either before the Commission, a
Commissioner, or before an Administrative Law
Judge. Colo. Rev. Stat. § 24-34-306(4).
16. After presentation of all the evidence at hearing,
the Commission, Commissioner or Administrative
Law Judge makes findings determining whether the
individual or business engaged in any discriminatory
or unfair practice as defined by CADA. Colo. Rev.
Stat. § 24-34-306(9).

177a
17. If either the Commission, a Commissioner or an
Administrative Law Judge makes a finding that the
individual or business under investigation violated
CADA, the Commission has the power and authority
under CADA to issue cease-and-desist orders to
prevent violations of CADA and to issue orders
requiring the charged party to “take such action” as
the
Commission,
a
Commissioner
or
an
Administrative Law Judge may order. Colo. Rev. Stat.
§ 24-34-306(9).
18. Aubrey Elenis is the Director of the Division and
is named as a Defendant in her official capacity only.
19. Ms. Elenis’s authority in relation to CADA is
specified in Colo. Rev. Stat. §§ 24-34-302, 24-34-306.
20. Commissioners Anthony Aragon, Ulysses J.
Chaney, Miguel “Michael” Rene Elias, Carol Fabrizio,
Heidi Hess, Rita Lewis, and Jessica Pocock are
members of the Commission and are named as
Defendants in their official capacities only.
21. Mr. Aragon’s, Mr. Chaney’s, Mr. Elias’s, Ms.
Fabrizio’s, Ms. Hess’s, Ms. Lewis’s, and Ms. Pocock’s
authority to enforce CADA is specified in Colo. Rev.
Stat. §§ 24-34-305, 24-34-306, 24-34-605.
22. Cynthia H. Coffman is the Colorado Attorney
General and is named as a Defendant in her official
capacity only.
23. Ms. Coffman’s authority in relation to CADA is
specified in Colo. Rev. Stat. § 24-34-306.
24. Prior to the filing of Plaintiffs’ case, the Division
received a charge of discrimination “because of”
sexual orientation from a same-sex couple against a
Colorado bakery, Masterpiece Cakeshop, Inc., a

178a
public accommodation, which is owned and operated
by Jack Phillips (“Phillips”), a Christian cake artist.
25. The facts and procedure of the Masterpiece
Cakeshop case is found in the decision published by
the Colorado Court of Appeals on August 13, 2015,
titled Charlie Craig and David Mullins v. Masterpiece
Cakeshop, Inc., and any successor entity, and Jack C.
Phillips and Colorado Civil Rights Commission, 2015
COA 115, for which the Court may take judicial
notice, as well as the following documents: Colorado
Civil Rights Division’s Probable Cause Determination
in Charlie Craig v. Masterpiece Cakeshop, Inc. dated
March 5, 2013, attached as Exhibit C; Colorado Civil
Rights Division’s Probable Cause Determination in
David Mullins v. Masterpiece Cakeshop, Inc. dated
March 5, 2013, attached as Exhibit D; Administrative
Law Judge’s Initial Decision in Charlie Craig and
David Mullins v. Masterpiece Cakeshop, Inc. and Jack
C. Phillips dated December 6, 2013, attached as
Exhibit E; and Colorado Civil Rights Commission’s
Final Agency Order in Charlie Craig and David
Mullins v. Masterpiece Cakeshop, Inc. and Jack C.
Phillips dated May 30, 2014, attached as Exhibit F.
26. Phillips and Masterpiece Cakeshop’s petition for
writ of certiorari to the Colorado Supreme Court was
denied on April 25, 2016.
27. Phillips and Masterpiece Cakeshop’s petition for
writ of certiorari to the U.S. Supreme Court is
currently pending.
28. During the pendency of Phillips and Masterpiece
Cakeshop’s case, the Division considered three claims
of discrimination brought by William Jack (“Jack”), a
professing Christian, against three Colorado

179a
bakeries, all public accommodations: Azucar Bakery,
Le Bakery Sensual, Inc., and Gateaux, Ltd. The facts
and procedure of these matters are discussed in the
following documents: Colorado Civil Rights
Commission’s Final Agency Order in William Jack v.
Azucar Bakery dated June 30, 2015, attached as
Exhibit G; Colorado Civil Rights Commission’s Final
Agency Order in William Jack v. Gateaux, Ltd. dated
June 30, 2015, attached as Exhibit H; Colorado Civil
Rights Commission’s Final Agency Order in William
Jack v. Le Bakery Sensual, Inc. dated June 30, 2015,
attached as Exhibit I; Colorado Civil Rights Division’s
No Probable Cause Determination in William Jack v.
Azucar Bakery dated March 24, 2015, attached as
Exhibit J; Colorado Civil Rights Division’s No
Probable Cause Determination in William Jack v.
Gateaux, Ltd. dated March 24, 2015, attached as
Exhibit K; and Colorado Civil Rights Division’s No
Probable Cause Determination in William Jack v. Le
Bakery Sensual, Inc. dated March 24, 2015, attached
as Exhibit L.
29. Plaintiff Lorie Smith is a lifelong resident of the
State of Colorado and a citizen of the United States of
America.
30. Ms. Smith is a Christian.
31. Ms. Smith’s religious beliefs, including her
religious understanding about marriage as an
institution between one man and one woman, are
central to her identity, her understanding of
existence, and her conception of her personal dignity
and identity.

180a
32. Ms. Smith’s decision to speak and act consistently
with her religious understanding of marriage defines
her personal identity.
33. Ms. Smith believes that her life is not her own, but
that it belongs to God, and that He has called her to
live a life free from sin.
34. Ms. Smith believes that everything she does –
personally and professionally –should be done in a
manner that glorifies God.
35. Ms. Smith believes that what is sinful versus what
is good is rooted in the Bible and her personal
relationship with Jesus Christ.
36. Ms. Smith believes that she will one day give an
account to God regarding the choices she made in life,
both good and bad.
37. Ms. Smith believes that God instructs Christians
to steward the gifts He has given them in a way that
glorifies and honors Him.
38. Ms. Smith believes that she must use the creative
talents God has given to her in a manner that honors
God and that she must not use them in a way that
displeases God.
39. Ms. Smith’s creative talents include artistic
talents in graphic design, website design, and
marketing.
40. She developed these skills at the University of
Colorado Denver, where she received a business
degree with an emphasis in marketing.
41. She was then employed by other companies to do
graphic and web design before starting her own
company, 303 Creative.

181a
42. Ms. Smith started 303 Creative because she
desired the freedom to use her creative talents to
honor God to a greater degree than was possible while
working at other companies.
43. 303 Creative is a for-profit limited liability
company organized under Colorado law with its
principal place of business in Colorado.
44. Ms. Smith is the sole member-owner of Plaintiff
303 Creative LLC.
45. Through 303 Creative, Ms. Smith offers a variety
of creative services to the public, including graphic
design, and website design, and in concert with those
design services, social media management and
consultation services, marketing advice, branding
strategy, training regarding website management,
and innovative approaches for achieving client goals.
46. All of Plaintiffs’ graphic designs are expressive in
nature, as they contain images, words, symbols, and
other modes of expression that Plaintiffs use to
communicate a particular message.
47. All of Plaintiffs’ website designs are expressive in
nature, as they contain images, words, symbols, and
other modes of expression that Plaintiffs use to
communicate a particular message.
48. As the sole owner and operator of 303 Creative,
Ms. Smith controls the scope, mission, priorities,
creative services, and standards of 303 Creative.
49. Ms. Smith does not employ or contract work to any
other individuals.
50. Each website 303 Creative designs and creates is
an original, customized creation for each client.

182a
51. In her website design work, Ms. Smith devotes
considerable attention to color schemes, fonts, font
sizes, positioning, harmony, balance, proportion,
scale, space, interactivity, movement, navigability,
and simplicity.
52. Ms. Smith also considers color, positioning,
movement, angle, light, complexity, and other factors
when designing graphics.
53. Every aspect of the websites and graphics
Plaintiffs design contributes to the overall messages
that Plaintiffs convey through the websites and
graphics and the efficacy of those messages.
54. Ms. Smith personally devotes herself to her design
work, drawing on her inspiration and sense of beauty
to create websites and graphics that effectively
communicate the intended messages.
55. As a seasoned designer, Ms. Smith helps clients
implement the ideal websites and graphics—
oftentimes by designing custom graphics and textual
content for their unique needs — to enhance and
effectively communicate a message.
56. Although clients often have a very basic idea of
what they wish for in a graphic or a website and
sometimes offer specific suggestions, Ms. Smith’s
creative skills transform her clients’ nascent ideas
into pleasing, compelling, marketable graphics or
websites conveying a message.
57. When designing and creating graphics or
websites, Ms. Smith is typically in close contact with
her clients as they each share their ideas and
collaborate to develop graphics or websites that

183a
express a message in a way that is pleasing to both
Ms. Smith and her clients.
58. Ms. Smith ultimately has the final say over what
she does and does not create and over what designs
she does and does not use for each website.
59. For each website 303 Creative makes, Ms. Smith
typically creates and designs original text and
graphics for that website and then combines that
original artwork with text and graphics that Ms.
Smith had created beforehand or that Ms. Smith
receives from the client or from other sources. Ms.
Smith then combines the original text and graphics
she created with the already existing text and
graphics to create an original website that is unique
for each client.
60. As required by her sincerely held religious beliefs,
Ms. Smith seeks to live and operate 303 Creative in
accordance with the tenets of her Christian faith.
61. This means Ms. Smith seeks to use 303 Creative
to bring glory to God and to share His truth with its
clients and the community.
62. Ms. Smith strives to serve 303 Creative’s
customers with love, honesty, fairness, transparency,
and excellence.
63. Ms. Smith designs unique visual and textual
expression to promote the purposes, goals, services,
products, organizations, events, causes, values, and
messages of her clients insofar as they do not, in the
sole discretion of Ms. Smith, (1) conflict with
Plaintiffs’ religious beliefs or (2) detract from
Plaintiffs’ goal of publicly honoring and glorifying God
through the work they perform.

184a
64. Plaintiffs are willing to work with all people
regardless of classifications such as race, creed,
sexual orientation, and gender.
65. Plaintiffs do not object to and will gladly create
custom graphics and websites for gay, lesbian, or
bisexual clients or for organizations run by gay,
lesbian, or bisexual persons so long as the custom
graphics and websites do not violate their religious
beliefs, as is true for all customers.
66. Among other things, Plaintiffs will decline any
request to design, create, or promote content that:
contradicts biblical truth; demeans or disparages
others; promotes sexual immorality; supports the
destruction of unborn children; incites violence; or
promotes any conception of marriage other than
marriage between one man and one woman.
67. Therefore, Plaintiffs’ “Contract for Services”
includes the following provision:
Consultant has determined that the artwork,
graphics, and textual content Client has
requested Consultant to produce either
express messages that promote aspects of the
Consultant’s religious beliefs, or at least are
not
inconsistent
with
those
beliefs.
Consultant reserves the right to terminate
this Agreement if Consultant subsequently
determines, in her sole discretion, that Client
desires Consultant to create artwork,
graphics,
or
textual
content
that
communicates ideas or messages, or promotes
events, services, products, or organizations,
that are inconsistent with Consultant’s
religious beliefs.

185a
68. When considering a potential project, Ms. Smith
will view the prospective client’s website (if
applicable) and ask questions of the prospective client
to assist in the vetting process of determining
whether the requested project conflicts with
Plaintiffs’ religious beliefs and whether it is a good fit
given Plaintiffs’ skills, schedule, preferences, and
workload.
69. If Plaintiffs determine that they are unable to
assist with a project promoting particular purposes,
goals, services, products, organizations, events,
causes, values, and messages they find objectionable,
Plaintiffs endeavor to refer the prospective client to a
different company that can assist them.
70. Even if Plaintiffs were to hire additional
employees or contract out work, it would violate their
sincerely held religious beliefs to have the employees
or independent contractors do work for Plaintiffs that
Plaintiffs cannot do themselves due to their religious
beliefs.
71. Another purpose of 303 Creative is to develop and
design unique visual and textual expression that
promotes, celebrates, and conveys messages that
promote aspects of Ms. Smith’s Christian faith.
72. In furtherance of this end, 303 Creative regularly
provides services to various religious and nonreligious organizations that are advocating purposes,
goals, services, events, causes, values, or messages
that align with Plaintiffs’ religious beliefs.
73. Ms. Smith believes that our cultural redefinition
of marriage conflicts with God’s design for marriage
as a lifelong union between one man and one woman.

186a
74. Ms. Smith believes that this is not only
problematic because it violates God’s will, but also
because it harms society and children because
marriage between one man and one woman is a
fundamental building block of society and the ideal
arrangement for the rearing of children.
75. Ms. Smith believes that our culture’s movement
away from God’s design for marriage is particularly
pronounced in the wake of the Supreme Court’s
Obergefell v. Hodges decision, which held that there is
a constitutional right to same-sex marriage.
76. Ms. Smith is compelled by her religious beliefs to
use the talents God has given her to promote God’s
design for marriage in a compelling way.
77. Ms. Smith is compelled by her religious beliefs to
do this by expanding the scope of 303 Creative’s
services to include the design, creation, and
publication of wedding websites.
78. Consistent with Plaintiffs’ religious beliefs, the
wedding websites that Plaintiffs wish to design,
create, and publish will promote and celebrate the
unique beauty of God’s design for marriage between
one man and one woman.
79. By creating wedding websites, Ms. Smith and 303
Creative will collaborate with prospective brides and
grooms in order to use their unique stories as source
material to express Ms. Smith’s and 303 Creative’s
message celebrating and promoting God’s design for
marriage as the lifelong union of one man and one
woman.
80. The collaboration between Plaintiffs and their
clients who desire custom wedding websites will also

187a
allow Plaintiffs to strengthen and encourage
marriages by sharing biblical truths with their clients
as they commit to lifelong unity and devotion as man
and wife.
81. Plaintiffs’ custom wedding websites will be
expressive in nature, using text, graphics, and in
some cases videos to celebrate and promote the
couple’s wedding and unique love story.
82. All of these expressive elements will be
customized and tailored to the individual couple and
their unique love story.
83. Viewers of the wedding websites will know that
the websites are Plaintiffs’ original artwork because
all of the wedding websites will say “Designed by
303Creative.com.”
84. An example of the type of wedding website that
Plaintiffs desire to design for their prospective clients
is attached as Exhibit A.1
85. Plaintiffs wish to immediately announce their
services for the creation of wedding websites.
86. Plaintiffs have already designed an addition to
303 Creative’s website announcing the expansion of
their services to include custom wedding websites,
but this addition is not yet viewable by the public.

1

Exhibit A is a compilation of captured images of the website
that are modified in size and scope to enhance readability in
printed form.

188a
87. This addition to the website is attached as Exhibit
B.2
88. Plaintiffs’ intended message of celebration and
promotion of their religious belief that God designed
marriage as an institution between one man and one
woman will be unmistakable to the public after
viewing the addition to 303 Creative’s webpage.
89. For example, the addition to 303 Creative’s
webpage states the following:
I firmly believe that God is calling me to this
work. Why? I am personally convicted that He
wants me – during these uncertain times for
those who believe in biblical marriage – to
shine His light and not stay silent. He is
calling me to stand up for my faith, to explain
His true story about marriage, and to use the
talents and business He gave me to publicly
proclaim and celebrate His design for
marriage as a life-long union between one
man and one woman.
90. As part of Plaintiffs’ religious calling to celebrate
God’s design for marriage and due to their sincerely
held religious belief that they must be honest and
transparent about the services that they can and
cannot provide, the webpage also states that their
religious beliefs prevent them from creating websites
celebrating same-sex marriages or any other
marriage that contradicts God’s design for marriage.

2

Exhibit B is a compilation of captured images of the website
that are modified in size and scope to enhance readability in
printed form.

189a
91. For example, the addition to 303 Creative’s
webpage states the following:
These same religious convictions that
motivate me also prevent me from creating
websites promoting and celebrating ideas or
messages that violate my beliefs. So I will not
be able to create websites for same-sex
marriages or any other marriage that is not
between one man and one woman. Doing that
would compromise my Christian witness and
tell a story about marriage that contradicts
God’s true story of marriage – the very story
He is calling me to promote.
92. As part of their religiously-motivated speech,
Plaintiffs desire to—and are prepared to—publish
this webpage immediately.
93. As a Colorado place of business engaged in sales
to the public and offering services to the public, 303
Creative is a “place of public accommodation” subject
to CADA. Colo. Rev. Stat. § 24-34-601(1), (2)(a).
94. Plaintiffs believe it would violate Plaintiffs’
sincerely held religious beliefs to create a wedding
website for a same-sex wedding because, by doing so,
Plaintiffs would be expressing a message celebrating
and promoting a conception of marriage that they
believe is contrary to God’s design for marriage.
95. Unwilling to violate their sincerely held religious
beliefs, but similarly unwilling to violate CADA and
suffer the consequences, Plaintiffs are refraining from
publishing the website referenced above and from
designing, creating, and publishing wedding websites

190a
that celebrate and promote marriages between one
man and one woman.
96. If not for CADA, Plaintiffs would have already
made the addition to 303 Creative’s webpage
referenced above viewable to the public and begun
offering their creative services for the design,
creation, and publication of wedding websites that
celebrate and promote marriages between one man
and one woman.
97. If Plaintiffs obtain the relief requested in the
Complaint, they will immediately publish the
addition to 303 Creative’s webpage referenced above
and begin work designing, creating, and publishing
wedding websites.
98. There are numerous companies in the State of
Colorado and across the nation that offer custom
website design services, the areas of 303 Creative’s
specialization.
99.
For
example,
the
online
directory
http://sortfolio.com/ lists 245 web design companies in
Denver alone and hundreds more nationwide.
100. Likewise, the online directory http://www.design
firms.org lists 114 web design companies in Colorado
and 5,618 in the United States as a whole.
101. The online directory http://unitedstatesweb
designdirectory.com further lists 127 web design
companies in Colorado and 4,097 countrywide.
102. Ms. Smith has a contact form on 303 Creative’s
webpage where the public can contact her to request
her graphic and website design work.

191a
103. The parties also stipulate to the admissibility of
the following exhibits:
x

Exhibit A – An example of the type of wedding
website that Plaintiffs desire to design for
their prospective clients. The attached exhibit
is a compilation of captured images of the
sample wedding website, modified in size and
scope to enhance readability in printed form.

x

Exhibit B - A compilation of captured images
of Plaintiffs’ desired addition to 303 Creative’s
website that are modified in size and scope to
enhance readability in printed form.

x

Exhibit C - Colorado Civil Rights Division’s
Probable Cause Determination in Charlie
Craig v. Masterpiece Cakeshop, Inc. dated
March 5, 2013.

x

Exhibit D - Colorado Civil Rights Division’s
Probable Cause Determination in David
Mullins v. Masterpiece Cakeshop, Inc. dated
March 5, 2013.

x

Exhibit E - Administrative Law Judge’s Initial
Decision in Charlie Craig and David Mullins
v. Masterpiece Cakeshop, Inc. and Jack C.
Phillips dated December 6, 2013.

x

Exhibit F - Colorado Civil Rights Commission’s Final Agency Order in Charlie Craig
and David Mullins v. Masterpiece Cakeshop,
Inc. and Jack C. Phillips dated May 30, 2014.

x

Exhibit G - Colorado Civil Rights Commission’s Final Agency Order in William Jack v.
Azucar Bakery dated June 30, 2015.

192a
x

Exhibit H - Colorado Civil Rights Commission’s Final Agency Order in William Jack v.
Gateaux, Ltd. dated June 30, 2015.

x

Exhibit I - Colorado Civil Rights Commission’s
Final Agency Order in William Jack v. Le
Bakery Sensual, Inc. dated June 30, 2015.

x

Exhibit J - Colorado Civil Rights Division’s No
Probable Cause Determination in William
Jack v. Azucar Bakery dated March 24, 2015.
Pursuant to Colo. Rev. Stat. § 24-34-306(3),
Defendants are prohibited from disclosing
information gathered during the Division’s
investigation of a charge unless the information is disclosed as a result of the Commission
noticing the matter for public hearing. Exhibit
J contains information covered by this
prohibition. Since Exhibit J was not disclosed
by Defendants, and was referenced in the
Masterpiece Cakeshop decision, Defendants
stipulate to its admissibility

x

Exhibit K - Colorado Civil Rights Division’s No
Probable Cause Determination in William
Jack v. Gateaux, Ltd. dated March 24, 2015.
Pursuant to Colo. Rev. Stat. § 24-34-306(3),
Defendants are prohibited from disclosing
information gathered during the Division’s
investigation of a charge unless the information is disclosed as a result of the Commission
noticing the matter for public hearing. Exhibit
K contains information covered by this
prohibition. Since Exhibit K was not disclosed
by Defendants, and was referenced in the

193a
Masterpiece Cakeshop decision, Defendants
stipulate to its admissibility
x

Exhibit L - Colorado Civil Rights Division’s No
Probable Cause Determination in William
Jack v. Le Bakery Sensual, Inc. dated March
24, 2015. Pursuant to Colo. Rev. Stat. § 24-34306(3), Defendants are prohibited from
disclosing information gathered during the
Division’s investigation of a charge unless the
information is disclosed as a result of the
Commission noticing the matter for public
hearing. Exhibit L contains information
covered by this prohibition. Since Exhibit L
was not disclosed by Defendants, and was
referenced in the Masterpiece Cakeshop
decision, Defendants stipulate to its
admissibility

Respectfully submitted this 1st day of February,
2016.
s/Jeremy D. Tedesco
Jeremy D. Tedesco
(Arizona Bar No.
023497)
Jonathan A. Scruggs
(Arizona Bar No.
030505)
Samuel D. Green
(Arizona Bar No.
032586)
Katherine L. Anderson
(Arizona Bar No.
033104)

s/ Vincent Edward
Morscher
Vincent Edward
Morscher
Deputy Attorney General
Civil Litigation and
Employment
Law Section
Colorado Department of
Law
1300 Broadway, 10th
Floor
Denver, CO 80203

194a
ALLIANCE
DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
(480) 444-0028
(facsimile)
jtedesco@ADFlegal.org
jscruggs@ADFlegal.org
sgreen@ADFlegal.org
kanderson@ADFlegal.o
rg
David A. Cortman
(Georgia Bar No.
188810)
Rory T. Gray
(Georgia Bar No.
880715)
ALLIANCE
DEFENDING
FREEDOM
1000 Hurricane Shoals
Road, NE
Suite D-1100
Lawrenceville, GA
30043
(770) 339-0774
(770) 339-6744
(facsimile)
dcortman@ADFlegal.or
g
rgray@ADFlegal.org

Telephone: (720) 5086588
Fax: (720) 508-6032
Vincent.morscher@coag.g
ov
Jack D. Patten, III
Assistant Attorney
General
Civil Litigation and
Employment Law
Section
Colorado Department of
Law
1300 Broadway, 10th
Floor
Denver, CO 80203
Telephone: (720) 5086592
Fax: (720) 508-6032
jack.patten@coag.gov

Attorneys for
Defendants Elenis and
Coffman
Eric Maxfield
First Assistant Attorney
General
Business and Licensing
Section
Colorado Department of
Law

195a
Michael L. Francisco
(Colorado Bar No.
39111)
MRD Law
3301 West Clyde Place
Denver, CO 80211
(303) 325-7843
(303) 723-8679
(facsimile)
MFL@MRDlaw.com

Attorneys for
Plaintiffs

1300 Broadway, 10th
Floor
Denver, Colorado 80203
Telephone: (720) 5086404
Fax: (720) 508-6037
eric.maxfield@coag.gov
Leanne B. De Vos
Senior Assistant
Attorney General
Business and Licensing
Section
Colorado Department of
Law
1300 Broadway, 10th
Floor
Denver, Colorado 80203
Telephone: (720) 5086411
Fax: (720) 508-6037
Leanne.DeVos@coag.gov

Attorneys for
Defendants Aragon,
Chaney,
Elias, Fabrizio, Hess,
Lewis and Pocock
*****

196a
303 Creative Wedding Website
Announcement and Statement

197a

198a

199a

